<html>
<title> - UTAH MINE DISASTER AND PREVENTING FUTURE TRAGEDIES</title>
<body><pre>[Senate Hearing 110-471]
[From the U.S. Government Printing Office]






                                                        S. Hrg. 110-471

           UTAH MINE DISASTER AND PREVENTING FUTURE TRAGEDIES

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                   SEPTEMBER 5, 2007--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations

















  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE

43-788 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





















                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
DANIEL K. INOUYE, Hawaii             ARLEN SPECTER, Pennsylvania
HERB KOHL, Wisconsin                 THAD COCHRAN, Mississippi
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
MARY L. LANDRIEU, Louisiana          LARRY CRAIG, Idaho
RICHARD J. DURBIN, Illinois          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              TED STEVENS, Alaska
FRANK R. LAUTENBERG, New Jersey      RICHARD C. SHELBY, Alabama
ROBERT C. BYRD, West Virginia, (ex 
    officio)
                           Professional Staff
                              Ellen Murray
                              Erik Fatemi
                              Mark Laisch
                            Adrienne Hallett
                             Lisa Bernhardt
                       Bettilou Taylor (Minority)
                    Sudip Shrikant Parikh (Minority)

                         Administrative Support
                              Teri Curtin
                         Jeff Kratz (Minority)

































                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Tom Harkin..........................     1
    Prepared statement...........................................     3
Opening statement of Senator Arlen Specter.......................     4
Opening statement of Senator Robert C. Byrd......................     6
Statement of Senator Orrin G. Hatch..............................     7
Statement of Senator Robert F. Bennett...........................     8
Statement of Hon. Richard E. Stickler, Assistant Secretary of 
  Labor, Mine Safety and Health Administration, Department of 
  Labor, Washington, DC..........................................     9
    Prepared statement...........................................    11
Prepared statement of Senator Patty Murray.......................    30
Statement of J. Davitt McAteer, esquire, vice president of 
  sponsored programs, Wheeling Jesuit University, Shepherdstown, 
  West Virginia..................................................    42
    Prepared statement...........................................    43
Statement of Cecil E. Roberts, international president, United 
  Mine Workers of America, Fairfax, Virginia.....................    49
    Prepared statement...........................................    51
Statement of Bruce Watzman, vice president, safety, health and 
  human resources, National Mining Association, Washington, DC...    62
    Prepared statement...........................................    64
Questions submitted by Senator Daniel K. Inouye..................    76
Questions submitted by Senator Patty Murray......................    77
Questions submitted by Senator Robert C. Byrd....................    79
Questions submitted by Senator Robert F. Bennett.................    81





























 
           UTAH MINE DISASTER AND PREVENTING FUTURE TRAGEDIES

                              ----------                              


                      WEDNESDAY, SEPTEMBER 5, 2007

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Murray, Byrd, Specter, and 
Bennett.
    Also present: Senator Hatch.


                opening statement of senator tom harkin


    Senator Harkin. Good morning. The Appropriations 
Subcommittee on Labor, Health and Human Services, and Education 
will come to order for this hearing on the Utah mine accident 
and improving mine safety.
    As you all know, last month an underground collapse in the 
Crandall Canyon Mine in Utah trapped six miners. All of our 
hearts and prayers go out to the families of those six missing 
miners. Three rescue workers died trying to save the trapped 
miners. One of these brave men, Gary Jensen, was an MSHA 
employee.
    Mr. Stickler, I understand how difficult this must for you 
personally, and I offer my condolences to you and all of the 
MSHA family for the loss of Mr. Jensen.
    Our hearing today will address what we know so far about 
why the accident happened and what we can do to prevent similar 
accidents from occurring in the future. One thing that my 
chairman and I share is that we both come from coal-mining 
families. My father started mining coal in Iowa, oh, about 
1910. A lot of people don't know that Iowa was one of the most 
prolific coal-mining/producing areas of the country at that 
time. He mined coal for over 20 years. I can--now, that was 
long before I was born, but I can remember, as a kid, growing 
up, my father telling me the stories about those years in the 
mines, when they would go down the shaft before the sunrise and 
come up after the sunset. They would go weeks without ever 
seeing the sun, air being pumped down by men that would operate 
the pumps and pump the air down into the mines, and how many 
people were always getting killed. Always getting killed.
    I came across an interesting figure the other day. More 
than 104,000 people have died in our Nation's coal mines over 
the last century--104,000. Hundreds of thousands more, like my 
own father, succumbed to black lung disease--hundreds of 
thousands more.
    So, when this accident happened, I remembered the stories 
of my father, telling me about what happened to them. You 
wonder, with all of this wonderful technology we have today, 
with the Mine Health and Safety Act of 1952, which mandates 
inspections--you wonder why this continues to happen like this. 
This is what we want to look into.
    As I said, a lot's changed since the days my father mined 
coal, but I am concerned and disappointed that MSHA's not been 
able to approve the use of better communications and tracking 
systems, and that mine operators are not employing the best 
technology currently available to protect their employees.
    Our hearing today will focus on what this subcommittee and 
agencies under its jurisdiction--MSHA and NIOSH--are doing to 
make mining as safe as possible. We also need to understand 
MSHA's actions leading up to the accident in the Crandall 
Canyon.
    I have one basic question, Mr. Stickler--I'll get to that 
one with our opening questions--What did MSHA know about the 
so-called ``bounces'' or ``bumps''--they're called ``bounces'' 
in the East, and ``bumps'' in the West, I guess; I call 'em 
cave-ins, that's really what they are--what about the bounces 
that occurred in March before it approved the plan to mine in 
the area of the accidents, 900 feet away--900 feet away--what 
did MSHA know about that? Is the approval process for this type 
of mining rigorous enough--this type of retreat mining? Is the 
inspection process identifying everything it should when miners 
are pulling pillars of coal 2,000 feet beneath the earth?
    I have the report of the engineering company. Well, I have 
it someplace here, reading it last night. The report of the 
engineering company that went out and--after the first bounce 
in March, and then recommended the subsequent bigger pillars 
900 feet to the south. What did MSHA know about this? I want to 
find out the answer to that question.
    We also need to know how the rescue operation was 
developed. Did we get the best thinking and technology 
available, to the table? What did we learn about what other 
countries are doing in effective mine rescue operations that 
can be adopted here? MSHA sponsored the Third Annual 
International Mine Rescue Conference, just last week. What are 
we learning? Most importantly, why do we continue to have these 
hearings? We had 'em under Senator Specter, when he was chair. 
We had one earlier this year. Here we are again. Eighteen 
months since the hearing after the Sago disaster in West 
Virginia, Senator Byrd's home.
    This Congress has taken significant steps to give the 
administration the resources and tools it needs to work toward 
zero fatalities and serious injuries in underground coal mines. 
The 2006 emergency supplemental appropriations bills included 
$25 million to hire more mine inspectors. Well, what happened, 
Mr. Stickler? The 2007 appropriations bill included more than 
$300 million for MSHA, $14 million more than the President 
requested in his budget. What's happened?
    The administration must respond by effectively spending 
these substantial resources in delivering the kind of results 
that mining families across the country expect and deserve.
    Now, I'm told that--actually, it's the Salt Lake Tribune 
really has done, I think, a superb job in investigative 
reporting on this, and uncovered a memo revealing that there 
had been serious structural problems at the Crandall Canyon 
Mine in March, 900 feet away; pointed out there had been 324 
violations attributed to this company and its subsidiary, of 
which 107 were considered, in the words of a Federal mine 
safety agency spokesman, quote, ``significant and 
substantial.'' Yet I think the total amount of fines to that 
company was about $19,000. These are serious allegations. We 
need to know what MSHA's doing, and we need to get to the 
bottom of this, and quit having these kind of hearings every 
time we have a disaster.


                           prepared statement


    I know mining's unsafe. I know it is a hazardous 
occupation. But new technologies, new procedures, inspections, 
should reduce, to the minimum possible, these kinds of 
accidents. I don't think that's happening right now.
    [The statement follows:]
                Prepared Statement of Senator Tom Harkin
    Good morning, the Appropriations Subcommittee on Labor, Health and 
Human Services, and Education will now come to order for this hearing 
on the Utah mine accident and improving mine safety.
    As we all know, last month, an underground collapse in the Crandall 
Canyon mine in Utah trapped 6 miners. My heart goes out to the families 
of the 6 missing miners.
    Three rescue workers died trying to save the trapped miners. One of 
those brave men, Gary Jensen, was an MSHA employee. Mr. Stickler, I 
understand how difficult this must be for you personally and I offer my 
condolences to you for the loss of Mr. Jensen. Our hearing today will 
address what we know so far about why this accident happened and what 
we can do to prevent similar accidents from recurring in the future.
    I come from a coal mining family, so I appreciate the risks 
involved in mining. My father was a coal miner, starting around 1910. 
Not many people are aware that Iowa was a coal producing State in the 
early 20th century. In fact, my father mined coal there for 23 years.
    Not only was Iowa an active coal State, it also is home to the 
great labor leader, John L. Lewis. Lewis was born February 12, 1880, to 
Welsh immigrant parents, in the coal mining camp of Cleveland, Iowa--
one mile east of Lucas. Now, Lucas is home to a museum in his honor.
    Anyhow, I'll never forget the stories my dad told me about how they 
used to pump air down into the mines, and ride rickety old elevators 
down the mine before sunrise and come back up after the sun had set. He 
and his fellow miners would describe the cave-ins and other tragic 
losses of their friends. The bravery of these men really left an 
impression on me. It's also why I believe we need to do all we can to 
protect workers who operate in dangerous settings like these.
    A lot has changed since my father started mining in Iowa, almost 
100 years ago. That's why I continue to ask why we don't have better 
systems for communicating safely and effectively with miners 
underground after an accident, or at least knowing where they are 
through some tracking technology. I am disappointed that MSHA has not 
been able to approve the use of better communication and tracking 
systems and that mine operators are not employing the best technology 
currently available to protect their employees.
    Our hearing today will focus on what this subcommittee and agencies 
under its jurisdiction--MSHA and NIOSH--are doing to make mining as 
safe as possible. We also need to understand MSHA's actions leading up 
to the accident in Crandall Canyon. What did MSHA know about the 
bounces that occurred in March before it approved the plan to mine in 
the area of the accident? Is the approval process for this type of 
mining rigorous enough? Is the inspection process identifying 
everything it should when miners are pulling pillars of coal 2,000 feet 
beneath the earth?
    We also need to know how the rescue operation plan was developed. 
Did we get the best thinking and technology available to the table? I 
know MSHA sponsored the third annual International Mine Rescue 
Conference just last week. What did we learn about what other countries 
are doing in effective mine rescue operations that can be adopted here?
    Most importantly, why do we continue to have these hearings? Its 
been more than 18 months since the hearing after the Sago disaster in 
West Virginia.
    This Congress has taken significant steps to give the 
administration the resources and tools it needs to work toward zero 
fatalities and serious injuries in underground coal mines. The 2006 
emergency supplemental appropriations bill included $25 million to hire 
more mine inspectors. The 2007 appropriations bill included more than 
$300 million for MSHA, almost $14 million more than the President 
requested in his budget. The administration must respond by effectively 
spending these substantial resources and delivering the kind of results 
that mining families across the country expect and deserve.
    Before we hear from our witnesses, I would like to recognize 
Senator Byrd and Senator Specter for their vital role on mine safety 
issues. Senator Specter and I continue the seamless passing of the 
gavel for this subcommittee and both had a great interest in calling 
for this hearing. He is a true friend to miners in Pennsylvania and the 
United States. His legislation was crucial in forging the bipartisan 
MINER Act, which was passed last June.

    Senator Hatch. With that, I would defer to Senator Specter, 
then Senator Byrd, for opening statements.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Thank you, Mr. Chairman.
    This subcommittee is convened, again, to look into another 
tragedy, a coal-mining disaster taking the lives of six miners, 
the lives of three rescue workers, another great tragedy. 
Again, the question is, Why? Beyond the generalized question of 
why, there are many specific questions, which this subcommittee 
will inquire into.
    At the outset, let me note the presence of our two 
colleagues from Utah: Senator Hatch, who had been the chairman 
of the Committee on Labor, in years gone by, going back to the 
97th Congress, and Senator Bennett, who is on the full 
committee; and to note that Secretary of Labor Chao has 
appointed an independent team of mine safety experts, and that 
Governor Jon Huntsman, of Utah, is very deeply involved in the 
inquiry. But this subcommittee has been especially vigilant in 
this area for my tenure in the Senate, which goes back to the 
1980 election. As Senator Harkin noted, we have been on these 
matters, regardless of who chaired the subcommittee, and the 
special diligence of the chairman of the full committee, 
Senator Byrd, who has a very deep interest in these subjects 
from his experience in West Virginia, which is a big coal-
mining State.
    The questions begin with the sale of the Crandall Canyon 
Mine from--UtahAmerica, Incorporated, purchased the mine from 
Andalex Resources on August 9, 2006, because Andalex declined 
to do any further mining at Crandall Canyon, because it was too 
risky for worker safety. Well, if it's too risky for worker 
safety, why do the mine operations go on?
    Then there was a bump, or bounce. That's an expression 
which is used to describe a situation where, as here, you have 
1,500 to 2,000 feet of coal--of mountain on top of coal 
pillars. When the mountain settles, there's pressure on the 
coal pillars, and the coal explodes and fills the mine and coal 
with debris. There, on March 12 of this year, you had this kind 
of an occurrence. So, how could Mine Safety, your department, 
Mr. Stickler, authorize mining only 900 feet away from the mine 
collapse? Our inquiries have raised a question as to whether it 
was even known to MSHA. Hard to see how that would not be 
known, but that's a matter we're going to be pursuing here.
    Then you have the issue of violations, which Senator Harkin 
commented about, 67 citations issued at Crandall Canyon since 
Mr. Murray purchased the mine. Twenty-one were, ``serious and 
substantial,'' only fines of $19,662. The proposed penalty for 
10 of those ``serious and substantial violations'' was zero. My 
experience as an enforcer has been that it takes tough 
penalties to deter misconduct. The question here, that looms 
over the entire proceeding with these nine deaths, is whether 
there was criminal negligence involved here, knowing that these 
risks were involved. We've got to get into the details as to 
what occurred here.
    Your predecessor, Assistant Secretary David Lauriski, 
initiated a ``new compliance assistance,'' as opposed to the 
greater emphasis on penalties, leading the United Mine Workers' 
testimony, ``chilled enforcement efforts at the mine level had 
allowed operators essentially to negotiate workplace health and 
safety matters''. So, we're really looking at a situation as to 
whether we have a license to ignore the law. Those are all 
major matters, which we have to look into.
    Then you have the rescue operations, where--the incident 
was on August 6. On August 11, there was a significant bump. On 
August 15, there were three significant bumps. Then another 
bump on August 16, resulting in the death--two miners and an 
inspector. Well, what was the quality of the safety precautions 
taken with all of these bumps lined up? You have the testimony 
of a group of experts, Robert Ferriter, director of the 
Colorado School of Mines, 27-year veteran of MHSA, highly 
critical of the decision to allow retreat mining of the 
southern tunnel because of--the weight of the mountain above 
would not have been sufficient from the weight in the northern 
tunnel, which collapsed only 900 feet away from the operations. 
Similar comments made by Dr. Larry Grayson, head of the Penn 
State University Mining and Engineering Program, and Tony 
Opachar, former MSHA inspector.
    Then you have the activity of Mr. Robert Murray, the owner, 
taking over on the relations with the media and with the 
families, leading to a situation where you, Mr. Stickler, had 
to ask the sheriff to keep Robert Murray out of the meeting. 
Robert Murray said there was an earthquake, tried to represent 
that it was an act of God and no fault on the part of the mine 
owners, Mr. Murray being the mine owner. A little surprised to 
find out, yesterday, that Mr. Murray is not here today, was 
given adequate notice to come. First he said he was too busy, 
and now he says he's too sick, but he hasn't given us any 
doctor certification as to his problem. We had not issued a 
subpoena. Wherever he has a colorable reason, we would be 
inclined to honor it, but a little peremptory on his part just 
to tell us he's not coming. I've discussed with the chairman 
the issue of a subpoena, and I am personally convinced we need, 
and will issue, a subpoena here. We will not allow him to avoid 
answering questions from this subcommittee, which has 
jurisdiction over this very important matter.
    So, we will be pursuing this matter with real intensity, 
Mr. Stickler, to find the answers to these questions, and to 
give assurances to the families of these nine men who lost 
their lives, and to give assurances to the miners who risk 
their lives, day in and day out, that this subcommittee and the 
Senate and the Congress will be vigilant finding the answers 
and moving to impose sanctions, where appropriate, and to do 
our best to ensure safety in the future.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Specter.
    Senator Byrd.

              OPENING STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you, Senator Harkin. Thank you, Senator 
Specter. Thank you for scheduling this hearing. Thank you for 
everything you do on behalf of America's coalminers.
    When disaster struck at the Sago Mine last year, it was 
described by some as an anomaly. There were even suggestions 
that the 12 fatalities at that mine should not reflect upon the 
actual performance of MSHA, which, it was claimed, is improving 
now. In the short span of 12 days between August 4 and August 
16, seven miners were killed, six more presumed dead. Two days 
ago, another miner was killed in Mingo County, West Virginia, 
bringing the total number of fatalities this year to 24, which 
more than doubled the total number of fatalities for 2007, 
compared to 1 month ago.
    More worrisome is the article in today's Charleston 
Gazette, reporting that MSHA, this year, has not yet performed 
a regular full inspection of the Bronzite Mine in Mingo County, 
West Virginia, where the fatality occurred on Monday. It should 
be clear now--and I hope and pray that it is clear to the 
officials at the Department of Labor--that these tragedies are 
certainly not anomalies. To claim that they are is an insult to 
the families of the deceased. That claim is a shallow attempt 
to deny that something has gone terribly wrong within the 
agencies and offices charged with the safety and health of our 
Nation's coalminers.
    Since the tragedy at Crandall Canyon, there has been a lot 
of talk about the dangers of retreat or secondary mining, and 
whether that practice ought to be prohibited. That is as it 
should be. But let us not obscure the larger questions about 
MSHA's role at Crandall Canyon. While there is enough blame to 
go around, MSHA clearly had the final responsibility for 
approving or disapproving the mining operation at the Crandall 
Mine. Why did MSHA approve such a dangerous method of mining in 
such an unstable location in the first place? MSHA was intended 
to be a strong Federal agency with the authority to 
investigate, penalize, and, when necessary, shut down a coal 
mine for safety violations.
    It is infuriating to watch MSHA, even after the tragedy at 
Sago, continue a tepid, disjointed, and minimalist approach to 
mine safety. What the hell does it take to shake up that 
agency?
    Mr. Stickler, you were appointed to head MSHA, last year. I 
like you very much. But the buck, as they say, stops with you. 
In the aftermath of Sago last year, the Congress gave you the 
authorities you requested as part of the MINER Act. The 
Appropriations Committee gave you the funding to hire the 
additional safety inspectors. The Appropriations Committee 
increased the budget for coal enforcement so that you could 
expedite the implementation of the MINER Act. Yet, such 
tragedies are continuing to happen, claiming the lives of a 
dozen miners at a time. What is the problem at MSHA? What the 
hell is the problem at MSHA? It's no secret that I have a hold 
on your nomination, yeah, like that. I have a hold on your 
nomination. We have met several times to discuss your efforts 
at the agency, and I've enjoyed meeting with you, and I respect 
your sincerity. But, Mr. Stickler, it is past time--way past 
time--to take the gloves off, take charge of the agency you 
have been entrusted with managing, crack some heads--yes, crack 
some heads, get rid of the political deadweight now, and 
empower your inspectors to go after recalcitrant coal operators 
who are daily putting the lives of our miners at risk. These 
miners are brave men and women. They toil in the darkness of 
the earth and in danger. They have families, friends, lives 
they want to live. Show us that you're going to do whatever it 
takes to protect them.
    Thank you.
    Senator Harkin. Thank you very much, Chairman Byrd.
    Normally, I--we have always operated this way, that the 
chairman and ranking member makes opening statements. Of 
course, out of respect for the full chairman or full ranking 
member, if they're here, we let them making opening statements. 
But, since this did occur in the States represented by two of 
the Senators who are here, I would respectfully request any 
opening statements or remarks that they might have at this 
time, and I would go first to Senator Hatch the ranking Senator 
from Utah, if you had any opening remarks at all.

                  STATEMENT OF SENATOR ORRIN G. HATCH

    Senator Hatch. Well, thank you, Mr. Chairman, it's so nice 
of you to do that. I hadn't planned on making any opening 
statement, but both Senator Bennett and I are very pleased that 
you and Senator Specter have invited us to participate in this 
hearing today, because we're very concerned.
    Let me just, if I can, take a few moments, and congratulate 
those who tried to save the six trapped miners, and express my 
heartfelt gratitude to the three brave rescuers who gave their 
lives in an attempt to rescue the six trapped miners in the 
Crandall Canyon Mine. I am honored to serve the people of 
Utah--as is Senator Bennett--who are among the most selfless 
individuals in the country. Mr. Brandon Kimber, Mr. Dale Black, 
and Mr. Gary Jensen, the three rescuers that bravely gave the 
ultimate sacrifice in an attempt to free their six trapped 
colleagues, are all examples of the best Utah has to offer, and 
our thoughts and prayers continue to be with their families at 
this difficult time, as well as with the families of the six 
miners who were lost in the tragedy and others who have been 
injured. On behalf of all of our fellow Utahans, I'd like to 
say thank you to the thousands of people who have expressed 
kind words, thoughts, and prayers on behalf of these affected 
by the accident.
    I also would like to extend some praise to the officials, 
who responded so aptly to the crisis immediately following the 
mine collapse. Like only Utahans can do, we came together as a 
community to respond as one, leaving aside title and agency 
designations. We had Federal, State, and local officials 
working seamlessly together to do all they could to rescue the 
six trapped miners.
    Personally, I'd like to publicly thank Mr. Richard 
Stickler, who joins us today, for traveling to Utah almost 
immediately after the collapse, and remaining at the mine site 
for most of the days that this went on. Utah's able Governor, 
Jon Huntsman, was there every day, and his dedicated team of 
professionals. They deserve special recognition for their 
immediate response to the mine collapse. I'd also like to thank 
the mayor of Huntington, Mayor Hilary Gordon, as well as the 
mayor of Price, Joe Piccolo, and the hard work of Sheriff Lamar 
Guyman and his team of law enforcement officials, who continue 
to secure the mine site. These are people that are heroes, in 
my eyes.
    Mr. Stickler, I was there with you a number of times, and 
all I can say is that what I saw from you was as much caring 
and consideration as I've ever seen in any of these situations, 
so I want to personally express my gratitude to you again.
    Mr. Chairman, thank you for being so kind to us.
    Senator Harkin. Thank you, Senator Hatch.
    Senator Bennett.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman. 
Appreciate the opportunity of being here.
    Like Senator Hatch, I want to express my condolences to the 
families who have lost loved ones in both the initial accident 
and the rescue operation. I have deep respect for the Utah 
miners and all those who toiled with respect to this tragic 
event. I've discovered again how tightly knit the mining 
communities in central Utah really are, and this is not just a 
tragedy for the families, it's a tragedy for all of those who 
are part of that particular culture in that part of our State. 
Coal mining is a dangerous operation.
    We can take some comfort in the statistical fact that, if I 
might, Mr. Chairman, going back to your father's day, in the 
1920s the annual fatality rate was 3.36 miners per 1,000 per 
year, and today it's .2 per 1,000 per year. So, as a Nation, we 
have made a great deal of progress from the days that you talk 
about.
    But, as Senator Byrd has reminded us, the tragedies of the 
last 30 to 60 days indicate that we must continue to make 
progress and not be lulled into a sense of security by the 
progress that has been made.
    Now, I'm looking forward to the testimony of Mr. Stickler. 
I was at the mine with him a day after the initial accident. 
Remember very clearly the briefing that we received and the 
assurances, that were very firm and across the board--from 
local officials, from the operator, and from MSHA officials--
that there would be no further rescue operations until the 
seismic activity in the mountain had stopped. There had been 
initial rescue operations that stopped because of seismic 
activity, feeling that they were endangering those who were--
those who were involved. There was some impatience, on the part 
of people who don't understand mining, that the rescue 
operations had stopped. But it was clearly understood that 
we're not going to resume any rescue operations until the 
seismic activity within the mountain had ceased. So, it was 
with great pit--feeling in the pit of my stomach when I heard, 
later, that rescue operations had begun again, and that three 
more individuals were killed.
    So, I would look forward to a discussion with Mr. Stickler 
on the question of why the rescue operations were resumed, what 
information they had with respect to the state of the mountain 
and with the state of security or protective measures that 
might have been taken. I think that's clearly something that we 
need to get into, in some greater detail.
    Now, I'm pleased that Secretary Chao has initiated an 
independent investigation into the role of MSHA with respect to 
this disaster, along with the Governor of the State of Utah, 
who has his own investigation, going forward. I look forward to 
the time when we have the results of those investigations, so 
that we can then make whatever public policy decisions we need 
to make as to what needs to be done, further.
    So, I look forward to a productive hearing. I welcome Mr. 
Stickler here, as I welcomed him to our State. We have unique 
topography, and it may be that solutions that are effective in 
other parts of the country are not effective in Utah. I hope we 
can use this tragedy as an opportunity to find out exactly what 
it is we need to do to make mining as safe as possible in the 
future, not only for my own State, but for all miners 
everywhere.
    Thank you, Mr. Chairman, for convening the hearing and for 
allowing Senator Hatch and me to participate.

                        INTRODUCTION OF WITNESS

    Senator Harkin. Thank you very much, Senator Bennett. 
Senator Hatch, thank you for being here today.
    Well, we'll turn now--Mr. Richard Stickler, our first 
panel--then we'll move on to our second panel--Assistant 
Secretary of Labor for Mine Safety and Health Administration. 
Prior to his appointment, director of the Pennsylvania Bureau 
of Deep Mine Safety, from 1997 to 2003. Mr. Stickler is a 
native of West Virginia, received his BA from Fairmont State 
University, and is certified as a mine safety professional by 
the International Society of Mine Safety Professionals.
    Mr. Stickler, we welcome you, again, to the subcommittee. I 
have your statement; it'll be made a part of the record in its 
entirety. I'd ask you to summarize it within, well, 7 to 10 
minutes, and then we'll get to questions.
STATEMENT OF HON. RICHARD E. STICKLER, ASSISTANT 
            SECRETARY OF LABOR, MINE SAFETY AND HEALTH 
            ADMINISTRATION, DEPARTMENT OF LABOR, 
            WASHINGTON, DC
    Mr. Stickler. Thank you. Good morning. Chairman Harkin, 
Chairman Byrd, ranking member Specter, Senator Hatch, Senator 
Bennett, and members of this subcommittee, I want to thank you 
for the invitation to appear here today.
    The professionals that comprise the Mine Health and Safety 
Administration, many of whom are former miners, feel profound 
sadness over the accidents at Crandall Canyon Mine.
    As a third-generation coalminer, I have worked in the 
mining industry nearly 40 years. I know firsthand that every 
fatality, serious injury, and occupational illness and disease 
is devastating for the miners, their families and the 
communities they live in. That is why I'm deeply saddened by 
the tragic accident at Crandall Canyon Mine that occurred on 
August 6 involving Manual Sanchez, Brandon Phillips, Alonso 
Hernandez, Don Erickson, Carlos Payan, and Kerry Allred, and 
the subsequent accident, during the rescue effort, that claimed 
the lives of the heroic rescue workers, Brandon Kimball, Dale 
Black, and Gary Jensen, who was one of MSHA's own safety 
professionals. These events underscore the importance of MSHA's 
mission to protect the health and safety of the Nation's 
miners.
    In the wake of this accident, my resolve and MSHA's 
commitment to enforcing the mine safety and health laws have 
never been stronger. We will not know the cause of these 
tragedies until MSHA completes its accident investigation, but 
I assure you we'll expeditiously act on the findings to help 
prevent similar accidents in the future.
    MSHA's accident investigation team will meet with the 
family members today and will begin their accident 
investigation onsite at the mine. In addition, Department of 
Labor has taken the unprecedented step of appointing an 
independent review team of outside mine safety experts to 
review the actions of MSHA relative to the Crandall Canyon Mine 
accident.
    What we currently know is that, at approximately 2:50 a.m. 
mountain time on August 6, a mountain bump occurred at the 
Crandall Canyon Mine located near Huntington, Utah. The force 
of this bump registered 3.9 on the Richter scale. Seismologists 
with the U.S. Geological Survey National Earthquake Information 
Center have since stated that the seismic event was the result 
of a mine collapse. Inside the mine, the force of the bump was 
so intense that it blew out the ventilation walls more than a 
half a mile from the bump area. In my nearly 40 years of 
working in the mine industry, I have never seen a catastrophic 
mountain bump of this magnitude.
    One of the most difficult and longstanding engineering 
problems associated with mining is the catastrophic failure of 
mine structures, known as ``bumps.'' Coal and rock outbursts 
caused by bumps have presented serious mining problems for 
decades, in metal, nonmetal mines, and also coal mines, and 
have occurred as the result of all types of mining systems, 
including longwall mining, room-and-pillar developed mining, 
room-and-pillar retreat mining, and pillar splitting. While 
ground control experts have determined methods to minimize the 
results of--and the occurrence of--mountain bumps, they cannot 
always accurately predict when they will occur, nor can they 
design mining plans that will guarantee that they will not 
occur.
    After we learned of the six miners who were missing, the 
rescue attempt within the mine moved very slowly, because we 
required the installation of rib supports, consisting of 40-ton 
water jacks, chain-link fence, and heavy steel rope cables in 
front of the water jacks in order to protect the rescue workers 
from further mountain bumps. These safety precautions, which 
were recommended by experts from MSHA and outside the agency, 
proved to be inadequate to prevent the second bump from fatally 
injuring three rescue workers.
    At that point, MSHA suspended the rescue attempts inside 
the mine, while continuing rescue work from the surface of the 
mine. In all, seven bore holes were drilled, but rescuers have 
not been able to determine the location of the miners. In every 
bore hole, the rescuers attempted to lower a microphone and a 
camera to see if they could hear or see the trapped miners. 
However, none of these communication efforts have been 
successful. Last week, we informed the families that we had 
exhausted all known rescue options and were forced to suspend 
the rescue operation.
    MSHA has and continues to be responsive to the families. 
MSHA provided interpreters for the Spanish-speaking families 
and encouraged members of the clergy to participate in the 
family briefings.
    I spent several hours every day with the families of the 
trapped miners, doing whatever I could to be responsive to 
their needs, to answer all the questions they had, and provide 
what information we could to them.
    Our personnel continue to provide information through 
counseling and our family liaisons that MSHA has onsite, and 
will continue to do so throughout this accident investigation. 
We will work hard to make sure that the family members are 
communicated with, the lead investigator will update the family 
members, follow up on any questions and concerns that they have 
throughout the course of this accident investigation.

                           PREPARED STATEMENT

    We, at MSHA, work hard every day to ensure that every miner 
returns home safely to his family after every shift, and the 
events of those--at Crandall Canyon affect us greatly, because 
our goal is to prevent all fatalities. I thank you for inviting 
me here today, and I look forward to answering your questions.
    [The statement follows:]
             Prepared Statement of Hon. Richard E. Stickler
    Chairman Harkin, Chairman Byrd, Senator Specter, members of the 
subcommittee, thank you for the invitation to appear before you today.
    As a third-generation coal miner, I have worked in the coal mining 
industry for more than 40 years. My experience includes working shifts 
in underground coal mines, serving as the captain of a mine rescue 
team, and working in and around mine sites and mining communities every 
day. I know firsthand that every fatality, injury, and illness is 
devastating for miners, their families, and the communities they live 
in. That is why I am deeply saddened by the tragic accident resulting 
in 6 missing miners that occurred at the Crandall Canyon mine on August 
6, 2007, and the subsequent accident during the rescue effort that 
claimed the lives of three rescue workers, including one Mine Safety 
and Health Administration (MSHA) employee on August 16, 2007.
    These events underscore the importance of the agency's mission to 
protect the safety and health of the Nation's miners. In the wake of 
this accident, my resolve and MSHA's commitment to enforce the Nation's 
mine safety and health laws have never been stronger. We will not know 
the cause of these tragedies until MSHA completes its accident 
investigation. The Crandall Canyon mine accident investigation team is 
presently at the mine to conduct their onsite investigation activities. 
The Department has named an independent review team to look at MSHA's 
actions at the Crandall Canyon Mine before August 6, 2007.
                     crandall canyon mine accident
    On August 6, at approximately 2:50 a.m. Mountain Daylight Time, a 
mine bump occurred at the Crandall Canyon mine, located near 
Huntington, Utah. The force of this mine bump was registered by 
seismographs, and the U.S. Geological Survey National Earthquake 
Information Center initially reported that an earthquake with a 
magnitude of 3.9 on the Richter Scale occurred near the mine. 
Seismologists with the U.S. Geological Survey National Earthquake 
Information Center in Colorado and the University of Utah have since 
stated that the seismic event was a mine collapse, not an earthquake. 
Inside the mine, the force of this bump was so intense that it blew the 
ventilation stoppings out through cross-cut 95--more than a mile from 
the area where the miners were working. Since the event, six miners--
Manuel Sanchez, Brandon Phillips, Alonso Hernandez, Don Erickson, 
Carlos Payan, and Kerry Allred--have been missing. The subsequent 
rescue attempt within the mine moved slowly, because safety dictated 
the installation of rib supports consisting of 40-ton rock props, 
chain-linked fence and steel cables to protect the rescue workers from 
further mine bumps. These safety precautions--which were recommended by 
experts from MSHA and outside the agency--proved to not be strong 
enough to prevent a second burst from fatally injuring three rescue 
workers, Brandon Kimber, Dale Black, and Gary Jensen, who worked for 
MSHA. At that point, MSHA halted the rescue attempts inside the mine, 
while continuing the rescue work from the surface.
    In order to understand how we arrived at the events of August 6, I 
want to provide the committee with the background of the mine. Mining 
began at Crandall Canyon mine in 1981. According to MSHA records, 
Murray Energy Corp. became the mine's controller on August 9, 2006. 
Since Murray Energy took ownership of the operation last year, MSHA has 
issued 67 violations against the mine, plus the section 103(k) order 
issued immediately after the accident on August 6, 2007.
              msha inspection activity at crandall canyon
    Under the Mine Safety and Health Act, MSHA is required to inspect 
all underground coal mines four times a year. Since the purchase of the 
Crandall Canyon mine by Murray Energy, MSHA has performed 5 regularly 
scheduled inspections, two spot inspections, responded to a complaint 
from a whistleblower, and performed a roof control technical 
inspection. One of the regularly scheduled inspections was occurring 
when Murray Energy Corp. purchased the mine. A total of 73 citations 
were issued during these inspections with proposed penalties of 
$19,662.
                crandall canyon emergency response plan
    Under the MINER Act, all underground coal mines are required to 
develop and adopt a written emergency response plan (ERP) that provides 
for the safe evacuation of miners and the maintenance of miners trapped 
underground. The ERP for Crandall Canyon mine was approved on June 13, 
2007. The Crandall Canyon mine was in compliance with the SCSR 
requirements, the lifeline requirements, the communications 
requirements, the tracking, training, post-accident logistics, and 
local coordination requirements. The mine had elected to use refuge 
shelters comprised of oxygen cylinders and pre-packaged soda lime 
cartridges to meet its breathable air requirement and had placed a 
purchase order but had not received the refuge shelter. Finally, the 
mine used personal emergency devices (PEDs)--which are not required 
under the ERP--in addition to its redundant communications systems.
                 retreat mining at crandall canyon mine
    MSHA's records indicate the first plan for retreat mining at 
Crandall Canyon Mines was approved on September 27, 1989. Prior to 
Murray Energy taking control, all longwall mining was completed and 
room and pillar mining was conducted at various locations. Since August 
2006, MSHA has approved two amendments to the Crandall Canyon roof 
control plan that allowed for pillar extraction in both the North 
Barrier of Main West and in the South Barrier of Main West of the mine. 
The first plan for retreat mining under Murray Energy Corp.'s ownership 
was approved on February 2, 2007. The roof-control plan for the mine 
was amended to allow retreat mining of the North Barrier of the Main 
West and was signed by the District Manager. A second amendment to the 
roof control plan was approved on June 15, 2007, for retreat mining of 
the South Barrier of the Main West. The accident on August 6, 2007, 
occurred in the South Barrier of Main West.
    As part of the operator's submission for roof control approval, two 
geotechnical reports by Agapito Associates, Inc. (Agapito) were 
provided to MSHA for review and consideration. Agapito concluded that 
retreat mining could be conducted safely in that area of the mine. 
Prior to the approval of the plan, a MSHA roof control supervisor and 
specialist visited Crandall Canyon to assess the conditions in the 
North Main Barrier and based on their observations in that area, 
required amendments to the roof control plan for additional roof 
supports. In addition, MSHA required Crandall Canyon to install 
additional roof support for retreat mining in the North Main Barrier.
    Mining took place on the North Main Barrier until March 2007, when 
a mountain bump occurred. MSHA was not notified about this bump or the 
magnitude of the bump when it occurred. The accident investigation team 
will determine whether the incident was required to be reported to MSHA 
as part of its work. After the bump, mining was abandoned in that 
section and Crandall Canyon submitted another amendment to its roof 
control plan asking for permission to use retreat mining in the South 
Main Barrier. It again commissioned Agapito to evaluate the stability 
of that section of the mine. While Agapito again concluded that retreat 
mining could be conducted safely, it also suggested extending the 
remaining coal pillars that were left to support the roof from 80 by 92 
feet to 80 by 129 feet. A MSHA roof control supervisor and a roof 
control specialist were underground in the South Barrier Section on May 
22, 2007, to evaluate the operator's submitted plan to retreat mine. 
The retreat mining plan with the increased pillar dimensions was 
approved on June 15, 2007.
                       retreat mining of pillars
    Much has been made in the media about retreat mining. Retreat 
mining is a common practice where coal is mined from coal pillars. When 
this coal is mined the roof normally falls in a structured manner to 
relieve the pressure placed on the underground mine workings. As of 
August 21, 2007, 223 underground coal mines had approved roof control 
plans that allow for pillar-removal. This represents 48 percent of all 
active underground coal mines. Retreat mining can be conducted safely, 
especially with today's technological advances that include mobile, 
remote controlled roof supports, if the roof control plans are adhered 
to. Overall, the roof fall fatality rate in U.S. underground mines has 
averaged 0.001 per 200,000 hours worked (or 1 per 100,000 full time 
miners) in recent years (prior to the Crandall Canyon incident), down 
significantly from its average in the past.
                               mine bumps
    One of the most difficult, longstanding engineering problems 
associated with mining is the catastrophic failure of mine structures 
known as bumps. Coal and rock outbursts caused by bumps or bounces have 
presented serious mining problems for decades in metal, non-mental, and 
coal mines. Fatalities and injuries have resulted when these 
destructive events occur.
    Bumps have been categorized as either pressure or shock bumps. A 
pressure bump occurs when a pillar in a developed area is statically 
stressed past the failure strength of the pillar. A shock bump is 
caused by dynamic loading of the pillar through dramatic changes in 
stress distribution within the overlying strata as the result of 
breaking of thick, massive strata. In many cases bumps are the result 
of the combination of both pressure and shock forces. Bumps occur when 
complex arrangements of geology, topography, in situ stress and mining 
conditions interact to interfere with the orderly dissipation of 
stress. Strong, stiff roof and floor strata not prone to failing are 
also contributing factors when combined with deep overburden. Questions 
about the influence of individual factors and interaction among factors 
arise, but are difficult to answer owing to the limited experience at a 
given mine.
    Bumps have occurred in all types of mining systems. A United States 
Bureau of Mines report that reviewed bumps that occurred between 1936 
and 1993 found that pillar retreat mining accounted for 35 percent of 
the bumps, pillar splitting for 26 percent, long-wall mining for 25 
percent, and development mining for 14 percent. Long-wall mining 
methods have increasingly replaced pillar retreat mining since the 
1960's and would most likely account for a higher percentage of bumps 
today.
    With more mining operations moving into reserves under deeper 
overburden and/or below previously-mined areas, there is a need to 
understand methods to prevent, and, in the event they do occur, to 
mitigate the consequences of, bumps in such new circumstances. For this 
reason, MSHA is already reviewing operators' ground control plans to 
ensure operators minimize the dangers associated with bumps. In 
addition, MSHA is in consultation with the National Institute for 
Occupational Safety and Health (NIOSH), in the Department of Health and 
Human Services, about appropriate research focusing on the danger of 
bumps in those circumstances.
                    crandall canyon accident outline
    On the early morning of August 6, 2007, a ground failure occurred 
at the Crandall Canyon Mine in Huntington, Utah, that, according to the 
U.S. Geological Survey, registered 3.9 on the Richter Scale, and was 
initially reported by the Associated Press as an earthquake. MSHA's 
call center was subsequently notified and MSHA quickly dispatched an 
inspector to the mine site. Before arriving on site, MSHA issued a 
section 103(k) order over the phone which required workers to evacuate 
the mine and effectively secure the site.
    Shortly after arriving on site, the MSHA inspector contacted the 
MSHA Field Office to report that a six-man crew was working in the 
South Barrier section (where the accident occurred) when a bounce 
occurred that extensively damaged the mine's ventilation controls. 
These individuals were unaccounted for, but they were believed to be 
working approximately four miles from the mine's entrance.
    On the afternoon of August 6, 2007, with MSHA's approval, Murray 
Energy Corp. began mucking out the Number 4 entry at crosscut 120. 
Meanwhile, a mine rescue team had breached the Number 1 seal in Main 
West, hoping to be able to get behind that seal and clear an easier 
pathway to crosscuts 138 and 139 to more expeditiously reach the 
trapped miners. Unfortunately, the rescue team encountered significant 
amounts of coal blocking its pathway, and then had to withdraw 
altogether from the sealed area because another bounce occurred.
    Mucking or clearing out the fallen coal from the main entry was a 
time-consuming process and Murray Energy and MSHA believed that we 
needed to more quickly reach the trapped miners to save their lives, if 
they survived the initial collapse. Thus, following the first day of 
the rescue operation, Murray Energy decided, with MSHA's consultation 
and approval, to drill bore holes into the mine from the surface in an 
attempt to establish contact with the miners and to assess the 
conditions in the area where they were believed to be.
    By August 7, drilling had begun on the first borehole, which was a 
two-inch hole at crosscut 138. The mine operator selected all of the 
borehole locations with input and approval from MSHA. These locations 
were based upon the probable locations of the missing miners after the 
first bounce occurred on August 6. The first set of boreholes was 
drilled to intersect the mine at the location where the miners were 
last thought to be working at the time of the accident. Mine survey 
coordinates were used to pinpoint specific drilling locations.
    In all, seven boreholes have been drilled (the rest being 8\5/8\ 
inches in diameter) but rescuers have not found the location of the 
miners. In every borehole, rescuers attempted to insert a microphone 
and camera to either hear or see the trapped miners. Rescue workers 
also tapped repeatedly on the drill steel to signal to the trapped 
miners; miners are trained to reply by tapping below the surface. 
However, none of these communication efforts have been fruitful.
    As the rescuers continued to drill boreholes from the mine's 
surface, another group continued the mucking and clearing efforts in 
the mine's entry until another bounce occurred on August 16, which 
claimed the lives of three of the rescuers and injured six others. 
Since that bounce occurred, mucking efforts within the mine have been 
suspended indefinitely. Neither MSHA, nor the outside experts brought 
to the mine site to review the mining conditions and rescue plan could 
devise a way to stabilize and reenter the mine. MSHA believed the plan 
it approved for the rescue operations prior to August 16 provided the 
maximum amount of protection to the rescuers possible, but it was not 
enough.
    Since August 16, Murray Energy--with MSHA's approval--has continued 
to drill boreholes. There is also a rescue capsule on the mine site if 
the trapped miners are found alive, but using the capsule would involve 
extraordinary risk. This risk cannot be taken if there are no signs of 
life because the danger is too great that more lives will be lost.
    msha fulfilled its miner act responsibilities at crandall canyon
    Immediately after MSHA was notified of the Crandall Canyon 
accident, MSHA began fulfilling its responsibilities as the primary 
communicator with the families, policymakers, the public and the media 
a responsibility which MSHA takes very seriously after the Sago Mine 
accident.
    On the morning of August 6, 2007, MSHA dispatched three family 
liaisons to the location where the family members were gathered to 
begin regularly updating them on the rescue operation. MSHA also 
provided interpreters for the Spanish speaking families. Clergy and 
counselors were also available. MSHA's family liaisons continue to 
honor these responsibilities today.
    On Wednesday, August 8, 2007, I began participating in these 
briefings and spent nearly 6 hours every day providing updates and 
answering family members' questions.
    MSHA also acted as the primary communicator with the media. 
Although news outlets sometimes chose to broadcast parts of the 
briefings conducted by the mine operator instead of MSHA, the Agency 
never failed to be the primary communicator. During the first week of 
the rescue operation, MSHA held regular briefings every day for 
reporters off of the mine site at the sheriff's command center. During 
these briefings, we provided detailed updates regarding the rescue 
effort and answered reporters' questions. MSHA also provided regular 
updates on the Agency's website regarding the rescue effort and issued 
media advisories concerning our updates at the mine site.
    In addition, MSHA personnel regularly updated Utah's governor and 
congressional delegation on the status of the rescue operations, both 
on and off-site. Kevin Stricklin, MSHA's Administrator for Coal Mine 
Safety and Health, also briefed the Utah Legislature at an open public 
forum on August 29, 2007, in Salt Lake City.
    All of these actions underscore how seriously MSHA takes its 
responsibility to be responsive to the families and to be the primary 
communicator.
                               conclusion
    I cannot fully express my personal disappointment and the 
overwhelming sadness I feel regarding the Crandall Canyon accident and 
rescue efforts during this last month. I know that words alone cannot 
and will not provide comfort to the families, friends, and communities 
of the miners and rescue workers who lost their lives or were injured 
at Crandall Canyon mine. We commend the heroic efforts of these 
individuals who put their lives on the line in the effort to rescue the 
trapped miners.
    Each and every individual at MSHA remains dedicated and focused on 
our core mission: to improve the safety and health of America's miners 
and to work toward the day when every miner goes home safe and healthy 
to family and friends, after every shift of every day. MSHA cannot do 
this alone. The entire mining community--mine operators, miners, and 
health and safety professionals included--must also do their part to 
improve mine health and safety. Working together, MSHA, mine operators 
and miners can achieve this important goal.
    Thank you for inviting me to testify today. I look forward to 
answering your questions and to working with this committee to continue 
to improve mine safety.
                     appendix 1.--accident timeline
August 7, 2007
  --In the early morning hours, repairs to damaged ventilation systems 
        continued. MSHA's roof control personnel traveled into the mine 
        to evaluate conditions to help determine whether or not 
        clearing this entryway could resume safely.
  --The drilling equipment used to drill the first 2 inch borehole was 
        put in place at crosscut 138 approximately where the miners 
        were believed to be the evening before and drilling began.
August 8, 2007
  --In the morning, MSHA approved a new mine rescue plan presented by 
        Murray Energy to allow clearing the Number 1 entry, but with 
        extensive rib support.
  --In the evening, drilling of the second borehole began. This 
        borehole was drilled with an 8\5/8\ inch bit.
August 9, 2007
  --In the evening, the drill for the first borehole broke through the 
        mine cavity and a microphone was lowered in to determine 
        whether or not any underground activity could be heard. No 
        activity was detected and rescuers continued drilling the 
        second borehole.
August 10, 2007
  --An analysis of the atmosphere in the first borehole revealed low 
        oxygen readings, but a 3.5 foot void was detected in the bored 
        area in the mine.
  --In addition, a two-man team tried to advance in the Number 1 entry 
        but to no avail.
August 11, 2007
  --Early in the morning, the second borehole (8\5/8\ inches) broke 
        through the mine cavity, but no communication was detected from 
        underground. A roof height of eight feet was detected and a 
        camera was lowered into the cavity but only wire mesh in the 
        roof was detected.
August 12, 2007
  --In the evening, another camera was lowered into the number 2 
        borehole and compressed air began to be pumped in. No response 
        from the trapped miners was detected.
  --In addition, a pad for a third borehole began to be constructed.
August 13, 2007
  --Early in the morning a third camera was lowered into the second 
        borehole, and again no sign of the miners was detected.
  --In addition, the drilling equipment was moved from the second to 
        the third borehole and drilling began in the evening.
August 14, 2007
  --Drilling of the third borehole continued while a drill pad began to 
        be constructed for a fourth borehole.
August 15, 2007
  --Mid-morning, the third borehole broke through the mine cavity. A 
        microphone was lowered into the hole but no communication with 
        the trapped miners resulted. Seismic equipment, however, picked 
        up an unidentified noise that was not heard again. A camera was 
        subsequently lowered into the hole, but nothing of note was 
        seen.
August 16, 2007
  --In the early morning, the drilling equipment was moved to the site 
        of the fourth borehole and drilling began.
  --Later in the evening, a significant bounce occurred in the mine and 
        several rescuers were covered up by coal. In the end, six 
        rescuers were injured and three were killed, including one MSHA 
        employee.
  --As a result, rescue efforts proceeding inside of the mine were 
        halted indefinitely after advancing over 900 feet. These have 
        not resumed because no way to proceed safely has been 
        identified by either MSHA or outside ground control experts.
August 18, 2007
  --In the morning, the fourth borehole broke through the mine cavity. 
        No response from the trapped miners was detected.
  --In the evening a camera was lowered into the hole and nothing was 
        detected. Nothing was detected with seismic equipment.
August 19, 2007
  --In the evening, rescuers began drilling a fifth borehole.
August 22, 2007
  --Drilling in the fifth borehole broke through the mine cavity. 
        Rescuers could not, however, get a camera into the hole because 
        the hole became blocked.
August 23, 2007
  --Rescuers began drilling a sixth borehole in the evening.
August 25, 2007
  --Drilling in the sixth borehole broke through the mine cavity. A 
        camera was lowered into this hole in the early morning of 
        August 26, but there was no sign of the trapped miners. On 
        August 27, rescuers also attempted to lower a robot into this 
        hole, but were unable to complete this task because there was 
        too much debris in the area.
August 28, 2007
  --In the early morning, rescuers began drilling a seventh borehole, 
        which broke through the mine cavity on August 30, 2007.
   appendix 2.--msha enforcement and implementation of the miner act
Increased Enforcement
    Enforcement of the Nation's mining laws is a key component to 
protecting the health and safety of miners, and continues to be a top 
priority at MSHA. In 2006, MSHA issued more citations and orders than 
in any year since 1995--and there were almost 3,000 coal operations in 
1995 compared to just over 2,000 in 2006.
    The number of unwarrantable failure citations and orders issued in 
2006 was the highest since 1995. To date this year, MSHA has issued 
more unwarrantable failure citations and orders than in any full year 
between 1995 and 2005. The percentage of unwarrantable failure 
issuances in 2007 (to date) is the highest since 1994.
    The total fines assessed against coal operators and contractors 
increased 46 percent in 2006 compared to the previous year and were the 
highest total dollar assessments since 1994. As of the 1-year 
anniversary of the MINER Act, MSHA issued 12 citations for flagrant 
violations, including three of the largest proposed penalties in the 
history of the agency. Year-to-date penalties have increased from $22.1 
million in CY 2006 to $41.5 million in CY 2007. The average penalty for 
each violation increased by 29 percent in 2006 compared to 2005--and 
the average penalty for each violation has more than doubled so far in 
2007--with the full impact of the increased penalties that became 
effective in April yet to be realized. The fatality rate has decreased 
70 percent at coal mines and 45 percent overall from CY 2001 to CY 
2007.
Implementing the MINER Act of 2006
    MSHA's full commitment to protecting the health and safety of 
miners is further demonstrated by the timely and successful 
implementation of MINER Act provisions--often ahead of schedule. 
Moreover, MSHA has imposed requirements that go beyond the requirements 
of the Act. Significant accomplishments over the past 12 months 
include:
            New Penalties for Late Accident Notification and 
                    Unwarrantable Failure Violations
    Upon the signing of the MINER Act of 2006, MSHA immediately 
implemented new minimum penalties for late accident notification and 
``unwarrantable failure'' violations.
            New Penalties for Flagrant Violations
    MSHA issued a Procedure Instruction Letter (I06-III-04) to 
implement the new ``flagrant violation'' maximum penalty of up to 
$220,000.
            Secretarial Order to Improve Post-Accident Communication 
                    with Families
    The Secretary of Labor signed an Order creating the Family Liaison 
and Primary Communicator positions that are filled by specially trained 
MSHA employees at emergency sites. MSHA, with the assistance of the 
National Transportation Safety Board and the American Red Cross, has 
trained 15 family liaisons to date. Four more MSHA employees are 
scheduled for family liaison training in November 2007.
            Strengthening Evacuation Practices
    MSHA issued a final rule to strengthen mine evacuation practices in 
underground coal mines. The rule included:
  --Self-Contained Self Rescue (SCSR) Devices.--The rule requires coal 
        mine operators to provide additional SCSRs for each miner 
        underground in areas such as working places, mantrips, 
        escapeways, and other areas where outby crews work or travel. 
        The rule also requires that SCSRs be readily accessible in the 
        event of an emergency.
  --Multi-Gas Detectors.--The rule goes beyond the requirements of the 
        MINER Act by requiring coal mine operators to provide multi-gas 
        detectors to each group of underground miners and each miner 
        working alone.
  --Lifelines.--The rule requires coal mine operators to install 
        directional lifelines in all primary and alternate escape 
        routes out of the mine. Lifelines help guide miners in poor 
        visibility conditions toward evacuation routes and SCSR storage 
        locations. Lifelines must be flame-resistant by June 15, 2009.
  --Training.--The rule requires coal mine operators to conduct 
        quarterly training sessions instructing miners how to don SCSRs 
        and, in particular, how to transfer from one SCSR to another. 
        The training provisions in the mine emergency evacuation rule 
        go beyond the requirements of the MINER Act by requiring 
        ``expectations training,'' providing miners with simulated 
        conditions they would encounter using a SCSR during an 
        emergency. SCSR training units to simulate breathing resistance 
        and heat for annual expectations training have now been 
        developed.
  --Accident Notification.--The rule requires all mine operators to 
        contact MSHA within 15 minutes of an accident. MSHA also 
        implemented a nation-wide single call-in number (1-800-746-
        1553) for accidents and hazardous condition notifications to 
        ensure an immediate, consistent and effective response by MSHA.
            Requiring Breathable Air for Trapped Miners
    MSHA issued a Program Information Bulletin (PIB) (No. P07-03) that 
gives mine operators a range of options, including boreholes and oxygen 
supplies, to provide breathable air to miners who are trapped 
underground. The use of state-approved refuge chambers is acceptable as 
a means of meeting the requirements of the PIB for breathable air.
            New Civil Penalties for Safety and Health Violations
    MSHA published a final rule to increase civil penalty amounts for 
mine safety and health violations. Issuance of this rule goes beyond 
the requirements of the MINER Act. The new rule provides for a general 
increase in civil penalties for violations and is applicable to all 
mines and contractors. The new penalty schedule:
  --Increases penalties.--Increases civil penalties overall, targeting 
        the more severe health and safety violations.
  --Addresses repeat violations.--Adds a new provision to increase 
        penalties for operators who repeatedly violate the same MSHA 
        standards.
  --Eliminates single penalties.--Non-significant and substantial (non-
        S&S) violations formerly processed as $60 single penalties are 
        now processed as higher regular formula assessments.
Enforcing Safety Device Requirements
    MSHA published a notice in the Federal Register notifying mine 
operators that SCSR training units were available. Mine operators were 
required to possess these training units, or provide a purchase order, 
by April 30, 2007, and conduct expectations training with them within 
60 days of receipt of the units.
Tracking Inventory of Safety Devices
    MSHA implemented a system for coal mine operators to electronically 
submit their inventories of SCSRs--a requirement of the emergency mine 
evacuation rule that went beyond the mandates of the MINER Act.
Protecting Miners Near Abandoned Areas
    On May 22, 2007, MSHA published an Emergency Temporary Standard 
(ETS) that increased the protections for miners working near sealed 
areas in underground coal mines. This final rule was ahead of the 
December 2007 date required in the MINER Act. The ETS significantly 
increases the strength standard for mine seals from 20 pounds-per-
square-inch (psi) set in 1992, to 50psi, 120psi, or more than 120psi 
when conditions exist that may create pressures in excess of 120psi. 
The ETS includes additional requirements not provided in the MINER Act: 
(1) approval of seal designs and mine-site installation designs; (2) 
provisions for sampling the atmosphere behind seals; (3) training for 
persons who sample, and construct and repair seals; (4) removal of 
insulated cables from areas to be sealed and metallic objects that 
enter the sealed area; and (5) prohibition of welding, cutting and 
soldering using arc or flame within 150 feet of a seal.
Developing New Communications Technologies
    MSHA has conducted meetings with representatives of 58 
communications and tracking system companies, observed the testing and/
or demonstration of 23 post-accident communications and tracking 
systems, and approved 23 systems, including seven new devices.
Approval of Emergency Response Plans
    MSHA has fully approved all of the Emergency Response Plans (ERPs) 
for active producing mines in this country with the exception of 2 
partially approved plans. Full approval of these plans is pending 
review by MSHA of one recently submitted plan by a mine operator and 
the other entering into the dispute resolution process.
    In addition, MSHA is using all available tools--enforcement, 
education and training, rulemaking, and evaluating/recognizing new 
technology, to achieve its goal of safer and healthier mines. For 
example, MSHA is using its statutory authority under the pattern of 
violations provision in the Mine Act of 1977 to identify mine operators 
who habitually violate MSHA standards and view penalties as the cost of 
doing business. In selecting potential pattern mines, MSHA developed a 
database to provide a more objective analysis of accident trends and 
enforcement results to better identify persistent repeat violators.
Proposed Rulemaking
    MSHA has proposed revised and new standards for certification and 
availability of mine rescue teams for underground coal mines. MSHA has 
also proposed updated standards for mine rescue team equipment at mine 
rescue stations. These standards would apply to all underground mines: 
metal and nonmetal mines and coal mines.

                     REPORT FROM AGAPITO ASSOCIATES

    Senator Harkin. Thank you very much, Mr. Stickler.
    Start a round of questions now. I spoke, earlier, Mr. 
Stickler, about a letter, which I would ask to be inserted in 
the record in its entirely. It's a letter dated April 18, 2007. 
It's addressed to Mr. Lane Adair, the general manager of 
UtahAmerican Energy, Incorporated. It's from Agapito 
Associates, Incorporated, mining and civil engineers, and 
geologists of Grand Junction, Colorado.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Harkin. This letter states that a large bump 
occurred in early March 2007 and resulted in heavy damage. As a 
result, the remaining north panel was abandoned, in favor of a 
proposal to mine the south barrier. That's about 900 feet to 
the south, where the accident we're talking about today 
occurred.
    First of all, Mr. Stickler, have you read this letter? Do 
you have it in your possession?
    Mr. Stickler. I have it here now, yes.
    Senator Harkin. When did you first receive this letter?
    Mr. Stickler. Sometime after I returned back to 
Washington--I spent 17 days there in Utah--and, after I 
returned back to Washington, I obtained a copy of the Agapito 
reports.
    Senator Harkin. This report, this Agapito report to Mr. 
Lane Adair--was a copy submitted to MSHA at that time for their 
review, do you know that?
    Mr. Stickler. I cannot confirm that at this time. I'm sure 
accident investigation will be able to answer that question.
    Senator Harkin. Is there a requirement in MSHA for such 
reports as this, if they're made to a mine operator, to also be 
sent to MSHA at the same time?
    Mr. Stickler. There is not a requirement, but most mine 
operators that do these kind of geotechnical analysis through 
consulting companies, submit that information to MSHA to 
support their case and their plan that they intend to have MSHA 
review and approve.

                   NEW PLAN FOR CRANDALL CANYON MINE

    Senator Harkin. Okay. Now, as I understand it, there was a 
new plan. There had been this bump in March, they had closed 
down that part of the mine. I've looked at the maps of the 
mines. We have--partway. All--we don't have the whole map--
well, we have it over here, I guess. They closed down a part of 
the mine, and then a new plan came in to do retreat mining 900 
feet to the south. MSHA approved that plan, am I not correct?

                       MSHA APPROVAL OF NEW PLAN

    Mr. Stickler. That's correct.
    Senator Harkin. Well, my question, again, Mr. Stickler, is: 
If MSHA approved the plan, did they have this letter of April 
17 in their possession before they approved the plan? If you 
don't know at this point, I would ask that you find out for the 
committee and let us know if your MSHA inspectors had this 
letter in their possession at the time they approved the new 
plan.
    Mr. Stickler. Well, as I read through this, I see the 
recommendations here, that the consulting engineering company 
made, to increase the size of the pillars from 80 feet by 92 
feet, to increase those pillars to 80 by 129 feet.
    Senator Harkin. Yes.
    Mr. Stickler. So, I have been told that MSHA was aware of 
that information, and that was part of the basis for MSHA's 
approval of the plan, was that the consulting engineering 
company recommended increasing the size of the coal pillars. 
Those are the blocks of coal that support the earth above, and, 
along with other recommendations, to improve the ground control 
conditions in that southern area. It states here in the 
recommendation from the professional engineers at Agapito--it 
says, ``The size of the pillars expected to provide a reliable 
level of protection against problematic bumping for retreat 
mining under cover reaching 2,200 feet.''

                           AGAPITO ASSOCIATES

    Senator Harkin. But, Mr. Stickler, it's also a fact, is it 
not, that Agapito Associates, this same engineering company, 
approved the plan for the north section, that had the bump in 
March? They approved that--they--they were the same engineering 
company.
    Mr. Stickler. They recommended approval. They----
    Senator Harkin. That's----
    Mr. Stickler [continuing]. Did not----
    Senator Harkin [continuing]. The one that had the bump.
    Mr. Stickler. That's correct.
    Senator Harkin. So, you go back to the same engineering 
company and say, ``Well, now you can just improve the size of 
the pillars and it'll be okay.'' It raises a question in my 
mind as to whether or not MSHA really took a solid look at what 
their earlier recommendations were, why that failed, and 
whether their secondary recommendations were adequate.
    Mr. Stickler. Well----
    Senator Harkin. Obviously, this engineering company was 
wrong in their first plan, because they sealed off that whole 
north section after that big bump occurred. So, they were wrong 
then. What made us think that they would be right the second 
time?
    Mr. Stickler. Well, my understanding is MSHA's engineers in 
the Denver office, which covers all the mines west of the 
Mississippi River, reviewed the computer model that was used to 
do the mine design and the pillar size. They also went 
underground and made investigation of the conditions in the 
south area, where the pending plan approval was to be applied. 
They reviewed the history of retreat mining in this mine. I can 
point out to you, on this map--just prior to Murray Energy 
purchasing the--prior to Murray Energy purchasing the 
operation, the previous owner had retreat mined this area 
called the south mains. This is very similar. It's between two 
gob areas, or areas that have been longed out with--this left 
side, with longwall mining, and the right side--part of it was 
longwall, part of it was continuous miner retreat mining. But 
the previous owner had retreat mined up to about this location. 
Murray Energy continued. They had good results in that area. 
During the last 5 years, there has been one miner injury at 
this mine, due to a--anytime of roof or rib roll--an individual 
had a broken foot, with rock that rolled off on the foot. So, 
based on the fact of successful mining that occurred in the 
past in similar conditions, based on the successful retreat 
mining in that area and the engineering report from Agapito, 
along with MSHA's own underground investigation--the supervisor 
for the roof control group at Denver is a certified 
professional engineer; he and the roof control specialist went 
underground and made visual observations.

                      RESULTS OF MSHA INSPECTIONS

    Senator Harkin. So, would you provide, Mr. Stickler, for 
this subcommittee, for our staff and for me to review--you 
said, in your testimony, that, since the purchase of the 
Crandall Canyon Mine by Murray Energy, MSHA has performed five 
regularly scheduled inspections, two spot inspections, 
responded to a complaint from a whistleblower and performed, as 
you just said, a roof control technical inspection. Could the 
results of those be given to us? I'd like to know what was the 
complaint from the whistleblower. I'd like to know what the 
spot inspections and the roof control technical inspection 
showed.
    Mr. Stickler. Yes, we can provide those. My understanding 
of the whistleblower complaint was relative to the mine 
operator providing the required mine rescue-team service, and 
MSHA investigated that and issued an order requiring to--the 
operator to abate that violation.
    [The information follows:]
    [Clerk's Note.--This information is available at http://
www.msha.gov/drs/drshome.htm]

                      WIRELESS TRACKING TECHNOLOGY

    Senator Harkin. The rescue plan that was developed required 
drilling bore holes approximately 1,500 feet into the earth. 
The seven holes drilled ranged over several thousand feet in 
area, because we didn't know where the miners were. My question 
is, Mr. Stickler, is there a tracking technology available and 
approved by MSHA that could have told us where the miners were?
    Mr. Stickler. I wish there were. MSHA has spent thousands 
of man hours reviewing what's available around the world in the 
way of wireless tracking systems and wireless communications 
systems. We have not been able to identify any two-way wireless 
systems that will work in a mine such as this without some type 
of antenna or backbone wire going through the mine. This mine 
had what's been referred to as the PED system, the Personal 
Emergency Device, where they could send the wireless signal 
from the surface via an antenna through the mine to the miners 
that had cap lamp batteries that would receive text messaging, 
and also, when they received the message, their cap light would 
blink to signal them that they had a message. That system was 
deployed at this mine, as well as redundant hardwire 
communication systems in two separate entries. But the forces 
of the mountain bump--to try to illustrate--on the roof or the 
ceiling of the mine, they had bolted heavy steel mesh wire, 
similar to the reinforcing wire that's used in concrete--the 
diameter wire's about an eighth of an inch--the force of the 
coal exploding off of the walls of the tunnel ripped that wire 
off of the roof. So, naturally, it ripped out all the hardwire 
redundant communications systems, and it ripped out the antenna 
for the wireless Personal Emergency Device system at the mine.
    Senator Harkin. I have a couple more questions, but I'll 
yield now to Senator Specter.
    Senator Specter. Thank you, Mr. Chairman. I'd like to note 
that we have families here today from the Sago Mine disaster, 
from the Jim Walters mine disaster. Miners are here from 
Pennsylvania, Ohio, and West Virginia, to observe these 
hearings.

                        BUMPS (SEISMIC ACTIVITY)

    Mr. Stickler, as I review the uncontradicted evidence, it 
appears conclusive that MSHA, your Department, was not paying 
adequate attention to these bumps, which caused catastrophic 
results. Senator Harkin has gone into the letter, but, in 
addition to that, independently, the timeline from MSHA admits 
that MSHA received information that pillar mining in the north 
main west barrier had stopped, due to ground stability 
problems. That is 900 feet away. Then you had other bumps. 
After the accident on August 6, when the rescue operations were 
undertaken, there was another bump, which buried equipment 
being used to clear the entry, and rescue teams were pulled out 
of the mine. Now, on August 11 a significant bump occurred, and 
all rescuers again were removed from the mine. Then, on August 
15 there were three significant bumps between 1:15 and 1:40. 
Then, on August 16, another bump, resulting in the death of 
three men.
    Now, with all of these bumps and what it demonstrates is 
the unsafe conditions, two questions. How could MSHA approve 
allowing the mining to go on 900 feet away, notwithstanding all 
of these fancy recommendations you have, and, in the light of 
these bumps on the rescue operations, how could MSHA pursue 
those rescue efforts in the face of these recurrent bumps? You 
know there's going to be another, on the laws or probability, 
resulting in the deaths of three more men? Isn't there just 
blatant failure by MSHA to recognize a fundamental problem 
which is caused by these bumps?
    Mr. Stickler. Well, your first question, I partially 
answered when Senator Harkin asked me. I walked through the----
    Senator Specter. No, but you didn't----
    Mr. Stickler [continuing]. Process----
    Senator Specter [continuing]. You didn't--you didn't answer 
it, in the context of the other----
    Mr. Stickler. Well, let me finish my answer----
    Senator Specter. Wait, wait, wait----
    Mr. Stickler [continuing]. If I could, please.
    Senator Specter [continuing]. A minute. You have the 
bumps--we're laypeople here, but he asked you about the bumps 
on March 12, but then we have all of these other bumps. We're 
trying to understand the significance of these bumps. It 
appears to me conclusive that these bumps shows there's a 
tremendous danger, notwithstanding your pinpoint light and what 
the experts may tell you. Isn't it perfectly apparent that 
these bumps tell you that something disastrous is about to 
happen?

                      BUMPS AND RESCUE OPERATIONS

    Mr. Stickler. The fact is that an increase in seismic 
activity cannot be used to predict a pending bump, nor can a 
silent period, where there is no seismic activity, be concluded 
that there will not be a pending or future bump.
    But, getting back to the other question that you asked me 
regarding the rescue operation--and Senator Bennett mentioned 
this--when we referred to postponing the rescue activity of the 
mine rescue teams during the seismic activity, that was 
different than the rescue activity that was being done by the 
crew that was operating the continuous mining machine in the 
equipment in number-one entry to rehabilitate number-one entry. 
Initially, mine rescue teams tried to advance on top of the 
rubble, by crawling through spaces as low as 24 inches, to 
explore to see if there was any way that they could find an 
opening to get back to where the miners were trapped. That went 
on for several hours the first day of the accident. That was 
the activity that we determined that was not prudent to 
continue without any kind of protection--a ground-control 
protection--for the members of the mine rescue team that was 
trying to find the route to travel to reach the trapped miners.
    The second issue regarding the rehabilitation and the 
cleanup of the rubble in number-one entry. That operation 
advanced a little over 900 feet before the accident occurred, 
on the 16th. During that time, we had several bumps, but the 
ground support that was being installed protected the miners 
and was secure, and there were no injuries. You mentioned 
withdrawing miners from the mine. To my knowledge, that never 
occurred. When there was a bump--and what we've learned, going 
in to the process, is that, while many of the experts believe 
that the initial bump--the weight of the mountain would be 
redistributed, and there would be less stress after that 
initial bump. That was partially true. But what we learned is 
that the rubble in the entry--number-one entry--provided 
lateral support to the coal walls. As we used the continuous 
mining machine to load out that rubble, we removed the lateral 
support. Without that support, we were getting additional bumps 
on the coal walls of the tunnel right in the immediate area 
where the continuous mining machine was working. But during no 
time prior to the 16th did any of these bumps dislodge any of 
the heavy ground support that was put in to protect the miners 
along the walls of the entry.

                            MSHA VIOLATIONS

    Senator Specter. Well, Mr. Stickler, I have to tell you 
that that elongated answer, which has consumed all of my 
remaining time, doesn't answer, for me, the very basic and 
obvious conclusion, that we have these bumps, and you have the 
tragic consequences, that MSHA was on notice to function very 
differently, and not to allow the mine to be activated 900 feet 
away from a bump which was very dangerous, and that you were on 
a lot of notice on these bumps, that the rescuers were in a 
very precarious position. I'm going to ask you to answer, for 
the record, because we have a lot of witnesses and a lot of 
Senators--but answer, for the record, the question about these 
serious and substantial violations--21--with fines of less than 
$20,000, and 10 of these serious and substantial violations 
with fines of zero, and to respond to the United Mine Workers' 
testimony that: ``chilled enforcement efforts at the mine level 
and allowed operators to essentially negotiate workplace and 
safety matters,''.
    [The information follows:]
          Mine Safety Citations Issued to Crandall Canyon Mine
    At the time of the hearing, MSHA had issued 67 citations and orders 
at the mine since Murray Energy, Inc. purchased the mine in August 
2006. Two of these were a type of withdrawal orders that do not receive 
civil penalties under the Mine Act. Of the remaining 65 citations and 
orders, 42 had already been assessed civil penalties in the amount of 
$22,483 and 20 citations and orders were not corrected until after June 
18, 2007, and had therefore not been assessed. The three remaining 
actions were either in the review process for a ``Special'' assessment, 
pending a conference with the MSHA District Manager, or awaiting 
referral for assessment from the enforcement office.
    Since the hearing, 15 of those 20 citations have been assessed. For 
this citations, MSHA assessed a total of $21,582 in September 2007. The 
remaining five are still in the process of being assessed.
    A delay in assessment is not unusual. On average, a civil penalty 
notice is sent to the operator 80 days after the citation or order was 
corrected, that is, after the operator corrects the conditions that 
resulted in the citation or order. This timeframe is 6\1/2\ months for 
``Special'' assessments. This year, 70 percent of the citations have 
been assessed within 90 days from the date the conditions cited were 
corrected, and 90 percent have been assessed within 4 months.
    The time needed to assess civil penalties is dictated in large part 
by the due process afforded to mine operators and miners' 
representatives in the Mine Act. Mine operators and miners' 
representatives have the right to request a conference with the MSHA 
District Manager on any citation or order. Violations for which 
enforcement personnel recommend ``Special'' assessments are reviewed 
through the enforcement management chain and finalized by staff in MSHA 
headquarters. Special assessments are generally those enforcement 
personnel recommend in extraordinary circumstances such as fatalities 
that warrant a civil penalty outside of the regular formula used to 
determine penalty amounts.
    Under the Mine Act all violations must receive a civil penalty. In 
fact, this administration has significantly increased civil penalties, 
going beyond the increases Congress passed last year in the MINER Act. 
Civil penalties increased from $25 million in 2005 to $35 million in 
2006, and to $41.5 million through August 2007, with four months 
remaining in the calendar year.
    With regard to the United Mine Workers' testimony that MSHA created 
an atmosphere that ``chilled enforcement efforts at the mine level and 
allowed operators to essentially negotiate workplace and safety 
matters,'' there are other indicators beyond the increase in fines that 
contradict the notion that MSHA has relaxed its enforcement efforts.
  --The number of violations MSHA inspectors have cited has increased 
        in each year since 2003.
  --In 2006, MSHA issued more citations and orders than in any year 
        since 1995--and there were almost 3,000 coal operations in 1995 
        compared to just over 2,000 in 2006.
  --The number of violations cited per inspection hour is at an all-
        time high--MSHA inspectors issued the most citations and orders 
        per inspection hour in both 2005 and 2006 than in any year 
        since these records have been kept (beginning in the 1980s).
  --The percentage of unwarrantable failure orders cited is higher this 
        year than in any year since 1994.
  --The rate at which inspectors have used the most severe enforcement 
        actions (i.e. citations and orders issued as ``unwarrantable 
        failure'' on the part of the operator, or issued for failure to 
        abate previously cited conditions or for imminent danger 
        conditions per inspection hour) has also increased in each year 
        since 2003.
  --MSHA has taken the first steps to identify mines exhibiting a 
        ``Pattern of Violations'' as described under section 104(e) of 
        the Mine Act, an enforcement tool never before used.
    By virtually any measure, MSHA is vigorously enforcing the mine 
health and safety laws. The Mine Act provides three main tools that 
MSHA uses to help the mining industry provide safer, more healthful 
work environments: enforcement, technical assistance, and education and 
training. Enforcement is at the heart of this three-pronged approach to 
mine safety and health. MSHA's enforcement record clearly illustrates 
its commitment to this belief.

                            PRESS CONFERENCE

    Senator Specter. But I would like to ask you about one more 
subject, which is very important. How could you permit Mr. 
Murray to take over with the press and to stand by and allow 
him to be on the scene--I know you've explained to me, in our 
private meeting, that he starts the press conference before you 
get there, and you have to take action with the sheriff to keep 
him out of advising the families, because he gives them 
misinformation, and he makes the preposterous statement about 
an earthquake to try to make it an act of God. You have the 
statutory authority to banish the guy, and he's a real 
troublemaker on the scene, which you observed, and you say his 
conduct was unacceptable. But can't you do something in a more 
forceful way, to stop him from disrupting the activities with 
the news media and the families, than you did?
    Mr. Stickler. Well, I'll take your last question first. In 
regard to the press conference, when I arrived, the day after 
the accident, I first attended a briefing for the family 
members, and I stayed there with the family members, allowing 
them to ask individual questions. Some individuals were not 
comfortable in asking questions in a group. We had 40, 
sometimes 70, family members there at the briefings. I was 
there, briefing the families and answering their individual 
questions. I got to the press conference, and it had already 
been started. Mr. Murray had preempted me in that press 
conference. After that press conference, I explained to Murray 
Energy officials that that was unacceptable, that, in the 
future, that MSHA would lead off all press conferences, that we 
would take the responsibility of providing an update and the 
factual information, that we would make sure that we would not 
communicate anything to the press that had not been previously 
communicated to the families. That was what we tried to do in 
all the following press conferences for the 17 days I was 
there.
    I've been told by people--I didn't see any of the 
broadcasts, but people in MSHA have advised me that what the 
news media did was, even though I led off the press conference 
and gave the information, they wouldn't--the news media did not 
broadcast that, they waited until a mine official, either Bob 
Murray or Rob Moore, spoke, and then they would cut in, and 
that's what they showed the American public. Now, you know, if 
we can figure out a way to control the news media and control 
what people say to the news media, I don't know what that is 
yet. I tried, I advised, I coached, I lectured. We met, before 
the press conference, to make sure that we were on script, as 
far as the facts, make sure the facts the company had and MSHA 
had were the same. But I could not control the ad-lib and what 
other individuals want to speak to the press. I have no 
authority to stop them and control what the press does.

                               PENALTIES

    In regard to your other question on the zero penalties, I 
think many of the violations that you're looking at there have 
not yet been sent to assessment to be assessed penalties. The 
process, when MSHA writes a violation, a mine operator has the 
right to contest--well, first of all, they have a right for a 
conference with the district manager. That takes some time. 
After the violation is conferenced, then the mine operator has 
the right to contest it before an administrative law judge, and 
that delays the assessment of the penalties. But I can assure 
you that the----
    Senator Specter. Mr. Stickler, we're not interested in all 
the procedures. We know there are appeals. You're not telling 
us the facts when you say that the penalties haven't been 
assessed. Twenty-one ``serious and substantial'' penalties were 
assessed, at $19,662; and 10 of these, serious and substantial 
violations, the penalty was zero. That's done.
    Mr. Stickler. No, you're misinterpreting what you're 
reading there, Senator. What that means, by zero, is that the 
penalty has not yet been assessed. We assess a minimum penalty 
for every violation. In March of last year, MSHA published a 
final rule that significantly increased the violations across 
the board. For the entire mining industry, the fines were 
increased from approximately $24 million to $68 million a year.
    Senator Specter. Mr. Stickler, that's not relevant to here, 
and I can read English. It says ``proposed penalty,'' and it 
says zero.
    Mr. Stickler. That means because it has not yet been 
assessed.
    Senator Specter. January 3, 2007, proposed penalty zero? 
Mr. Stickler, if the English language does not mean ``proposal 
penalty, zero,'' that that's the proposed penalty, we're going 
to have to look even with a sharper microscope on everything 
you've told us.
    Mr. Chairman, I don't want to take more time here, so I 
yield back to you.
    Senator Harkin. Thank you, Senator Specter.
    Yield to Senator Byrd, who has graciously asked that we 
yield a bit of time to Senator Murray, who has to go preside on 
the floor.

                TIMELY INFORMATION FOR VICTIM'S FAMILIES

    Senator Murray. Thank you, Mr. Chairman.
    I do have to go preside on the floor. I do have a number of 
questions I'll submit for the record.
    But I did want to follow up on Senator Specter's comments 
regarding the information that was given from the site. It was 
very confusing to all of us, whether Bob Murray was primary 
spokesman, or who was speaking, or how that was being handled. 
I just wanted to suggest to this committee, from my experience, 
chairing the Transportation Appropriations Subcommittee on the 
National Transportation Safety Board, NTSB, that they have a 
far more effective model in making sure that victims' families 
receive timely information from the government first, and that 
it is accurate, and that no one speaks on behalf of the 
government investigators at an aviation accident site. I would 
suggest to this committee--I'd like to work with you--that 
perhaps we can put that model in place for mine safety.

                           PREPARED STATEMENT

    I do have a number of questions I would like to submit for 
all of our people here, as chairman of the Employment Safety 
Subcommittee. We've worked on mine safety in the past, worked 
with Senator Byrd. We'll continue to work with all of you to do 
the best we can to answer these questions and keep moving 
forward so that we can assure the families of the miners that 
we are taking the proper steps to assure that we are doing 
everything to protect their safety.
    Thank you very much.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    Thank you, Mr. Chairman, for calling this hearing to help us begin 
to understand the tragic events surrounding the Crandall Canyon Mine 
disaster.
    I would also like to thank Senator Byrd for his unwavering 
commitment to America's miners; they have a true long-standing champion 
in the Senator from West Virginia.
                            pain of families
    As I know many of my colleagues and the witnesses have done, I have 
talked with the families who've lost their husbands, fathers, brothers, 
and sons to mining tragedies. The pain I saw in their eyes is something 
very few of us have had to endure. And, it's something we'll never 
forget.
    After the tragedies in West Virginia last year, Senators from both 
sides of the aisle quickly worked together toward the same goal--
passing bi-partisan legislation designed to improve mine safety in the 
hope that tragedies like Sago and Alma would never be repeated.
    The MINER Act was a landmark piece of legislation and an important 
first step in meeting our goals but, clearly, we still have work to do.
    As was the case in Sago, we can't undo what happened and we can't 
take away the pain. But we can resolve to work together to give miners 
better protection. And that's why we're here today.
            miner health and safety enhancement act of 2007
    That's also why I, along with Senators Kennedy and Byrd, introduced 
the Miner Health and Safety Enhancement Act of 2007 earlier this year.
    This bill makes five critical improvements to last year's bill.
  --First, it speeds up the date by which mine operators must install 
        improved underground communication systems and refuge chambers.
      One of the questions I have asked myself this month is whether 
        refuge chambers were ever considered for use at Crandall 
        Canyon, given the dangerous nature of the retreat mining that 
        was going on there.
  --Second, our new bill enhances MSHA's enforcement authority. I'm 
        particularly pleased that this bill establishes an independent 
        ombudsman to ensure that miners' concerns are heard and 
        protects whistleblowers from unfair retaliation.
  --Third, it improves rescue, recovery and accident investigation 
        authority.
  --Fourth, it reduces miners' exposure to coal dust; and
  --Finally, it addresses other critical hazards in the mines including 
        asbestos exposure by requiring MSHA to adopt the current OSHA 
        asbestos standard to better protect miners.
    Tragedies like the one at Crandall Canyon focus our government's 
attention on the thousands of brave men who enter our coal mines every 
day to produce the energy our Nation relies on.
                 getting families accurate information
    It also reminds us that there are families who anxiously await word 
on their loved ones during times of disaster, and that they deserve 
honest and clear answers from their government.
    We need to do more to make sure that if there is a mining incident 
they have access to accurate and consistent information from officials.
    As Chair of the Transportation Appropriations Subcommittee, I am 
very familiar with the model used by the National Transportation Safety 
Board (NTSB) to ensure families have the best information first in the 
aftermath of an accident. I believe we should look to incorporate 
elements of this highly effective model in any new mine safety 
legislation that is developed in the HELP Committee.
    We also need to make sure that if promising technologies are 
available, they're implemented sooner rather than later.
    As I've said before, I hope that as we move forward, we will not 
allow the perfect to be the enemy of the good. We know that every 
technology has limits, and nothing is foolproof, but if there are steps 
we can take to make progress--we shouldn't hold back.
    So, we have an important mission, Mr. Chairman. As Chairman of the 
Employment and Workplace Subcommittee, I look forward to working with 
my colleagues here and in the HELP Committee to identify what went 
wrong at Crandall Canyon and how we can prevent similar mining 
tragedies in the future.

    Senator Harkin. Thank you, Senator Murray.
    Senator Byrd.

                     BRONZITE MINE IN WEST VIRGINIA

    Senator Byrd. Mr. Stickler, the Charleston, West Virginia, 
Gazette reported, this morning, that MSHA has not conducted, 
this year, a regular quarterly inspection at the Bronzite Mine 
in Mingo County, West Virginia, where a miner died on Monday. 
According to MSHA's Web site this morning, the article is 
correct. MSHA has performed only three spot inspections, not 
one regular inspection. How do you explain that?
    Mr. Stickler. At this point, I have not had an opportunity 
to fully evaluate that. I was told, this morning, that the spot 
inspections that MSHA conducted, one each quarter, were what 
MSHA refers to as enhanced spot inspections. They were not 
referred to as full regular inspections, because they did not 
cover every area of the mine, but they went beyond the normal 
spot inspection.

                    MSHA INSPECTOR RESPONSIBILITIES

    Senator Byrd. I was under the impression that, in the 
aftermath of the Alma tragedy, MSHA had instructed its 
inspectors to go into every mine, which they were supposed to 
be doing anyway, and not simply rely upon spot checks and the 
paperwork submitted by the mine operators. I'm absolutely 
flabbergasted--flabbergasted--I'm at a loss--how can we have 
any faith that things at MSHA are actually improving as you 
contend, if you're not even fulfilling these basic inspection 
responsibilities?
    Mr. Stickler. Well, we have communicated with all of our 
inspectors the requirement to conduct the spot inspections in 
the underground area of the mine, as opposed to just the 
surface area, including the mine ventilation fans on the 
surface. I believe that that is being implemented. During the 
internal reviews last year of the Aracoma/Alma Mine and Sago 
and Darby Mine disasters, we identified 153 corrective actions 
that the agency is in the process of implementing to prevent 
some of the deficiencies that occurred and were brought to 
light during those internal reviews that MSHA completed this 
year.

                          CRANDALL CANYON MINE

    Senator Byrd. Well, for God's sake, let's fulfill the basic 
inspection responsibilities. When and how did you become aware 
of the bump that occurred in March 2007?
    Mr. Stickler. I heard some discussion at the mine. During 
the first few hours I was at the mine, I reviewed the mine 
plan, the mine map, and asked several questions. I think it was 
during that period that I asked the question, ``Why did mining 
stop in the north area and west mains?'' I was not told that 
there was a bump, I was told it was because of deteriorating 
mining conditions. I think, later, I picked up, through a 
question from the press, about a bump. Since I returned to 
Washington, I've read the Agapito report, which indicates that 
there had been a bump.
    Senator Byrd. What other geological disturbances, if any, 
was MSHA aware of prior to August 6?
    Mr. Stickler. Geological events, seismic events, I think, 
is the question. During the last 2 years, there have been over 
150 seismic events recorded by the University of Utah in and 
near--around the area of the Crandall Canyon Mine. Seismic 
events are--can be picked up--just a roof-fall in the mine, a 
small area; it can be picked up by a longwall mining activity, 
continuous miner retreat mining activities. There's a lot of 
sources for creating the seismic events. It can be movement in 
the mountain that occurs from previous years of mining. You 
know, it's interesting, the coal pillars that are designed 
yield over years, and they fail over years. I know I had a lot 
of experience in Pennsylvania, where coal pillars that had been 
developed, and the mine was shut down, and, 50 years later, 
after developers developed housing projects over these areas 
that had been mined out--50 years later, the pillars fail. So, 
the pillars in all mines fail. It may be 50 years, it may be 
100 years. But the event that happened here at Crandall Canyon, 
the majority of the failure occurred in less than 4 minutes.
    Senator Byrd. But did anybody in MSHA learn about the March 
bump before August 6?
    Mr. Stickler. The roof control specialists, the ground 
control supervisor in Denver, was aware of that bump when they 
reviewed the roof control plans for the south area to be 
retreat-mined.

                    WARNINGS AT CRANDALL CANYON MINE

    Senator Byrd. In July 2007, MSHA was conducting a quarterly 
inspection that was ongoing at the time of the mine collapse on 
August 6. Did that inspection reveal any signs or warnings that 
a collapse may be imminent?
    Mr. Stickler. I don't know of anyone that can go into an 
underground mine and, based on visual observation, predict that 
there will, or there will not, be a mountain bump. The coal 
walls of the tunnels yield, and that's a normal process. 
Really, if you have significant yielding and gradual slow 
yielding, you don't have the violent outburst of coal that you 
do with a mountain bump. It's when the coal walls are standing 
solid, and they take on so much stress, without yielding, and 
then they abruptly dislodge the coal all at one time--it's 
quite a different event.
    Senator Byrd. I don't think I quite got your answer.
    Mr. Stickler. Well, my answer is that no one has the 
ability to go into a coal mine and predict whether there will, 
or will not, be a mountain bump. So, our inspectors underground 
traveled through the areas of the mine. They did not see any 
condition that would warn them that a mountain bump was 
pending.
    Senator Byrd. So, you're saying that the inspection did not 
reveal any signs or warnings that a collapse may be imminent.

                   SPECIAL ROOF CONTROL INVESTIGATION

    Mr. Stickler. Correct.
    Senator Byrd. In May 2007, MSHA conducted a special roof 
control investigation that, according to MSHA's Web site, 
lasted only 1 day, with no violations cited. Now, what 
triggered that investigation?
    Mr. Stickler. That was part of the normal process to review 
the operator's plan to retreat-mine the south barrier west 
mains. The engineers review the computer models, the 
calculations, but the supervisor for the ground control/roof 
control group, and one of the specialists, went underground, 
spent a day in that section looking at the conditions, 
evaluating the roof support, make sure that the pillars were 
developed according to the plan, the proper size, the proper 
roof support was installed. That's the kind of observations 
they conducted that day that they went underground in May. The 
purpose of that was to gather information to be used in 
evaluating the approval of the ground control plan.
    Senator Byrd. Why did that investigation last only 1 day?
    Mr. Stickler. Well, that's the normal time it would take 
for two people to travel--there's only four entries in that 
section, four tunnels, for a distance of about 2,500 feet.
    Senator Byrd. That inspection did not reveal any signs or 
warnings that a collapse may be imminent?
    Mr. Stickler. That's correct.

                         COMPLAINTS FROM MINERS

    Senator Byrd. MSHA records indicated that a 103(g) 
inspection resulting from a miner's complaint occurred in 
February 2007, revealing a serious violation of mine rescue 
team regulations. What other complaints or warnings did MSHA 
receive from miners prior to August 6?
    Mr. Stickler. That one that you mentioned, Senator, is the 
only one that I'm aware of.
    Senator Byrd. So, what enforcement actions, if any, then, 
did MSHA take in response?
    Mr. Stickler. MSHA issued an order requiring the mine 
operator to abate the violation.
    Senator Byrd. Thank you, Mr. Chairman.
    Thank you, Mr. Stickler.
    Senator Harkin. Thank you, Senator Byrd.
    Senator Hatch.
    Senator Hatch. Do you mind if we ask a couple of questions?
    Senator Harkin. Please. Please.
    Senator Hatch. Well, thank you.

                    HISTORY OF SEISMIC EVENTS/BUMPS

    Mr. Stickler, if I recall this correctly, between 1992--
there were seismic events around there, but, between 1992 and 
this tragedy, there were a limited number of bumps--with some 
small injuries, but there weren't any major injuries. Am I 
correct on that?
    Mr. Stickler. That's correct. As I----
    Senator Hatch. If I recall correctly, there were only about 
eight bumps in the----
    Mr. Stickler. Right.
    Senator Hatch [continuing]. In the mine itself.
    Mr. Stickler. That's right. The majority of those that 
resulted in injury occurred on a longwall mining section.
    Senator Hatch. And this was not a longwall----
    Mr. Stickler. That's correct.

                      CRANDALL CANYON MINE RESCUE

    Senator Hatch [continuing]. Mining section. I see. Now, I 
know that you and your team responded quite quickly to the 
events regarding the Crandall Canyon Mine. Can you please just 
run through the major events that you oversaw, upon arriving in 
Utah?
    Mr. Stickler. Well, like you said, I believe MSHA did 
respond very quickly.
    Senator Hatch. Good.
    Mr. Stickler. Within 2 hours of when we received the call, 
we had a mine inspector onsite. Prior to the mine inspector 
arriving at the mine site, he verbally issued a K-order, which 
ensures the safety of the people at the operation and puts 
control on the activity of the mine operator to ensure that 
MSHA approve any activity the mine operator takes after that K-
order has been put in place.
    It's about 45 minutes from the Price field office to the 
mine, so, when you take that into consideration, the response, 
I think, was very timely, from MSHA.
    Also, the mine rescue teams arrived there very quickly. The 
first two teams were from Murray Energy and also the 
neighboring mine, Deer Creek Mine, which was an adjoining 
mining operation, responded. The first two teams went 
underground at a little after 6 o'clock in the morning. So, I 
don't have the time they arrived on the mine site, but I'm sure 
they were briefed. I think that response was also very timely.
    But when I arrived at the mine, the first thing I did was 
meet with MSHA's folks that had been on the ground. Our 
district manager--his office is in Denver--took him 
approximately 6 or 7 hours to arrive at the mine. So, they 
provided me a briefing of everything they knew about the 
situation. I arrived at the same time as our administrator 
that's in charge of coal mine safety and health, Kevin 
Stricklin. So, we jointly reviewed what everyone knew about the 
situation. We looked at what was going on at the operation, the 
plans for the rescue effort. The mine operator had already made 
arrangements to drill the first hole in the surface. That hole 
was started 1 day after the accident occurred. There were no 
roads within 8,000 feet of the surface area where the drilling 
had to take place, so the mine operator arranged for a 
helicopter to bring the first drill unit in, and it started 
drilling on the 7th, the day after the accident.
    That was a small-diameter hole. We could not guide that 
hole--the driller could not guide that hole, and we were lucky 
that it drilled into an open entry, because it drifted 87 feet 
from where it was intended to drill into the mine.
    The second hole was started the following day, on the 8th. 
It was within about 130 feet of the first hole, but it was 8\5/
8\ inches in diameter, which would provide enough space that we 
could drop a camera into the mine and get pictures of the 
underground operation. The drilling process on the surface was 
conducted in a manner that I think was expedient, considering 
what had to be done to get started.
    The second hole could not be started until an 8,000-foot 
road was built. In the Rocky Mountains, that's quite a 
challenge, to carve out a road for 8,000 feet to get a large 
drill rig in.
    But the holes that were drilled followed a priority basis. 
The first two holes were located in this area outlined here. 
That's where we thought the miners were working. There was an 
electrician in this section, just a couple of hours before the 
event, and he had traveled out of the mine. He was able to give 
people on the ground information, and his indication was that 
the miners were working at the crosscut 139. The belt tail 
where the coal was dumped to transport it out of the mine was 
located at crosscut 138. So, that, generally, would be where 
the miners' normal activity would be located. The first hole 
went in crosscut 138. The second hole went in at 137. When we 
got the air analysis of 7.5 percent oxygen, that was certainly 
a blow to everybody's hope, because, at that level of oxygen, 
it would not sustain life.
    So, the planning process was to determine, well, what area 
could we look? Perhaps the miners would have survived. Whenever 
the bump occurred, we believe it breached this barrier between 
the sealed area to the north and the active section, and the 
oxygen in that area was less than 1 percent. That air was blown 
into the active section. It traveled out by--out of the mine, 
and dislodged the ventilation walls for several thousand feet 
out to crosscut 95. But when we looked at this area of the 
mine, there's a solid barrier of coal, and the belief was that 
fresh air would have been trapped in this area. So, the third 
hole was drilled here, and it did, in fact, verify that we had 
16 percent oxygen, which would support life. Again, we dropped 
cameras in; there was no indication of life.
    We drilled the fourth hole in that same entry, since we had 
a good air--good oxygen--well, I shouldn't say ``good,'' we had 
minimal oxygen, at least enough to support life--that the 
miners may have barricaded themselves in this area, and, 
therefore, the fourth hole was drilled at crosscut 142 and 
number-four entry. Again, we did not find any signs of life by 
either the microphone, the seismic equipment or the cameras 
that were dropped in.
    Then hole number five was drilled in number-one entry, 
because there was some discussion with the families that the 
miners would have tried to escape out the intake escapeway, 
which was located in number-one entry. That hole drilled into 
mostly rubble. It was just a few inches of clearance on top of 
the coal rubble. So, there was not any likelihood that anyone 
would have survived in that area.
    The sixth hole was drilled where the continuous mining 
machine was believed to be located. Again, that hole just 
verified what we already knew. There was rubble almost all the 
way to the roof.
    Meeting with the families, they felt pretty strong that 
they would like to see a hole drilled at what's called the 
``kitchen.'' It's like a picnic table where the miners eat 
their lunch. So, a hole was put in at number-three entry, 
crosscut 137 and a half. The kitchen area where the miners 
would have left their dinner buckets and their extra SCSRs, 
self-contained breathing apparatus, would have been located 
there. None of that was visible, because the entry was mostly 
filled with rubble, and there was only space of a couple of 
feet from the roof.
    That's a general review of the drilling activity. This map 
also shows the advance that was conducted in number-one entry, 
from crosscut 120 up to crosscut 127, over 900 feet was 
rehabilitated. The heavy ground support was installed in that 
area. It shows the seal that was breached just hours after the 
initial accident. Mine rescue teams under apparatus believed 
that they could breach a seal and find a route through these 
entries to get down closer to where the miners were located. 
But, again, conditions would not allow them to proceed in that 
area.
    Senator Hatch. Well, Mr. Chairman, my time is up. I 
appreciate your kindness in allowing us to ask these questions. 
Thank you, Mr. Stickler.
    Senator Harkin. Senator Bennett.

                       MSHA VIOLATIONS AND FINES

    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. Stickler, let me go back to your exchange with Senator 
Specter, and see if I can get a little understanding of what 
you were saying and what he was saying.
    He cited a--I want to--don't quite know--I don't remember 
the exact--violation, or some kind of difficulty in January 
2007, and cited the fact that it says ``the proposed fine was 
zero.'' You said, ``That's just because the fine hasn't been 
assessed.'' All right, without getting into the back-and-forth 
there, let me ask you: When would you expect the fine for that 
particular item to be assessed? From January--we're now in 
September. If, in fact, there was a fine yet to be assessed 
there, when do you expect it would come?
    Mr. Stickler. That depends on whether or not the operator 
asked for a conference on the violation. It also depends on how 
long it takes to schedule that conference and conduct it.
    Senator Bennett. All right. But is it normal for something 
of this nature to go on for 9 months, or 10 months, or 1 year? 
Or would you say that would be an unusually long period of 
time?
    Mr. Stickler. Well, 7 months is slightly unusual, but it's 
something that I wouldn't say doesn't happen.

                    WARNINGS OF SEISMIC EVENTS/BUMPS

    Senator Bennett. Okay. Let me go back to further questions 
relating to your answers to, I think, Senator Byrd. You say the 
amount of mountain bumps, or the lack of mountain bumps, cannot 
provide any predictive power as to what might happen in the 
future. Do I have that right?
    Mr. Stickler. I think I referred to seismic activity.
    Senator Bennett. All right, seismic----
    Mr. Stickler. Seismic activity. It's similar to looking at 
the seismic activity associated with natural earthquakes. You 
can have a quiet period, and that's because the platal--the 
plates are wedged and not moving. You can have, then, a large 
earthquake----
    Senator Bennett. Yeah.
    Mr. Stickler [continuing]. Where small movements are picked 
up, but doesn't necessarily mean that there's a pending----
    Senator Bennett. Yeah.
    Mr. Stickler [continuing]. Large quake.

                           RESCUE ACTIVITIES

    Senator Bennett. All right. But, back to the point I made 
in my opening statement, I had understood, from that initial 
briefing, that there would be no rescue activity as long as 
there was seismic activity--there would be no rescue effort, or 
recovery effort, as long as there was seismic activity in the 
mountain. Obviously, there was such an effort undertaken while 
seismic activity was going on. If I understood your answer to 
that question, you said you suspended all rescue activity until 
there was adequate protection against the seismic action that 
was going on in the mountain. In fact, the protection, while it 
met all previous standards, proved to be inadequate, and that's 
why the three rescuers were killed. Do I have that correctly 
from your statements?
    Mr. Stickler. I think you're close. Really, there's two 
different types of rescue activity that we're talking about.
    Senator Bennett. Yeah, forget the drilling of the holes.
    Mr. Stickler. Right. The first--let's just stay 
underground. Two----
    Senator Bennett. Yeah, because the drilling of the holes 
didn't endanger anybody.
    Mr. Stickler [continuing]. Types of rescue activity 
underground. The first was initiated moments after the event.
    Senator Bennett. Oh, I understand that. But that was----
    Mr. Stickler. And----
    Senator Bennett [continuing]. Over by the time we had had 
our briefing.
    Mr. Stickler. Yeah. But I'm trying to tell you the 
difference between them.
    Senator Bennett. Okay, all right.
    Mr. Stickler. So, the one type involved miners using 
apparatus, mine rescue team members trying to probe, crawl over 
top of rubble in number-one entry, -two entry, -three entry, -
four entry. All those entries were probed by mine rescue team 
members trying to crawl over top of the rubble, in low 
conditions, of about 30 inches. Wire mesh that had been tore 
off of the roof was hanging down. They also went over to the 
adjacent mains entry and breached the seal. They drilled holes 
and blasted through the seal area. They went through that seal 
under apparatus, and tried to explore. That's the activity that 
I think was communicated that would be discontinued. As long as 
we had seismic activity, we felt that that kind of exploration, 
without any kind of protection against a future bump, would not 
continue. So, that was stopped.
    The other type of rescue operation underground was the 
rehabilitation of number-one entry. That involved using a 
continuous mining machine that was operated by remote control, 
diesel coal-haulers that hauled the rubble out and dumped it on 
the conveyor belt, roof-bolting crews that would come in behind 
the miner and roof-bolt the roof, and also crews that would set 
the 40-ton water jacks, install the chainlink fence and the 
wire cables.
    Senator Bennett. So----
    Mr. Stickler. That activity continued on, because we 
believed--and throughout the subsequent bumps, we didn't lose 
any of that support, it was still standing, still in place, 
withstood the bumps, until the one that occurred on the 16th.
    Senator Bennett. So, the second type of rescue effort, or 
recovery effort, carried out under conditions that previous 
experience taught you would be adequate to protect the miners.
    Mr. Stickler. All the experts on the ground there--we had 
our tech support people from Pittsburgh, ground control----
    Senator Bennett. Yeah.
    Mr. Stickler [continuing]. Experts, MSHA's inspection 
people, the mine operator, the engineers--we were confident 
that the support that was being installed would be adequate. I 
was underground in the exact area where the accident occurred 
on the--well, about--maybe 50 feet out by----
    Senator Bennett. Right.
    Mr. Stickler [continuing]. I felt safe. If anyone there 
would have felt that there was imminent danger, those workers 
would have been withdrawn.

                       CHANGING RESCUE PROCEDURES

    Senator Bennett. Right. I have one quick question, if I 
might, Mr. Chairman.
    I've had an experience with the Forest Service with the 
disaster of a forest fire that threatened my own home and a 
number of homes and structures in the area where I was then 
living, and learned very quickly that when the feds showed up, 
in the Forest Service pattern, nobody else mattered. I learned 
a new term, that I had not known before, called ``the incident 
commander.'' The sheriff's office and the Salt Lake County 
sheriff, the Salt Lake County Police, the Salt Lake County 
Commission, all the rest of this, they were immediately told, 
``Everything that has to do with this forest fire, the incident 
commander is king. We know you're the county sheriff, we know 
you have jurisdiction, but if it's in the area of the fire, the 
incident commander determines who goes in, who comes out, 
everything relating to the press--the incident commander is the 
only one that gives out any information.''
    I just ask you the rhetorical question: Would we be better 
off if MSHA went to a circumstance where you, or your designee, 
became the incident commander, and everything funnels through 
that, rather than the kind of cooperative effort that I ran 
into when I was there at the briefing? Do you have an opinion 
on that?
    Mr. Stickler. Well, I think it's important to have a lot of 
different input. My experience in the past, particularly 
operations that were--represent unions--the union was 
represented in the command center, the mining company, the 
State Mine Safety Agency, and the Federal Mine Safety and 
Health Administration. That team of four groups would work 
together cooperatively to come up with the best ideas, the best 
way to deal with these situations. There's no recipe, or no 
cookbook. Every situation is different. So, it's a matter of 
having people that have years of mining experience, the most 
knowledge that you can bring there, and resources, and work 
together cooperatively.
    My experience has been that people do work cooperative. I 
have not had a case in a mine emergency where we were fighting 
among ourselves and you had to use force and take control.
    Now, in one respect, if MSHA would take control of a 
situation like that, then you would have to ask the question, 
well, ``What responsibility does the mine operator have?'' If 
the mine operator walks away, he takes the personnel and the 
resources and equipment. It would be a monumental task for MSHA 
to secure contracts with drilling companies and bring employees 
in to substitute and replace the mine operator.
    I think I would lean toward the cooperative--of teamwork 
between the State, the labor unions, MSHA, and the mine 
operator. I've seen it work successfully.

                        CONTROL OF ACCIDENT SITE

    As far as the press, you know, I don't know how to control 
the press. If you've got any ideas on that, that can help the 
agency in the future--you know, it's unfortunate, because 
things got printed in the newspaper. Things are being quoted, 
even today, from newspaper sources that have not been confirmed 
and are not known to be factual. And some of this information, 
as it got back to the families, was hurtful to the families.
    Senator Bennett. Thank you, Mr. Chairman.
    Senator Harkin. Thank you very much, Senator Bennett.
    But doesn't MSHA have the authority to approve the entry of 
media to the Crandall Canyon Mine?
    Mr. Stickler. I didn't catch your full----
    Senator Harkin. Well, didn't MSHA have the authority to 
permit who got into the mine? In other words, you could have--
MSHA could have said only certain personnel can go into the 
mine. But, as I understand, media--Mr. Murray took media into 
the mine. But you could have stopped that, couldn't you have?
    Mr. Stickler. Well I think our--and I'm not sure, but, as I 
recall, our K-order limited the number of people in by--I don't 
know if it was crosscut 119 or 120----
    Senator Harkin. Did you approve the entry of media into the 
Crandall Mine?
    Mr. Stickler. Well, we didn't disapprove it. The mine 
operator has the right to take people into the mine, visitors, 
provided they give them the training, and provided that they 
don't go into an area that's unsafe.
    Senator Harkin. I think we ought to----
    Mr. Stickler. We had a Federal inspector traveling with the 
news media when they went underground. My understanding is that 
they were not taken in to an area that interfered or disrupted 
the rescue work or in any way exposed them to an unnecessary 
danger. So, if MSHA would take action to stop that, we would 
have to be able to show that it was unsafe.

                          TRACKING TECHNOLOGY

    Senator Harkin. Last, Mr. Roberts, in his testimony, will 
talk about a device that was used to save a Polish miner--track 
a Polish miner. I asked you, earlier, about tracking devices. I 
asked you: Is there a tracking technology available and 
approved by MSHA that could have told us where the miners were? 
Your answer was no, you wished there were. Are you familiar 
with what was used in the Polish mine? I don't know much about 
it, I don't know how deep that mine was, or anything like that. 
Are you familiar with that tracking device that was used there?
    Mr. Stickler. Well, I don't know, specifically, which 
device you're referring to, but----
    Senator Harkin. I don't----
    Mr. Stickler [continuing]. I know that MSHA's folks and 
NIOSH's people have been working hard, thousands of man hours, 
gathering all the information from around the world. We have 
tested--at MSHA--we've tested numerous systems that people 
claim will perform in a certain way, and we have not yet found 
a two-way wireless communication or tracking system that would 
work in a mine such as the Crandall Canyon Mine.
    Senator Harkin. Mr. Stickler, thank you very much for your 
testimony here this morning. I think there were a couple of 
things that we had asked for, that I wanted to have you provide 
for us, and that was the MSHA approvals after the letter of 
April 18, 2007, the approvals that they gave for the resumption 
of mining in that south area. If you could provide those for 
us, I'd appreciate it.
    Mr. Stickler. We'll do so.
    [The information follows:]
    [Clerk's Note.--This information is available at 
www.msha.gov/genwal/cradallcanyon.asp]
    Senator Harkin. Thank you very much, Mr. Stickler. Thank 
you.
    Now we'll turn to our panel.
    Senator Byrd. Mr. Chairman?
    Senator Harkin. Yes, sir. Do you have a question for Mr. 
Stickler?
    Senator Byrd. Yes.
    Senator Harkin. Senator Byrd had another question, Mr. 
Stickler.

                     ACCIDENT INVESTIGATION REPORT

    Senator Byrd. Mr. Stickler, do you stand behind the mining 
plan that MSHA approved at Crandall Canyon?
    Mr. Stickler. I think I will have to see the results of the 
accident investigation team. They will run the computer 
analysis. They will interview the professional engineers from 
Agapito. They will interview the district nine professional 
engineers that recommended approval of plan. I will wait until 
I get that information to make that decision.
    Senator Byrd. Will we also get the information?
    Mr. Stickler. Sir, I didn't hear you.
    Senator Byrd. Will this committee also get the information?
    Mr. Stickler. That'll be in our accident investigation 
report. You'll be provided a copy. It's posted on our Web site, 
and all the family members will be given a copy.
    Senator Byrd. Very well.
    Senator Harkin. Can you just give us about--approximate 
date when that might happen?
    Mr. Stickler. When the accident investigation team--that 
team determines what they look at, how long they take. I would 
not want to preempt them or put any undue pressure on them by 
giving you a date.

                    INTRODUCTION OF OTHER WITNESSES

    Senator Harkin. Thank you very much, Mr. Stickler.
    Now we'd like to call our second panel, Mr. Davitt McAteer, 
vice president of sponsored programs at Wheeling Jesuit 
University, former Assistant Secretary of Labor, Mine Safety 
and Health; Mr. Cecil Roberts, the international president of 
United Mine Workers of America; Mr. Bruce Watzman, vice 
president for safety, health and human resources for the 
National Mining Association.
    Gentlemen, welcome. Thank you for being here this morning. 
Thank you for your patience. As you can see, we had a lot of 
questions for Mr. Stickler. I'm sure we'll have some for you, 
also.
    All your testimonies will be made a part of the record in 
their entirety. I would ask if you could sum up, again, in 5, 
7, 10 minutes, something like that. I'll get the light at 7 
minutes, and if you have to go over, we'll give you a little 
time over that, but we'd like to have time to engage in 
questions for all of you.
    So, I'll start in the order in which I brought people up, 
Mr. Davitt McAteer, vice president of the sponsored programs at 
Wheeling Jesuit University, and former Assistant Secretary of 
Labor, Mine Safety, and Health.
STATEMENT OF J. DAVITT McATEER, ESQUIRE, VICE PRESIDENT 
            OF SPONSORED PROGRAMS, WHEELING JESUIT 
            UNIVERSITY, SHEPHERDSTOWN, WEST VIRGINIA
    Mr. McAteer. Chairman Harkin, Chairman Byrd, Senator 
Specter, Senators Hatch and Bennett, thank you for the 
opportunity to appear here today.
    In order to answer the questions that have been posed 
earlier to Mr. Stickler, I would propose to address three 
issues. One, the mining plan should not have been approved; it 
proved to be inadequate. Two, there were indications, prior to 
the approval of the mining plan and during the mining process, 
that there were difficulties being encountered at the mine, 
that bumps were occurring, and that pressure was building up 
during the period of time prior to the mining. The fact the 
mine had to move from the north to the south section, and that 
that was not apparently reported to MSHA, suggests that there 
was not an effort to comply with, or coordinate with, MSHA.
    Second, MSHA has, at its resources available, a computer 
technology called ARPM Analysis of Room and Pillar Method. This 
analysis was not done prior to the incident, and--this analysis 
is a computer modeling system that is particularly useful in 
determining where the difficulties--where the pressures are 
going to be located. That analysis was done subsequent to the 
accident, and that analysis, according to one newspaper 
account, has found the design by Agapito and submitted by the 
Murray Company to be inadequate and to be insufficient.
    Next, do we have a way that we can understand the 
technology that provides us with information about these bumps? 
These bumps are not the collapse of the mine, as you 
traditionally think of it, but they are, in effect, the rock 
bursting out, the coal bursting out into the workplace, 
pressured by the top and the bottom. There were, according to 
press accounts, reports by the miners in the days previous to 
the bumps--to this bump--hooving in the bottom and a heating in 
the bottom, which gives us some indication that pressure is 
building up. Other countries, other parts of this country, 
other mines in this country, suffer similar kinds of problems. 
It's related to the weight of the top, the height of the roof 
above ground cover above the mine, and the opening itself. 
There were pressure buildups here. Those pressure buildups were 
not being read and monitored.
    There are systems in use in this country, and there are 
systems in use in South Africa and Poland that have, for the 
last 20 years, been able to build--understand what--these 
pressure buildups are coming. These seismic systems are 
available, are commercially available, and have been in--been 
used in this country's mines. The Buchanan Mine, in Virginia, 
used such a seismic device. Other companies have used it. MSHA 
has tested one of these devices. NIOSH has tested one of these 
devices.
    If we are going to permit the mine operator to operate in 
this highly dangerous circumstance, then we must put on that 
mine operator an obligation to, one, monitor and read the 
bumps--read the pressures, and, two, take steps to diffuse 
them. That can be done. There's ways to diffuse and to have 
limited explosions, which decrease the pressures so that you 
don't have the creation of a cataclysmic event.
    The mine rescue system is broken, unfortunately, in this 
country. This is not to take away from the valuable and heroic 
efforts of the miners. But, in point of fact, Mr. Stickler 
suggests that it was expeditious and we got there quickly, 
given the conditions of the mountains and of the location of 
this particular mine. It is our suggestion that each mine 
operator, as part of their emergency plan, have a worst-case 
scenario, because, when you are in those mountains, and you 
know you're going to have problems, and you know you're going 
to have difficulties, then you should very well plan ahead; 
much like you plan ahead for the production side, you need to 
plan ahead for an emergency. If we're going to send people into 
these circumstances, in very difficult terrain, in very 
difficult locations, then we need to be prepared to get' em 
out, and get' em out quickly.
    We are, unfortunately, not using the technologies that are 
available in other industries, like tunnel boring systems that 
would allow us to penetrate the earth quickly and safely, 
because it builds its own protection as it goes.

                           PREPARED STATEMENT

    We need to learn from the accident, just like we needed to 
learn from Sago. At Sago, what we learned was to try to provide 
supplies and equipment to the miners to keep alive til we could 
get to them. In this instance, we need to learn how we can get 
to them faster and how we can predict these things from coming 
to us, and stop them from occurring before they occur.
    Thank you, sir.
    [The statement follows:]
                Prepared Statement of J. Davitt McAteer
    Good Morning, Chairman Harkin and distinguished Members of the 
Subcommittee. My name is Davitt McAteer and I wish to thank you for 
this opportunity to appear before you today. I am the Vice President of 
Wheeling Jesuit University where I am responsible for research efforts 
at the National Technology Transfer Center (NTTC) and Center for 
Educational Technologies (CET).
    In addition, during the past year and one-half, I led 
investigations into the Sago and Aracoma/Alma No. 1 Mine disasters in 
West Virginia at the request of West Virginia Governor, Joe Manchin, 
III, and issued reports on those disasters in July and November of 
2006.
    From 1994 to 2000, I served as Assistant Secretary of Labor for the 
Mine Safety and Health Administration (MSHA) and also served as Acting 
Solicitor of Labor from February, 1996 to December, 1997. I have been 
involved in mine safety and health issues since 1968 when, following 
the Farmington Mine disaster in November of 1968, I conducted a study 
and produced a report and book entitled Coal Mine Safety and Health--A 
Case Study of West Virginia.
    Tragically, we are here yet again to attempt to make sense of the 
events which began at 2:48 AM on Monday, August 6, 2007 at the Crandall 
Canyon Mine near Huntington, Utah, where nine men lost their lives. 
Based on the information I've reviewed, a massive coal bump \1\ 
violently disrupted the mining operation. The bump was of sufficient 
force to be recorded as a 3.9 magnitude event by the University of Utah 
Seismograph Station in Salt Lake City and lasted 4 minutes.
---------------------------------------------------------------------------
    \1\ Coal Bump: Sudden outbursts of coal and rock that occur when 
stresses in a coal pillar, left for support in underground workings, 
cause the pillar to rupture without warning, sending coal and rock 
flying with explosive force. A Dictionary of Mining Minerals & Related 
Terms, Compiled and edited by Paul W. Thrush and the State of the 
Bureau of Mines, U.S. Department of the Interior, 1968, p. 223.
---------------------------------------------------------------------------
    The suggestion that this was a naturally-occurring earth quake has 
been rejected by every seismologist who has reviewed the evidence. 
Moreover, rock bursts of this sort are not uncommon in certain U.S. 
mining regions.\2\ In fact, the Utah coal field where the Crandall 
Canyon mine is located has been known as an area prone to coal ``bumps 
and bounces'' for decades.\3\  There's no doubt that the violent coal 
burst that occurred on August 6 was directly related to the mining 
activity at this underground operation. Panels of coal were being 
extracted in areas where exhaustive longwall mining had previously 
occurred.
---------------------------------------------------------------------------
    \2\ Mine Safety & Health News; Retsof Salt Mine and Green River 
Wyoming, Trona Mine Collapse, August 13th Edition.
    \3\ In 1914, E.H. Weitzel, a company executive with the Colorado 
Fuel & Iron Company, testified before the U.S. Congress, House 
Committee on Mines and Mining that in many western coalfields the 
overburden of rock and strata covering the coal seams are very unstable 
and that he considered the Rocky Mountain region to be the most 
hazardous coal-mining area in the country. And in 1926, a U.S. Bureau 
of Mines representative noted that the practice of pulling pillars 
(unmined coal left standing between room and pillar entries) in worked-
out areas--more common in the West than in other regions--made unstable 
roof conditions more dangerous. (U.S. Congress, House Committee on 
Mines and Mining, Investigation of Conditions in Coal Mines of 
Colorado. 63rd Congress, 2d Session, 1914 pp. 1781-1782; Daniel 
Harrington, Accident Record in Western Coal Mining States, Rocky 
Mountain Coal Institute, Proceedings 1927; 2:11-16.).
---------------------------------------------------------------------------
    It is my understanding that in February, 2007, the mine operator 
was mining in the North barrier panel, but in March, a large outburst 
of coal forced the company to abandon this section of the mine in favor 
of mining in the South barrier. Under MSHA regulations, a mine operator 
is required to report to MSHA ``a coal or rock outburst that causes 
withdrawal of miners or which disrupts regular mining activity for more 
than one hour.'' \4\ (It has been reported that the operator failed to 
file this required report to MSHA, and upon learning of the March 2007 
rock burst, MSHA determined that mine operator had not violated the 
reporting requirement.) In response to the March 2007 rock burst and 
after consulting with a mining engineering firm, the mine operator 
submitted a revised mining plan for the Crandall Canyon Mine to MSHA on 
May 23, 2007, and the agency approved it on June 15, 2007. On the night 
of August 6, miners were removing coal from the 158 block when the 
massive bump and collapse occurred. Sadly, on August 16, during the 
heroic effort to rescue the six trapped miners, another massive bounce 
occurred. Three individuals were killed, including a MSHA inspector, 
Gary L. Jensen, and six others were seriously injured.
---------------------------------------------------------------------------
    \4\ 30 CFR Part 50.20-5(a).
---------------------------------------------------------------------------
    While it is early in the investigation and much remains to be 
learned, I would like to emphasize two points at this time. First, 
Prevention. Second, Emergency Answer. Historically, the most effective 
and proven way to save miners from disasters is to prevent them from 
occurring in the first place, by dealing effectively with known risks. 
Explosions, mine fires, rock bursts, fatal crushing injuries, and black 
lung disease have all been with us a long time, we have not invented 
new ways to kill miners. The same hazards that killed miners 50, 20 and 
10 years ago, are the same, and the nature of mining---where the 
workplace is changing minute-by-minute---requires constant vigilance on 
the part of miners, foremen, mine superintendents, and mine operators.
    Of course, MSHA also has a critically important role in prevention, 
by approving mine operators' written plans for ventilation, roof 
control, etc., and by conducting comprehensive inspections and 
protecting miners' rights to complain about safety and health concerns 
without fear of reprisal. Lest the public forget, at its core, MSHA is 
a law enforcement agency, but as the law states, it is the 
responsibility of the mine operator to safely operate the mines. It is 
responsible for enforcing mine safety and health regulations which are 
proven tools to prevent injuries, illnesses, and deaths. When it comes 
to protecting our nation's mine workers, MSHA's decisions should always 
err on the side of protecting the miners.
    In this context, what do we already know about the situation at the 
Crandall Canyon mine? The mine plan was either grossly insufficient and 
led to the disaster, or it was adequate but the mine operator failed to 
follow it as written. In either case, we need to ensure that mining 
plans include a sufficient margin of safety, so that if minor 
deviations from the plan are made in the course of mining, a 
catastrophic event doesn't result. The catastrophic event in Utah 
suggests a serious deficiency in the way the plan was approved by MSHA. 
In the Sago and Aracoma/Alma disasters, the plans submitted by the mine 
operators and approved by MSHA did not include a sufficient safety 
factor, and as a result, miners were not protected and many perished. 
The MSHA approval process, a vital part in the prevention system, 
should start with the question: Will this plan provide a high level of 
safety to the miners working in accordance with it? Ultimately, an MSHA 
plan approval should convey to the mine operator, the miners and 
ultimately their loved ones, that the Agency has a high-degree of 
confidence that the plan, if followed diligently, will provide a robust 
level of safety for the mine workers.
    MSHA's technical review of plans must certainly rely on the 
expertise of the agency's engineering specialists, but the staff also 
have available to them a computer modeling program called the 
``Analysis of Room and Pillar Mining Systems'' or ``ARPM.'' This 
computerized modeling system provides a quantitative measure to assess 
the engineering adequacy of the plan. The ARPM is especially valuable 
as it relates to pressure risks in coal pillars and ribs. It is my 
understanding that MSHA's ARPM was not used to evaluate the Crandall 
Canyon's mining plan until after the disaster occurred. And, it is my 
understanding that the evaluation found that the mining plan was 
``lacking and under-designed.'' \5\
---------------------------------------------------------------------------
    \5\ Ward, Ken, Tough Questions, Need Answers, Computer Model Found 
Mine Plan in Utah Lacking; Charleston Gazette, Sept 2, 2007.
---------------------------------------------------------------------------
    This technology was previously used to limit mining in dangerous 
conditions. In 1996, following a double fatality at the Harlan 
Cumberland mine in eastern Kentucky where a violent coal outburst 
claimed the lives of miners Mark Skidmore and Randy Lewis, and injured 
four other men, MSHA's district office used the ARPM to evaluate the 
operator's plan to continue mining in a section near the fall. When the 
ARPM analysis showed continued and heightened danger, the plan was 
rejected and mining was not allowed in that section of the mine.
    MSHA's approval of the mining plans is a critical component of its 
prevention responsibility, but this approval must also be integrated 
into the inspection process. The front-line inspectors must be given 
adequate time to coordinate and consult with the technical specialist 
who reviewed and approved plan. This way, the inspector who will 
actually visit the mine and see the plan in action, has a thorough 
understanding of the plan's unique features, and is aware of areas in 
the mine that should undergo more scrutiny during an inspection. Also, 
the various divisions of MSHA must work together when considering, for 
example, the demands for appropriate roof control and appropriate 
ventilation. Each of these safety concerns is equally important and 
must be reviewed as an integrated mine-safety system, not as 
independent factors, as if changes in one (e.g. ventilation controls) 
couldn't have a profound adverse effect on the other (e.g., ground 
control).
    In addition, other Federal agencies with responsibilities for 
safety must be consulted. In the Crandall Canyon disaster, we now 
understand that Bureau of Land Management (BLM) engineers had not seen 
the mining plan until after the accident and were not aware ``how 
aggressively they were on retreat mining.'' \6\ The chief of the BLM's 
solid minerals branch said ``I can say with certainty that our mining 
engineers would have had some questions about it.'' \6\
---------------------------------------------------------------------------
    \6\ Gehrke R. ``Mountain was buckling months before mine 
collapse.'' The Salt Lake Tribune, August 31, 2007.
---------------------------------------------------------------------------
    In the mode of getting ``back to basics'' on enforcement to enhance 
prevention, more emphasis should be paid to the role of MSHA's field 
and district office supervisors, for their support and enhancement of 
the front-line mine inspectors. Today many MSHA supervisors are being 
called on to take on all sorts of additional responsibilities (e.g., 
stakeholder meetings, special emphasis programs) which may dilute the 
principle enforcement mission of the agency.
    Moreover, we know that in certain regions of the county with their 
unique geological formations, and in particular kinds of mining 
settings, underground mines are prone to rock bursts (i.e., ``bounces'' 
and ``bumps''.) In West Virginia, as well as in Utah, the coal seams 
and related geology is well understood by mining engineers. Coal 
``bumps and bounces'' are not limited to western coal mines. At the 
Consolidation Coal Company's Buchanan No. 1 mine located in western 
Virginia, several ``bounces'' occurred on July 7, 2007 and they were 
reported to MSHA. (No injuries to miners resulted from this event at 
the Buchanan mine, which registered above 3.0 magnitude on the Richter 
scale at Virginia Tech.) When a mine operator proposes an underground 
site for secondary mining applications, however, the geologists and 
mining engineers may know less about how the seams will respond and 
need to plan the mine design accordingly.
    Therefore, I recommend that any mining operation with cover in 
excess of 1,000 feet, be required to meet a greater level of review and 
scrutiny before a plan is approved. Just like the special consideration 
and oversight of mines that liberate high concentrations of methane, we 
need an additional level of scrutiny for mines with more than 1,000 
feet of cover. These mine plans must first make a determination of 
whether the mining can be undertaken while ensuring an adequate margin 
of safety for the miners. Then, it must include a description of how 
pressure buildups in the pillars or ribs will be monitored, but also 
elaborate on the techniques that will be used to (1) monitor the build-
up of pressure in the strata, and (2) institute procedures to the 
release it. The methods to manage safely the risk of coal or rock 
bursts are well known and have been used extensively in the mines of 
Poland, South Africa, as well as in certain mines in the United States. 
They have not been applied on a large scale in the United States 
because they are not required by Federal law and interfere with rapid 
coal production. If day-to-day management of pressure build-ups in the 
pillars and ribs had been adopted at the Crandall Canyon mine, it is 
likely that miners' lives may have been saved.
    Seismic monitoring of mining conditions is a well developed science 
which has been available as a tool for measuring and graphing rock 
pressure build-up in strata surrounding the coal seams. In principle, 
it is a modern version of listening to the rock or roof formation, a 
practice miners have used since ancient times. As the mining creates 
voids in the subsurface strata, the rock formations above and below 
will begin to adjust, in effect, filling the void (as the old saying 
goes, Mother Nature hates a void). That adjustment results in some 
cases, roof falls and in other locations in the build-up of pressure in 
the rock formations above, as well as below the coal seam and void. 
Typically the coal vein is the softest rock formation, thus pressure 
can cause bursts and bumps which violently cause the coal and 
surrounding rock to explode into the void and into the mine tunnel. 
This phenomenon occurs as well in gold and other metal and nonmetal 
mines.
    As mentioned, seismic monitoring of the pressure build-ups has been 
practiced in South Africa and Poland for decades, and techniques for 
diffusing the pressures in a controlled manner have been developed and 
successfully deployed. This technique has also been deployed in the 
United States in the coal mining industry. Consolidation Coal Company 
deployed seismic monitors in its Buchanan Mine in the last twenty 
years, recently, the practice has been discontinued. The science has 
advanced to the point it is called ``micro seismic monitoring'' and 
portable wireless seismographic units have been developed. The U.S. oil 
industry has employed this technique for oil exploration.
    Therefore, I wish to propose that each mine operator of any mine 
which has experienced pressure buildups, bounces or bumps or which has 
the potential for such events be required to deploy seismic monitoring 
systems in their mines. Moreover they be required to utilize techniques 
already existing to defuse the pressure buildup. Finally, each such 
operator should be required to have a procedure to remove miners from 
harm should pressure buildups be detected, and to discontinue mining 
until steps have been taken to release the pressure to a safe level.
    MSHA recently tested a wireless mini-seismic system which according 
to the manufacturer, the in-mine testing was successful. This portable 
wireless system could also be adapted for mine rescue to listen for 
miners trapped below ground.
    From a prevention perspective, mining companies and MSHA currently 
have tools available to them that are designed to assess hazards and 
prevent the kind of catastrophe that occurred at the Crandall Canyon 
mine. These must be deployed in the mines today.
    Second, the mine emergency system in the United States must be 
overhauled. It has failed the miners. Rescues have been few and far 
between, sadly we are not as prepared, quick and nimble as we need to 
be. The mine rescue operations which have taken place in the last few 
years have certainly demonstrated the heroic efforts on the part of the 
rescuers, including all the men at Crandall Canyon. However, the system 
is not accomplishing what it was established to do: rescue miners 
quickly and safely, and with the least amount of risks to those 
individuals engaged in the rescue itself.
    After the mine accident at Sago, a number of State and the Federal 
governments pushed reforms to equip trapped miners with additional 
breathing devices, and other essentials to keep them alive until they 
could be rescued. Today, more self-contained self-rescuers are being 
stored underground than in the past, and that is a good, positive first 
step. But, we should never have been satisfied with that minor first 
step, and I am particularly disturbed at the slow pace of other 
improvements, notably, emergency response plans, communications and 
tracking, and rescue chambers.
    When the MINER Act of 2006 required mine operators to develop a 
``response and preparedness plan'' for mine disasters, it was hoped 
that mine operators and MSHA would have developed and approved plans, 
respectively, that reflected the letter and the spirit of the new law. 
An emergency preparedness plan should not simply list the number of 
SCSR's available and report that the underground emergency supply skid 
will contain 1 roll of brattice, 2 lbs. of #8 nails, and 10 gallons of 
water. Instead, the plan should reflect the mine operator's planning 
and preparedness for an emergency. Examining the emergency response 
plan for the Crandall Canyon mine, which MSHA approved in June 2007, 
there is little indication that the operator gave serious thought to 
the types of emergency scenarios likely to occur at his mine. For a 
region of the country notorious for rock bursts, and a mine with a 
history of them, we should expect the mine operator to consider these 
facts when planning and preparing for an emergency.
    I recommended that each mine operator include in his emergency 
response at least one ``worst case scenario'' and how they would 
respond to this event. The plan should include how they involved 
miners, local emergency responders and family members in their mock-up 
exercises, and thoroughly describe the plausible eventualities 
considered in their preparation.
    At Crandall Canyon, we know that precious hours were spent simply 
getting the site ready for the first drill hole. As the mine advances 
underground, given the requirement that the emergency response plan 
must be updated at least every 6 months, an estimated site for 
emergency response holes or ``rescue boreholes'' be mapped out in 
advance. In the event of an actual emergency when the command center 
officials determine that a bore hole is necessary, the site would have 
been already planned out. These and other steps that could be taken in 
advance will expedite the mine rescue process and hopefully buy time 
for the miners awaiting rescue.
    MSHA must develop and equip rapid response teams with adequate 
equipment on-hand and ready to transport when notified of about a mine 
emergency. Technology from other industries (e.g., oil and gas, 
aerospace) should be examined for potential transfer to the mine safety 
world in order to improve the effectiveness and speed with which rescue 
teams can reach trapped miners. For example, tunnel-boring machines 
used in the tunneling industry appear to offer significant potential 
for boring quickly and safely into trapped miners.
    At all levels, corporate, State and Federal levels, mine rescue 
must be modernized and made realistic, starting with in-mine rescue 
exercises in addition to the traditional mine-rescue contests.
    The efforts to improve communications between the mining surface 
and to the underground miners must be redoubled. There are 
communication and tracking systems which are manufactured and available 
today for the mining industry. They may not be perfect, and they may 
not work in every emergency situation, but we must short-circuit the 
endless search for the holy grail of communication devices that can be 
used in every location underground. When the vast majority of nation's 
electricity is powered by coal, there is no reason that our coal miners 
don't have access to the best currently-available communication and 
tracking equipment. We must make a commitment that every 3 years or 5 
years, existing equipment will be replaced with the latest state-of-
the-art available technology.
    Economically, the coal industry is well positioned to adopt 
improved safety technology, as the past several years have been 
especially profitable, and production is concentrated in a small number 
of companies.
    Of the 612 underground mines that produced coal last year, 81 
percent of the coal came from just 145 mines. The vast majority of 
these mines are controlled by the Nation's seven largest coal mining 
companies.\7\ I know that some of these firms' mines have begun 
installing improved communication and tracking systems, however others 
have not. I recommend that the operators of these 145 top-producing 
mines, provide MSHA with a report on their current state of 
communication and tracking systems, as envisioned by the spirit of the 
Miner Act. We must help to ensure the continuous improvement and 
application of communication systems for underground miners by 
encouraging a new approach to applied mine safety engineering, so that 
the ``research'' to ``practice'' to ``product'' cycle is accelerated 
greatly. One suggested method would allow MSHA to provide grants to 
equipment entrepreneurs, inventors and coal operators to establish 
partnerships and collaborate between themselves to test the system 
components to ensure the equipment is effective and intrinsically-safe 
for use in an underground mine.
---------------------------------------------------------------------------
    \7\ Alliance Resources (NYSE: ARLP), Arch Coal (NYSE: ACI), CONSOL 
(NYSE: CNX), Foundation Coal (NYSE: FCL), Massey Energy (NYSE: MEE), 
Murray Energy, Peabody (NYSE: BTW).
---------------------------------------------------------------------------
    Our failures in the past 2 years are driven by the lack of 
knowledge of the location and condition of the miners. Systems exist 
which can enhance that knowledge, but they have not been adopted. I do 
not believe that perfection should be the benchmark for mine safety 
equipment, but rather improvement should be the standard for the 
deployment of new mine safety equipment, concrete steps to deploy 
safety equipment should be taken now.
    Retreat mining carries a higher risk than other types of mining. It 
therefore should be looked to only as a mining technique of last 
resort, and higher safety standards be required in particular when 
exhaustive mining has been previously conducted and secondary and 
tertiary mining cycles are being proposed. In fact, the practice of 
retreat mining in general, and retreat mining in secondary mining 
situations--as happened at the Crandall Canyon mine--is an issue which 
should, I believe, be examined in general. In a study conducted in 2001 
for the West Virginia Governor, I concluded that retreat mining which 
was done in a small number of mines had a disproportionately high rate 
of fatal and non-fatal accidents.\8\ In that report, I urged the 
restriction and prohibition in many instances of retreat mining as a 
practice.
---------------------------------------------------------------------------
    \8\ In a report to the then Governor: Report to Governor Robert 
Wise On Mine Safety and Health in West Virginia and Recommendations to 
make West Virginia Mines the Safest and Healthiest in the Nation, Fall 
2001, a recommendation was made to Improve and Update Requirements 
related to Roof and Ground Control Methods and Criteria, including 
restricting and eliminating retreat mining and pillar removal in 
certain instances.
---------------------------------------------------------------------------
    Here, I would like to recommend a suspension of approval for 
retreat mining plan approvals by MSHA until a review of the question of 
whether retreat mining should be permitted; particularly in cases, as 
in Crandall Canyon, where extensive mining has previously occurred and 
where the cover exceeds 1,000 feet and the area is prone to coal bumps 
and bounces.
    In conclusion, the time for the industry and Federal Government to 
wait on research before implementing applied engineering improvements 
is at an end. Crandall Canyon signaled loud and clear it is time for 
action. Mining in the twenty-first century calls for a new set of 
criteria, as coal reserves dwindle, as mining conditions change, 
greater challenges can be expected, and greater scrutiny should be 
forthcoming. The mining industry must consider whether it wishes to 
continue in the mining business or not---if it does, it must use the 
technologies available from other industries and other mining countries 
(i.e., tunnel boring machines and seismographs, South Africa and 
Poland) to protect the men and women we send underground. There is a 
need to overhaul the technology used to protect and defend miners. The 
maxim must be if we can't go get them quickly and safely then we should 
not send them underground!

    Senator Harkin. Thank you very much, Mr. McAteer.
    Now we turn to Mr. Cecil Roberts, president of United Mine 
Workers of America. I have to add, here, I--just 
parenthetically, for my friend Senator Bennett, when you--when 
you earlier mentioned that the level of fatalities in mining--
coal mining had gone from--in 1920 to 3.6 per 1,000 down to .6, 
if I got--if I remember right----
    Senator Bennett. .2.
    Senator Harkin. .2--I thought about that, and I thought, 
you know, I wonder that was. But one of the reasons was because 
miners organized and became unionized. My father was never 
privileged to belong to United Workers, because--but he told me 
a lot of stories about them trying to organize, and what would 
happen to them. He worked in mines, where they brought over 
people from Italy, the Italians, Slovenians, Croatians, Welsh, 
of course--John L. Lewis--Irish--my father--all came over to 
mine coal. He told me about the early days of trying to 
organize, and what would happen to them, by the mine owners and 
stuff. But he looked back wistfully on that, back in the 1950s, 
up--1960s, up until the time he died, and he thought John L. 
Lewis was probably one of the greatest men who ever lived. He 
just wished that they had been unionized when he was in the 
mine. So, I think that part of the reason that we have that was 
because miners got organized, they demanded these safety 
things, and--the safety procedures and stuff, the--many of 
which predated the 1952 law--or the 1952 Mine Health and Safety 
Act.
    Well, with that--just my way of saying thank you very much, 
Mr. Roberts and all those presidents who preceded you in 
working for the safety and health and benefit of our coalminers 
in America.
STATEMENT OF CECIL E. ROBERTS, INTERNATIONAL PRESIDENT, 
            UNITED MINE WORKERS OF AMERICA, FAIRFAX, 
            VIRGINIA
    Mr. Roberts. Mr. Chairman, thank you very much for those 
kind remarks.
    I want to thank this committee, not only for conducting 
this hearing today, but also the interest that you've shown, 
not only last year in the wake of all those tragedies, where 47 
miners lost their lives, but, earlier this year, you called a 
hearing, in February I believe, to ask about the progress that 
we were making with respect to mine health and safety in the 
United States of America. I think that demonstrated this 
committee's very keen interest in protecting the coalminers.
    I also want to thank this committee, particularly my friend 
Senator Byrd, for the nearly $26 million that was appropriated 
to hire an additional 170 Federal inspectors to protect the 
Nation's coalminers. I think you've done some good work.
    I also would like to take this opportunity to express my 
condolences to those wonderful people in Utah, the families of 
the six trapped miners, the brave efforts of the three miners 
who were attempting to rescue them. We're all one family here, 
whether we're union or nonunion, when it comes to this.
    I come here today with--as has been mentioned--with 
families from Sago and from Jim Walter Resources tragedies, 
2001 and 2006, and we're all united in the purpose here of 
making the coal mines in this Nation safer. That's the only 
purpose that we come here, today.
    We would point out that--I was asked a very pointed 
question in February, as to whether, if we had another 
situation such as Sago, would there be much of a difference? 
The answer to that was no, unfortunately, for a variety of 
reasons.
    I have been very pointed in my comments about this 
situation, that this mining plan, (a) should not have been 
submitted, and (b) should not have been approved. I think it 
bears a little more conversation here than what's been given at 
this point, in why we believe that. I must say, that's been 
shared by the Colorado Bureau of Mines, the Bureau of Land 
Management, former employees of MSHA, experts at West Virginia 
University. So, it's not just the union coming in here, 
suggesting this.
    This area, here, was longwalled. This area, here, is all 
mined out. This area, here, was longwalled. This is where we 
found our miners right now. So, it's just not the point of--
well, was it retreat mining, which is really what we call 
longwall mining, Mr. Chairman, in the East--this is what we 
call pillar work, in West Virginia, and pulling pillars is 
another common term here. This is the most dangerous type of 
mining there is. But that's not the real problem here. The 
problem is, is where we're doing this type of work--you take 
any expert--don't take my word for this--don't take the word of 
Colorado School of Mines, and don't take West Virginia 
University's, and don't take Mr. McAteer's word. I'm sure 
there's somebody somewhere that you could bring in here that 
everyone would have confidence in. But this mining plan should 
not have been submitted, and that's where this problem started. 
I'm not pointing fingers, but you--I've got coalminers with me 
from West Virginia, Pennsylvania, and Ohio, and you lay this 
map out to them, and say: ``We're going to go in here now, 
after mining everything to the north of where you're going to 
pillar, and everything to the south of where you're going to 
pillar, and everything leading out of this mine, and we're 
going to have 2,000 feet of mountain above you. What do you 
think?'' I submit to you, there's no one going to walk in here 
and sit where I'm sitting right now and say: ``I'm a mining 
expert, and I believe that this type of mining should have been 
done.'' I think this needs to be made perfectly clear, here.
    I think it's also important to note, here, Mr. Chairman, 
members of the committee, that there were warning signs here, 
as Mr. McAteer alluded to. Just north--this is a blown-up 
portion, here, of where we believe--a very small area, where we 
believe these six trapped miners happened to be working--just 
north of there, they sealed this area off, when the bump 
occurred in March, because they thought it was too dangerous to 
be there. Now, you look at the map, to the north, to the south, 
the very exposed area.
    Now, when you say this is mined out, understand what that 
means; there are no roof supports for 4,000 feet north of here, 
and about 5,000 feet south of here. You can look on the map and 
come to the conclusion of how far it would be this way without 
any roof supports. The only roof supports here were in that 
small area where these miners were trying to extract the last 
of the roof support.
    I submit to you that no one can come in here with a clear 
conscience and submit to you that this is a plan that should 
have, (a) been submitted, and (b) been approved. There's 
something wrong with--and I have not heard, by the way, that 
MSHA believes that this plan should have been approved. I think 
we're at the point where we've been told there is a reviewing 
of this to determine what should have happened.
    I must say to you, we talked, here, in the past, about the 
culture that exists--and I'm not blaming Mr. Stickler for this, 
I think this clearly started well before his watch--and, in 
fairness to him, he's got a tough problem to try to correct--
that there's a culture out there that a coal operator believes, 
in their mind, that they can get this plan approved; and, 
second of all, they can. This plan was in the Denver office, 
the best that we can figure out, a little over a week. Now, I 
ask, and submit, that an operator submitting this plan, and 
this thing being there for a little less--a little more than a 
week--I think there should have been a much closer look at 
this, and an understanding of what happened here. There still 
is a question, that I don't think has been answered yet, as to 
whether or not--and I'm--it may not be clear, at this point--
whether or not MSHA understood that there had been a bump and a 
damage to this mine and a sealing off of this mine before they 
approved this plan.
    Now, I may sound harsh, and I've--and please forgive me for 
that--but we do have, here, six families who still have their 
family members in this mine, and we have three brave rescuers 
who have lost their lives, and we need to come to conclusion as 
to what caused this. The other question that I think is 
probably more important than that is, are there any other plans 
that exist in the United States of America right now, where 
workers are being exposed to this type of a situation? That is 
what we can do, here today. Let's not do this again. Let's 
determine if this exists anywhere else. If it does exist 
anywhere else, let's deal with it.

                           PREPARED STATEMENT

    Now, I just want to make one more point. I know I've gone 
over my time. I believe that this Congress, last year, dealt 
with this issue of who was to be in charge of communications. 
Unless I'm reading the MINER Act wrong, unless I misunderstood 
what Congress did, they said MSHA would be the chief 
spokesperson on the scene, period, and the chief entity dealing 
with these families. Now, I'm going to tell you what, I wish 
Mr. Murray had come here today, because I think there's a lot 
of things that need to be answered, but I know one thing, if I 
had been in charge there, you wouldn't have found Mr. Murray 
out in front of the cameras, and he wouldn't have been dealing 
with those families, because I would have stopped it, and I 
think that should have happened.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Cecil E. Roberts
    Chairman Harkin, ranking member Spector, members of this 
subcommittee, as President of the largest Union that represents coal 
miners, I am honored that you have asked me to offer testimony 
regarding the August 6, 2007 disaster at Crandall Canyon Mine in 
Huntington, Utah, and how to prevent future tragedies. It is with a 
heavy heart that I appear before you to discuss--yet again, and in far 
too short a span of time--the deaths of mine workers. Our hearts and 
prayers remain with the families of the six miners who remain trapped 
in the Crandall Canyon mine.
    I also wish to express my deep appreciation to everyone who 
participated in the rescue efforts. During these most trying of times, 
many brave miners demonstrated extraordinary courage by contributing to 
the rescue efforts. Unfortunately, three more miners paid the ultimate 
price as a result of their bravery. We cannot thank them enough, and we 
will keep their families in our thoughts and prayers, too.
    Mr. Chairman, on February 28 of this year I appeared before this 
subcommittee. At that time you asked me about what impact the MINER Act 
of 2006 had already had on the lives of miners in this country. (See 
attached testimony.) My response in February was that conditions were 
not much different from last year, and that miners facing a mine fire 
or explosion or other accident would face most of the same challenges 
that miners at Sago, Aracoma and Darby faced over one year ago. I am so 
sorry to say that the Crandall Canyon disaster has proved this to be 
true.
    Just since the Sago explosion, 64 American coal miners have died on 
the job, and that number does not include the six miners still trapped 
in Utah. This Committee's inquiry into the Crandall Canyon Mine 
Disaster is terribly important to ensuring that miners' health and 
safety are protected, so that we do not have to confront more needless 
death and injury.
    My most important message to you today is that the Crandall Canyon 
disaster began on June 3, 2007, not August 6, 2007, because June 3 is 
the date when the mine operator submitted to MSHA a plan to engage in 
retreat mining at the Crandall Canyon Mine.
    Likewise, MSHA's best chance for saving the miners was on June 15, 
not August 6th or 7th. But when MSHA approved the Crandall Canyon 
mining plan on June 15, that chance was lost.
    Make no mistake about it, this disaster was not an act of God, but 
an act of man. It was preventable.
                     experiences at crandall canyon
    All the factors that lead to the recent disaster at Crandall Canyon 
may not yet be evident. However, it is apparent that the conditions 
were man-made. The disaster at Crandall Canyon was the result of 
decisions made by mine management, and plans approved by MSHA. Contrary 
to what some may say, there is little doubt that this was a man-made 
disaster.
    It was because of concerns for worker safety, the prior operator of 
Crandall Canyon decided not to engage in the type of mining that Mr. 
Murray's company was engaged in before disaster struck. MSHA should 
have been aware of those concerns, as it should have known about the 
``bump'' that occurred a few months prior, which motivated the operator 
to abandon mining a nearby section.
    At the time Mr. Murray purchased the Crandall Canyon Mine the 
previous owner had partially or completely extracted over 30 coal 
panels using the longwall mining technique. In essence the only coal 
remaining in the mine was in the barriers and pillars necessary to 
support the roof of the Mine's main entries. Because extensive longwall 
mining had been done on both sides of the main entries there can be no 
doubt that the mountain over the mine was exerting extreme pressure on 
the remaining coal, which was supporting the mine roof. Murray Energy 
was extracting that very coal, using the pillar extraction method, at 
the time of the catastrophic collapse.
    The prior operator, Andalex Resources, filed a document with the 
Utah Division of Oil, Gas and Mining in which it stated, ``Although 
maximum recovery is a design criteria, other considerations must be 
looked at in the final analysis in the extraction of coal. These 
factors consider the insurance of protection of personnel and the 
environment. Solid coal barriers will be left to protect the main 
entries from mined out panels and to guarantee stability of the main 
entries for the life of the mine.''
    Despite this assessment, Murray Energy submitted the plan to MSHA 
for approval to mine all the remaining coal reserves including the 
barrier pillars. The agency took just 7 business days to approve the 
request.
    It is also unfortunate that the management team at this operation 
has spent so much energy trying to deflect blame in this tragedy. It is 
equally unfortunate that MSHA, yet again, ignored the will of Congress 
in its reaction to this disaster.
    Section 7 of the MINER Act States that MSHA ``shall serve as the 
primary communicator with the operator, miners' families, the press and 
the public.'' Nevertheless, in Utah MSHA surrendered its role as chief 
communicator. As a result, a great deal of inaccurate and misleading 
statements and information was allowed to get out over the airwaves. 
The effect has been that millions of Americans were given incorrect and 
misleading information right from the start of this disaster, and MSHA 
allowed it to happen. Here are some examples:
    (1) From the very beginning, Murray Energy's Owner and Chief 
Operating Officer, Robert Murray, asserted that ``an act of God'' in 
the form of a natural earthquake caused this catastrophe. He suggested 
that the ``seismic activity'' at the mine is uncontrollable and 
unrelated to his company's activity. However, from tapes made of calls 
to the local Sheriff's office that same morning, it is apparent that 
from the time it occurred, University of Utah seismologists believed 
the activity was the result of coal mining.
    (2) Time and time again Mr. Murray emphatically stated that he knew 
exactly where the trapped miners were. Yet many weeks and many 
boreholes later he still has not been able to locate the miners.
    (3) Mr. Murray also strenuously objected to reports that miners 
were performing a final method of mining referred to by the media as 
``retreat mining.'' Again, he was not giving true information: from the 
approved mining plan it is evident that this mine was in the process of 
``pulling pillars.'' It is important to note this distinction: There 
has been a great deal of reporting about Crandall Canyon performing 
``retreat mining.'' The term retreat mining has different meanings to 
different people. In fact, this operation was performing a method of 
mining known in the industry as ``pillar mining'' or ``pillar 
extraction.''
    (4) Mr. Murray claimed that the mine was perfectly safe when he 
invited non-essential personnel from the media and families to tour the 
underground rescue work. However, not only did they experience a 
``bump'' while they were underground, but it was in the same vicinity 
where nine rescuers were injured and killed just days later.
    (5) Mr. Murray stated that he had not had any major accidents at 
any of his mines prior to this. The truth is that four miners have been 
killed at Mr. Murray's mines. Any time a miner is killed, that 
constitutes a major accident.
    (6) Mr. Murray continually said that the UMWA was trying to 
organize the Crandall Canyon mine, and that somehow meant that nothing 
we had to say about this incident could be trusted. While we strongly 
believe that all miners should have the benefits of a union contract--
not the least of which is the enhanced safety language written into our 
contracts--we were not engaged in an organizing campaign at that mine 
at the time of the incident there, nor had there been any organizing 
activity at that mine for years.
    (7) Mr. Murray also claimed that the UMWA was responsible for the 
stories about the company intending to reopen a part of the mine to 
production, when in fact it was his own Murray Energy Vice President 
who made those statements to reporters.
    These are but some examples of the inaccurate and misleading 
statements Mr. Murray made that met with no contradiction from MSHA--
statements that were seen by many as having an ``official'' stamp of 
approval since in most cases they were made with MSHA officials looking 
on, making no attempt to correct him.
    What is so astounding about the press conferences at Crandall 
Canyon is that the conduct of Mr. Murray, and MSHA's indulgence of him, 
were directly contrary to section 7 of the MINER Act, which Congress 
expressly added to prevent the kind of misinformation debacle that 
occurred at the Sago mine. There, the families were first told their 
loved ones were alive and were leaving the mine, whereas the reality 
was that only 1 of the 13 survived; it was hours before the 
misinformation was corrected.
    Regardless of whether Mr. Murray may have wanted to convene and 
conduct press conferences, there is no reason, requirement or benefit 
to the miners, their families or the public for MSHA to participate in 
the events he, as the private operator, staged. As the Federal agency 
affirmatively charged with communicating with the families and press, 
MSHA should have exercised its power and conducted independent press 
conferences to provide objective reports of developments at the 
disaster site. Instead MSHA representatives yielded their authority; at 
best they stood in the shadows as the coal operator spun his story, at 
worst they cowered out of view refusing to correct the half truths and 
misstatements. Further, it has been widely reported that Mr. Murray's 
attitude was abrasive and demeaning to these grieving individuals. 
MSHA's responsibility to serve as the liaison should have protected the 
families from him.
         has the miner act changed the post-accident situation?
    Miners working today do not have many of the health and safety 
benefits that Congress demanded through the MINER Act in 2006. The 
additional oxygen devices you insisted be available to underground 
miners are still on back order, effective wireless communication or 
tracking devices have not been installed, and MSHA has approved 
Emergency Response Plans (ERPs) that do not require operators to 
provide the safety and health protections Congress expected.
    For example, in most instances tracking of miners is still being 
done today the same way it was done before the Sago disaster: operators 
rely on their dispatcher, and only know in which ``zone'' a miner is 
assigned to work. As we all know from Crandall Canyon, despite 
assurances that the operator knew exactly where the trapped miners 
could be found, without reliable tracking devices, rescue efforts are 
delayed and mis-directed.
    As Crandall Canyon has revealed, miners caught underground have 
little better chance of survival than did the miners at Sago, Aracoma 
and Darby in 2006 ( or even those who perished in the disaster at 
Farmington in 1968. Although we have advanced the calender some 40 
years since the Farmington disaster, in many instances miners are 
caught in a time warp, still trying to adapt the health and safety 
technology of the 1960's into today's mining environment. For example, 
Congress directed MSHA to consider safety chambers in the 1969 Mine 
Act, but they still remain largely absent from our mines. Moreover, the 
regulation MSHA implemented requires operators to provide supplies to 
build a barrier after an accident occurs. This was required before the 
MINER Act, though since the MINER Act operators now must provide 
breathable air and other requirements to sustain life. However, having 
supplies available for construction of a safe haven after an accident 
will often be too late: the post-accident atmosphere can be toxic and 
so smoky that miners cannot even see their own hands, and they may well 
be disoriented, making it impossible for miners to then construct a 
safe haven.
    After the three high-profile disasters last year that claimed 19 
lives, Congress passed the MINER Act. That historic legislation was the 
first miners' safety and health legislation in 30 years. It placed new 
requirements on mine owners and operators to improve miners' safety. 
Some, like directional lifelines, additional self-contained self-
rescuers (SCSRs) and Emergency Response Plans (ERPs) were required 
immediately. Others, including advanced wireless communication and 
tracking devices were to be phased in over 3 years as they become 
available. We said then and still believe that the MINER Act 
represented a good ``first step,'' but so much more is required.
    As the MINER Act is being implemented, MSHA has been too tolerant 
of operator delay. While directional lifelines require no new 
technology, and could be immediately placed into use to guide miners 
out of a mine during an emergency, MSHA is allowing some operators to 
set their own time frames for meeting this requirement. As for the 
miners' need to have supplemental oxygen, though the MINER Act required 
operators to store additional supplies for miners' use if trapped, 
MSHA's regulation permits the supplies to be stored in a location that 
is too remote. Based on the existing regulation, if the Crandall Canyon 
miners survived the initial event, they would not have been able to 
access what oxygen should have been stored because it would have been 
too far away, on the other side of the collapsed area of the mine. 
Moreover, though the MINER Act required operators to submit their ERPs 
by August 2006, the Crandall Canyon ERP was only approved in June, 2007 
and the supplemental oxygen need only to have been in place 60 days 
later . . . after the miners were trapped on August 6. Why the operator 
was given 60 days to provide the oxygen is puzzling, as the oxygen 
canisters should be readily available and there was no good reason for 
the delay.
    Some of the MINER Act requirements, including advanced wireless 
communication and tracking devices were to be phased in within 3 years, 
as they become available. However, rather than demanding that operators 
quickly utilize improved equipment and technology as soon as it becomes 
available, MSHA is allowing operators to wait out the clock until the 
3-year deadline comes to a close.
    You probably recall the stories last year of the Polish miner 
pulled from wreckage after he was located through use of a tracking 
device, and that of the Canadian miners trapped underground but safely 
retrieved from the safety chamber to which they had retreated. The 
Crandall Canyon miners did not have these advantages. However, if other 
countries' miners can survive and escape these disasters, then so 
should American miners. We need change, and we need it now.
    We wish to note that some operators have gone beyond the minimum 
requirements to protect miners, but many more meet only MSHA's minimum 
standards. MSHA could and should be pushing operators to utilize the 
best available technology to better communicate with and track miners. 
We believe that was what Congress expected when it enacted the MINER 
Act last year. Crandall Canyon graphically demonstrates the 
consequences of operators' and MSHA's intervening complacency.
                  cultural problems at the top of msha
    The problems within MSHA begin at its highest levels. Indeed, there 
has developed at MSHA a culture of cooperation rather than enforcement. 
When then-Assistant Secretary of Labor for MSHA, David Lauriski, 
initiated a new ``compliance assistance'' plan, he sanctioned a 
different way of pursuing the agency's mission. That new program 
chilled enforcement efforts at the mine level and allowed operators to 
essentially negotiate workplace health and safety matters.
    The notion that MSHA should foster compliance assistance when its 
first priority is supposed to be miners' health and safety is 
preposterous. In MSHA's internal reviews of the three major disasters 
in 2006 it found plan reviews to be an area where better oversight is 
required. This lack of oversight and accountability played out to dire 
consequences at Crandall Canyon: the mine plan that was submitted 
should never have been submitted; and MSHA should not have approved it.
    The UMWA argued strenuously against MSHA's policy of compliance 
assistance ever since its inception. Our objections to the culture of 
cooperation have been dismissed by the agency's highest officials. It 
is no consolation to sit before this Committee and remind you of our 
continuing assertion that MSHA's effectiveness is compromised. The 
disasters at Sago, Aracoma, Darby--and now Crandall Canyon--represent 
the consequences of agency misdirection and inaction.
    Lessons learned from decade after decade of miners' injuries, 
illnesses and deaths teach that strict enforcement is needed to protect 
miners' health and safety. These facts were reinforced by MSHA's own 
internal reviews of the tragedies at Sago, Aracoma, and Darby. In each 
instance, the agency discovered significant problems of non-
accountability and lack of oversight.
    There is a culture at the highest levels of agency that not only 
ignores the needs of miners, but the input and expertise of longtime 
MSHA field employees and specialists. MSHA's inspectors and specialists 
have years of practical experience, they work in the same conditions as 
do miners they seek to protect, they know the laws and regulations, and 
they strive to perform their jobs. However, to successfully protect 
miners' health and safety, inspectors must receive uniform direction 
and support from their superiors. If we are to achieve the health and 
safety improvements anticipated by the Mine Act and the MINER Act, 
there must first be a cultural change within the Mine Safety and Health 
Administration. I submit to you that the reality of this situation is 
stark. If we fail to force a cultural change at MSHA it will continue 
to decline and eventually implode. We cannot allow that to happen.
    This Congress possesses the power to make vital changes to restore 
the direction of MSHA and ultimately offer miners the health and safety 
protections they deserve. Congress must require MSHA to focus first and 
foremost on the health and safety of miners. We urge this Congress to 
move swiftly to require immediate action on the mandates contained in 
the MINER Act and to be prepared to demand through appropriate 
legislative initiatives the next level of protections.
             families facing a mine disaster deserve better
    Just last year Congress moved to ensure that families facing mining 
disasters would be treated with the dignity they deserve and would be 
kept abreast of the most accurate information available. This did not 
happen for the families of the trapped miners at Crandall Canyon. Like 
the Sago families in January of 2006, they were held almost as 
captives, awaiting any bits of information (or misinformation) 
delivered by the coal operator.
    How is it possible that MSHA could get it so wrong in Utah? How 
could it ignore the mandates of Congress, which requires the agency to 
take charge of such accidents and serve as the liaison with the 
families and press? By allowing this mine owner to take center stage, 
MSHA ignored the directives of the MINER Act. In so doing, it failed 
the families at Crandall Canyon. They deserved--and still deserve--much 
better. If the leadership of MSHA is not willing or able to limit the 
activity of a single mine operator in the face of express authority to 
take such control, how can we expect them to effectively lead the 
agency that is charged with regulating an entire industry?
    On behalf of their loved ones, the families of those trapped at 
Crandall Canyon asked the UMWA to serve as their miners' 
representative. This would ensure that their designated representative 
would be able to participate in the accident investigation. However, 
MSHA has rejected their request, claiming that it would have to first 
verify that the miners themselves made the designations. Obviously, a 
trapped miner cannot provide that assurance. Yet, in denying the 
families the right to make such a designation for their trapped miners, 
MSHA has prevented those most affected by the tragedy to have a voice 
at the table during the investigation.
    MSHA's spokesperson has criticized the UMWA for attempting to serve 
as the trapped miners' designated representative, claiming that we 
``are trying to use a law enforcement investigation for its own 
purposes.'' We will confirm that the UMWA does want to participate in 
this matter. The reason is simple: we want honest and complete 
information about everything that happened--from before the latest 
mining plan got prepared, submitted and approved. We want to make sure 
no more miners' lives are lost. The UMWA is the ONLY organization in 
this country that is dedicated to advocating for miners' health and 
safety. We are proud of advancements that have been made at our urging, 
and we don't plan to stop anytime soon.
    So yes, the UMWA does have a purpose of our own here: to fight for 
and improve mine safety in America. We invite MSHA to join us in that 
endeavor, instead of casting veiled aspersions on our efforts on behalf 
of coal miners and their families.
    To the extent that MSHA feels current law does not allow it to 
recognize the UMWA as a miners' representative absent proof that the 
miners themselves have made the designations--something the trapped 
miners obviously cannot satisfy--we urge Congress to change the law. 
Family members of those trapped or killed in a mine accident should 
have the right to designate a trusted representative to participate in 
the accident investigation.
    Further, and as we have written to you, the UMWA feels that it is 
imperative that there be an independent investigation of this tragedy. 
(Letter attached.) Otherwise, MSHA and the operator will simply be 
investigating what they themselves did. That is not the best way to ask 
the hard questions or to get the full truth. Our goal must be to learn 
from what went wrong at Crandall Canyon so that no more families will 
suffer such needless loss of life.
                    control of a mine post-accident
    Since 1977 MSHA has had the right to control all activity at the 
mine when disasters occur. By issuing a Section 103(j) Order, MSHA 
could have secured this control. Yet, with but one exception at Scotia, 
MSHA chooses to utilize its authority under Section 103(k) which 
permits the operator greater latitude in directing a rescue operation.
    Under a (k) order, the operator prepares plans and submits them to 
MSHA, which must approve each component before it can then be 
implemented. That is the procedure that must have transpired when, just 
days before the rescuers were killed and injured, the operator proposed 
and MSHA approved a plan that permitted non-essential personnel (that 
is, press and family members) to travel underground with Mr. Murray to 
observe the rescue.
    We understand the curiosity of some within the media and the dire 
concern of family members, however the conditions at the mine were so 
unstable that some workers engaged in the rescue effort requested work 
away from the mining operation. There is no reasonable explanation for 
allowing non-essential personnel to be subjected to such dangerous 
conditions. They easily could have confused and hindered the rescue had 
the ``bump'' they did experience been larger in scale. While we thank 
God that there was only a minor mountain bump while these individuals 
were underground, we also recognize the situation could have become 
much more disastrous. They could have suffered the same tragic result 
that rescuers experienced when the large bump caused a cave-in, 
claiming the lives of three rescuers and injuring six others. Mr. 
Murray should not have submitted a plan to take guest travelers into 
the mine, and MSHA certainly should have known better than to permit 
it. That incident represented an extraordinary amount of poor judgment 
by both key parties to this rescue and recovery effort.
    MSHA should have brought to the site at a much earlier date experts 
who could address the unique geological conditions to help develop a 
safe procedure for rescuing the trapped miners. We recommend that there 
be designated a variety of mine emergency response experts who could be 
immediately called upon to service mining emergencies like those at 
Crandall Canyon, Sago, Aracoma, and Quecreek Even now, we call upon 
Congress to consult with a variety of geological, engineering, and 
other experts, public and private, to determine if the trapped miners 
can be safely recovered. The families deserve to have their loved ones 
back if that can be accomplished without sacrificing any more lives.
    We also seek an independent investigative body to analyze the 
rescue process to report on how that procedure could have been 
improved. At the end of the day, the most important thing we can take 
away from such a tragic experience is to learn from the mistakes so 
they will not be repeated. Only an independent investigation can hope 
to uncover the needed truths.
    Since the MINER Act was passed last year, we have heard a lot of 
operators complain about how much money they have to spend to comply 
with it. However, let me suggest that it is better to invest up front. 
Mining disasters are very costly--first and foremost in lost lives and 
the destruction of families. But accidents also consume huge amounts of 
time and energy on the part of the particular operator, not to mention 
Federal and State governments, too: first the rescue and recovery 
efforts are expensive, and then the investigation takes another 
substantial commitment of capital. Wouldn't we all be so much better 
served if these resources would be dedicated to protecting miners from 
the problems in the first place? I am certain that was your intent when 
you enacted the MINER Act. Unfortunately, this goal has not yet been 
adequately realized.
                               conclusion
    How many times must we demand that MSHA's practices change only to 
be ignored? How many more times will mine owners and MSHA thumb their 
nose at your mandates? Something must be done to change the status quo. 
Leaders must be held accountable for their actions and inactions. Just 
as mine operators cannot self-regulate, MSHA cannot function without 
being subject to the routine scrutiny of Congress and appropriate 
sanctions when necessary.
    The miners of this nation can no longer be asked to sacrifice their 
safety when their employers are focused on monetary profit with little 
regard to their employees' well being. It is time to place effective 
measures in place so that a miner may engage in his primary job of 
mining, without jeopardizing his life.
    I thank you for this opportunity to share our on-going concerns 
about the state of miners' health and safety in this country. I urge 
you to do all that you can to ensure that the investigation of the 
Crandall Canyon disaster is full and independent and that the families 
of trapped miners get all the answers they want and deserve.
                                 ______
                                 
prepared statement of cecil e. roberts, president, united mine workers 
                of america, wednesday, february 28, 2007
          improving mine safety: one year after sago and alma
    Thank you for allowing me this opportunity to appear before your 
Committee. As President of the United Mine Workers of America 
(``UMWA''), I represent the union that, for 117 years, has been an 
unwavering advocate for miners' health and safety.
    This entire Committee has played a significant role in advancing 
miners' health and safety. I would like to express my appreciation to 
the leadership of this Committee for your efforts to protect the health 
and safety of all miners. Your continued oversight is critical to 
ensuring miners will go home safely at the end of their shift.
    One year ago I testified about miners' health and safety shortly 
after the Sago and Alma disasters; even after those two dramatic 
tragedies occurred, 32 more coal miners were killed in 2006.
    Following the Sago and Alma disasters and after five more miners 
were killed on May 20, 2006 at the Darby Mine in Kentucky, Congress 
moved to enact the MINER Act. That law includes several important 
provisions aimed at helping miners after a mine emergency develops. It 
is most appropriate for you to consider whether the improvements 
Congress intended to accomplish through the MINER Act are being 
realized. The Union supports MSHA's efforts to require substantially 
more oxygen for every miner. The emergency mine evacuation rule also 
contains a number of important improvements. Having said that, my 
testimony will focus attention on areas that MSHA needs to dedicate 
additional resources to fully implement the MINER Act.
    Some of the inadequacies in implementing the MINER Act may be 
linked to insufficient resources. However, others can be tracked to 
decisions made by the Agency. In 2001, then Assistant Secretary for 
Mine Health and Safety, David Lauriski told members of the National 
Mining Association that MSHA would, ``collaborate more with mine 
operators on regulatory initiatives'' and become ``less confrontational 
with mine operators, in an effort to provide companies with better 
compliance assistance.'' At a meeting with mine operators in Hindman, 
Kentucky, he bragged about his diminutive regulatory agenda. He noted, 
``if you've seen it you noticed its quite a bit shorter than some past 
agendas.'' These policy statements were accompanied by a withdrawal of 
many proposed regulations by MSHA and a noticeable shift to compliance 
assistance. These compliance assistance programs divert precious 
resources away from enforcement. Perhaps most tragically, in many 
cases, MSHA has ignored the mandate of Congress by adopting regulations 
and policies that place miners at greater risk.
                    mine inspectors/mine inspections
    The agency is experiencing great difficulty in fulfilling the 
mandatory inspections required under the Mine Act. The Union is 
convinced that the hiring and training of more MSHA inspectors must be 
a top and continuing priority. The agency must have a full complement 
of properly trained personnel if it is to perform its primary job of 
enforcing the Mine Act. The ranks of the inspectors have been 
diminished over the years and we can expect further reductions as more 
of MSHA's long-time inspectors leave the profession as they reach 
retirement age. These needs can only be filled by hiring qualified 
individuals from all segments of the industry, including rank and file 
miners. These new inspectors must also be outfitted with state-of-the-
art equipment for personal protection and to perform their inspection 
duties. Sufficient monies must be allocated to ensure this equipment is 
readily available to these inspectors.
    As the number of inspectors have decreased, MSHA's field office 
specialists, including ventilation specialists and its electrical and 
roof control support staff, have been forced to carry out routine mine 
inspections. These specialists must be returned to their areas of 
expertise. The only way to accomplish this is to hire an adequate 
number of inspectors which will permit the specialists to focus on the 
job they are trained to do. In addition, the Agency must move 
immediately to train a sufficient number of inspectors to perform these 
technical tasks in the future.
    I would like to thank Senator Byrd and the other members of the 
Committee who worked to secure $25.6 million to hire an additional 170 
mine inspectors and your continuing efforts to secure future funding. 
Congress must ensure that funding levels at the Mine Academy in 
Beckley, WV remain sufficient to meet future training needs for mine 
inspectors. This facility is used to train mine inspectors and also 
offers comprehensive training for miners and other health and safety 
experts.
                                 seals
    In 1969 and again in 1977 Congress mandated that ``explosion proof 
seals or bulkheads'' be used to isolate abandoned or worked out areas 
of the mine from active workings. However, in the years since, MSHA has 
promulgated regulations regarding seals that are much less protective 
than what Congress mandated. The current regulation simply requires 
that seals withstand static pressure of 20 pounds per square inch (psi) 
in order to be approved for installation in the mine. The standard was 
further eroded when MSHA approved the use of Omega Block type seals, 
such as those that were used at Sago. These Omega Block seals 
catastrophically failed as a result of the explosion at Sago and 
contributed to the deaths of all 12 miners.
    The UMWA urges MSHA to promulgate a regulation that would require 
the construction of seals that meet the mandates of Congress and the 
recommendations in NIOSH's draft report on mine seals.
                              regulations
    The UMWA believes that MSHA should adopt an aggressive regulatory 
agenda to address important issues in addition to those contained in 
the MINER Act, including:
    1. Improved Atmospheric Monitoring Systems
    2. Develop a Nationwide Emergency Communication System
    3. Revise MSHA's Approval and Certification Process for Equipment 
Approval
    4. Occupational Exposure to Coal Mine Dust (lowering exposure 
limits)
    5. Collection of Civil Penalties (mandatory mine closures for non-
payment)
    6. Air Quality Chemical Substances and Respiratory Protection 
Standards (update personal exposure limits)
    7. Surface Haulage (truck, haul road, train and loadout safety)
    8. Respirable Crystalline Silica Standard (reducing quartz 
standard)
    9. Requirements for Approval of Flame Resistant Conveyor Belts
    10.Confined Spaces (tight quartered work areas)
    11.Training and Retraining of Miners (revision of Part 48)
    12.Surge and Storage Piles (dozer/feeder safety surface)
    13.Escapeways and Refuges
    14.Accident Investigation Hearing Procedures (make them public)
    15.Verification of Surface Coal Mine Dust Control Plans
    16.Continuous Monitoring of Respirable Coal Mine Dust in 
Underground Coal Mines
    17.Modify Conferencing Process (Appeals of Citations)
    18.Underground Coal Mining, Self-Contained Self-Rescuer Service 
Life Approval and Training.
                       recording fatal accidents
    Just last week MSHA issued new guidelines for determining what 
constitutes a mine related fatality. The ``Fatal Injury Guideline 
Matrix'' narrows the scope of what the Agency will define as a fatal 
accident chargeable to the mine operator. This will allow the Agency to 
report numbers that are artificially low and possibly skew the actual 
health and safety record of the mine and the industry. In addition, 
fatals not listed as mine-related will not get the same scrutiny as a 
chargeable accident. Without the formal investigation process, lessons 
learned will not be available to prevent similar events in the future.
    The Union also disagrees with the Committee established by the 
Agency to review deaths where chargeability is in question. The 
Committee is made up of upper-level MSHA employees and not open to 
other agencies, organizations or the public. This type of structure 
does not lend itself to a fair, unbiased review of the situation.
                    implementation of the miner act
    In the MINER Act, Congress mandated timelines for its 
implementation. In some cases, MSHA has failed to meet these deadlines. 
The Union urges Congress to allocate adequate funding to MSHA so it can 
fully implement this Act within the timeframes set by Congress.
    The Emergency Mine Evacuation Rule, which is separate from the 
MINER Act but ties into the self-contained self-rescuers (SCSRs) 
requirements, was finalized and made effective December 8, 2006. 
However, miners working underground today do not have all the 
protections that Rule addresses. MSHA deems the operator to be in 
compliance with the Rule if it has placed an order for additional 
SCSRs. Although the Rule requires increased availability and storage of 
SCSRs, there is a backlog of orders for these life-sustaining units. 
While the Union is extremely frustrated that more than a year after the 
Sago and Alma disasters, many miners only have one additional hour of 
oxygen, in light of this backlog, the Union supports MSHA's approach to 
make the additional oxygen units equally available to all miners. In 
reality, it will still take a number of years before miners receive the 
protections mandated by Congress. Miners cannot wait for another mine 
disaster to occur to drive new technology, therefore, the Union 
strongly urges the development and approval of the next generation 
SCSR.
    The Rule also requires ``expectations'' training on SCSRs. This 
would allow miners to experience the actual effects of donning a unit 
and attempting an escape. The practice units would allow miners to 
experience the breathing restriction and heating that SCSRs create, 
without risking their safety. While MSHA claims these practice units 
are not available for purchase, they are in fact available. The reason 
these devices are not being used by miners today is not availability, 
it is cost. Many mine operators simply do not want to spend the money 
to buy them. This is unacceptable and while we commend MSHA for 
promulgating a rule that is intended to be ``technology-driven,'' it 
must now enforce that rule.
    Moreover, the finality of this emergency response and evacuation 
rule is somewhat uncertain as the National Mining Association (NMA) 
filed a court challenge. The Union is not certain which aspects of the 
rule NMA is contesting, but it is certain that such legal maneuvers 
delays the protections Congress mandated only last year.
    Congress understood the importance of requiring that mine operators 
have comprehensive emergency response plans at all their operations. 
The MINER Act permitted operators a 60 day period to prepare these 
plans and submit them to the agency for review and approval. However, 
many of the mine emergency response plans that operators submitted were 
grossly inadequate, and not worthy of approval. We are now over 6 
months beyond the deadline established by Congress. While we commend 
MSHA for not approving these faulty plans, we do believe it must be 
more aggressive and apply more pressure on the operators to get these 
plans completed. Unless MSHA takes decisive action and resolves all the 
remaining issues, miners will not get the mine emergency response 
improvements that Congress intended.
    Further, the mine emergency response plans are to be reviewed and 
re-approved by MSHA every six months. We are already 6 months beyond 
the original plan due date. If those first plans are not yet approved 
and fully implemented, how can we expect MSHA to handle these semi-
annual reviews? Perhaps MSHA needs more manpower to handle this task, 
but whatever the answer, until every operation has an approved plan in 
place, miners are not getting the protections Congress intended.
    Very little has changed in the last year concerning the ability to 
communicate with and locate trapped miners. While we have learned more 
about this technology and understand that much is available, very few 
operators have taken advantage of it. Communication systems and 
tracking devices are areas that MSHA must pursue more aggressively. 
Current communication and tracking technology, including one-way text 
messaging and two-way wireless systems, some of which are available 
now, must be immediately installed in all mines. Any system that can 
increase the ability for miners to escape a mine emergency, even if it 
is limited in scope, must be utilized. The Federal Government, through 
NIOSH and MSHA, must fund and direct continued studies and research to 
develop the next generation of tracking and communication devices. As 
this newer technology becomes available, mine operators must be 
required to upgrade existing systems at all its operations.
    We are also troubled by MSHA's failure to undertake action to 
facilitate the creation and training of additional mine rescue teams. 
Congress in the MINER Act clearly outlined its intent regarding the 
need for additional mine rescue teams. In addition, the language 
clearly defines how this is to be applied at both large and small 
mines. While Congress allowed MSHA 18 months in which to prepare, 
finalize, and give effect to rules that increase and enhance mine 
rescue team requirements, so far MSHA has not addressed this need. The 
need is real, and it is immediate. In the not-too-distant future MSHA 
will need additional funding to certify that mine rescue teams are 
qualified, as contemplated by the MINER Act.
    Over the past 20 years MSHA and some operators have weakened the 
intent of the current regulations regarding mine rescue protections. 
The existing mine rescue team structure is spread too thin. It takes a 
lot of time and much practice for any mine rescue team to function 
well. The UMWA has training facilities and is willing to provide mine 
rescue training and first responder training if we receive the 
necessary funding. Miners cannot afford to wait any longer for the 
training of new teams to begin.
                     collection of civil penalties
    In the MINER Act, Congress charged MSHA with revising and enhancing 
its penalty structure. MSHA proposed a revised schedule, but it is not 
yet final, so it is difficult for us to comment about whether it will 
induce any better compliance by operators.
    However, even without a new fine structure, the Agency needs to do 
a better job of tracking and collecting the fines it imposes, and it 
should escalate the pressure when an operator refuses to pay a final 
penalty. Last year MSHA blamed computer problems on its inability to 
track fines. We understand that it still faces some technological 
challenges. If that is the case, then MSHA needs to fix the problem. 
When fines go unpaid it not only gives an unfair competitive advantage 
to the delinquent operator, but that operator's disregard for the mine 
health and safety laws and regulations imposes excessive risk on its 
employees.
    To the extent that MSHA takes the position that it cannot close an 
operation for having substantial unpaid fines, we submit that Congress 
should grant the Agency such authority. MSHA's top personnel claim that 
if it had that authority the Agency would exercise it to close 
operators who refuse to pay their fines. We would welcome that.
                              msha hotline
    The Union has complained for some time that the current hotline 
system miners use to report hazardous conditions is ineffective. 
Recently, a member of the UMWA called the 800 number listed on MSHA's 
website to report a problem at the mine where he worked and was 
frustrated by problems he encountered. The individual who answered the 
call, a contract employee, did not have any knowledge of mining, making 
it extremely difficult for the miner to convey the message. Further, 
the individual at the call center was not remotely familiar with MSHA's 
District structure and was therefore uncertain which office should 
receive the complaint.
    The Union has stressed on many occasions that the MSHA hotline 
should be staffed 24 hours a day, 7 days a week by MSHA personnel with 
an understanding of the mining industry and the agency. The current 
practice of contracting this work out to call centers lessens miners' 
health and safety.
                                belt-air
    In keeping with the mandates of Congress in the 1969 Coal Act, and 
the 1977 Mine Act, which strictly prohibits the use of belt-air to 
ventilate working places, the Union has historically been opposed to 
the use of belt-air to ventilate the working places. The 2006 Alma 
disaster is a reminder that there is no safe way to ventilate working 
sections using belt-air. This mine fire was intensified by air from the 
belt entry, and the contaminated air was dumped onto miners working 
inby. In addition, conveyor belts used in the mining industry must be 
made of non-flammable material.
    In the MINER Act, Congress directed that there be created a 
Technical Study Panel to provide independent scientific and engineering 
review and recommendations with respect to belt air and belt materials; 
the Study Panel is then to issue a report to the Secretaries of Labor 
and Health and Human Services, as well as the Senate Committee on 
Health, Education, Labor, and Pensions, and the House Committee on 
Education and Labor. While this Technical Study Panel has been 
constituted and had its first meetings last month, we harbor 
reservations about its administration. Congress was silent as to its 
administration, but MSHA staff is providing the support personnel. If 
its first meetings are any indication, MSHA seems more invested in 
defending the belt air decisions it has already made, than simply 
servicing the Study Panel. Congress assigned this Study Panel to offer 
an ``independent'' review and recommendations, and we hope it can 
overcome MSHA's bias in favor of belt air.
   funding for additional programs and health and safety protections
    The Union would urge Congress to adequately fund other agencies and 
programs that advance the Health and Safety of the nation's miners. 
These include:
  --Pittsburgh Research Center,
  --Lake Lynn Facility,
  --Appalachian Laboratory for Occupational Health and Safety in 
        Morgantown, WV,
  --Approval and Certification Center,
  --Personal Dust Monitors (PDM), and
  --Colorado School of Mines.
                               conclusion
    One year ago many of you were present when I testified before the 
Senate Committee on Health, Education, Labor and Pensions to discuss 
and review the performance of MSHA and the overall state of mine health 
and safety. That testimony followed the first two disasters of 2006 at 
the Sago and Alma Mines. At that time, I described many of the 
shortcomings in miners' health and safety.
    I am sorry to report that MSHA's efforts over the past year would 
do little to change matters today if a mine were to experience an 
explosion like the one at Sago, or a mine fire like the one at Alma; 
indeed the underground miners would likely fair no better than those 
who perished over one year ago. Thanks to the MINER Act, I can presume 
that any incident would be reported within the initial 15 minutes. 
However, there is no reason to expect that a sufficient number of mine 
rescue teams would respond quickly. This is because the last year has 
seen virtually no progress in either expanding the number or improving 
the proximity of qualified mine rescue teams.
    MSHA still allows mine operators to ventilate working sections with 
belt-air, and non-flammable belts are still not required. Today there 
are no requirements that operators provide systems that would enable 
miners to communicate with the surface or vice versa. There is nothing 
in place that requires an operator to be able to locate trapped miners, 
and very few could do so. Safety chambers are not required, nor are 
safe havens prescribed. Most operators do not have a complete approved 
emergency response plan as required by the MINER Act. Many miners 
caught in a disaster would likely have one additional hour of oxygen as 
opposed to early 2006, but please remember that it took more than 40 
hours for the first mine rescue teams to reach the miners at Sago.
    We are most appreciative that Congress has worked towards 
increasing MSHA's budget so more mine inspectors can inspect mines to 
ensure compliance with the Mine Act. We implore MSHA to demonstrate a 
similar commitment to enforcing the Mine Act and to improving miners' 
health and safety so that our industry will never again experience 
another mine disaster like Sago or Alma. Technology is progressing on a 
daily basis and the UMWA urges MSHA to require mine operators to employ 
improvements as they become available.
                                 ______
                                 
             letter from the united mine workers of america
                                      Fairfax, VA, August 21, 2007.
Hon. Harry Reid, Senate Majority Leader,
Hon. Nancy Pelosi, Speaker of the U. S. House of Representatives,
United States Congress, Washington, DC.
    Dear Senator Reid and Representative Pelosi: I write to urge 
Congress to appoint an independent bi-partisan committee of coal mine 
safety experts to investigate the Crandall Canyon disaster. The public 
needs a reliable way to obtain meaningful information and insights 
about this horrific tragedy: both the initial trapping of six miners 
and the subsequent rescue efforts, which resulted in three deaths last 
week. I do not believe the American public and our nations' coal miners 
will be well-served by another instance of MSHA investigating itself in 
this disaster.
    Just last year this Nation was witness to three dramatic multi-
fatal accidents beginning with the Sago mine explosion on January 2, 
2006, followed less than three weeks later by a mine fire at Aracoma, 
and then an explosion at the Darby mine. Together these three disasters 
took 19 lives, and devastated entire communities. Since the beginning 
of last year, 64 coal miners have been killed on the job. That's an 
average of three each month.
    In a demonstration of bi-partisan support for the nation's coal 
miners, Congress enacted the MINER Act which President Bush signed into 
law on June 15, 2006. The MINER Act served as an important first step 
for improving miners' health and safety. However, it was the first 
piece of miners' safety and health legislation in nearly 30 years, and 
did not address all the shortcomings in the laws that are needed to 
protect miners. One of the many things that bill did not accomplish was 
to change the way mining accidents are investigated.
    The problem with the status quo is that the Mine Safety and Health 
Administration (``MSHA'') investigates mine accidents. However, time 
and again MSHA's performance has been found to have had a role in 
sanctioning the very conduct that developed into subsequent disasters. 
For example, MSHA must approve mining plans, ventilation plans and roof 
control plans, not to mention to ensure through enforcement procedures 
that each operator adheres to all the plans once the respective MSHA 
District approves them. Yet, after the disasters of 2006, MSHA's 
Internal Review determined that:

    ``[At] Aracoma . . . the majority of contributory violations were 
obvious and should have been identified by MSHA inspectors prior to the 
fatal fire that killed two miners. The team determined that inspection 
personnel failed to exercise their authority in a manner that 
demonstrated an appreciation for the importance of strict enforcement 
of the Mine Act and failed to conduct inspections in a manner that 
reliably detected violations.
    ``Inspection personnel also demonstrated a lack of technical know-
how necessary to effectively evaluate and address complex safety and 
health conditions, and failed to comply with MSHA policies and 
procedures that, if followed, would have significantly improved the 
scope, quality and effectiveness of mine inspections. The lack of 
effective management oversight and controls also contributed to 
enforcement deficiencies at Aracoma. MSHA has referred its findings at 
Aracoma to the Labor Department's Office of Inspector General for 
further investigation of employee misconduct.
    ``The Sago internal review found that . . . failure by personnel to 
follow inspection procedures, coupled with inadequate managerial 
oversight, resulted in a number of enforcement deficiencies. Among the 
areas cited as needing improvement was the district's mine emergency 
response capabilities.
    ``The Darby internal review found that district personnel did not 
effectively utilize the mine operator's history of repeat violations to 
elevate the level of enforcement. Failure to follow inspection 
procedures, along with inadequate managerial oversight, resulted in 
many of the deficiencies identified in the report.''
    From MSHA press statement 07-975-NAT, dated June 28, 2007.

    Three different MSHA District offices, but all three substantially 
failed in their primary responsibility of protecting the miners. What 
makes this MSHA statement especially frustrating is that the Agency 
came to the same kind of conclusions following an explosion that took 
13 miners' lives at the Jim Walters Mine #5 in Alabama back in 2001. 
There is an integral problem at the very heart of the Agency where 
there seems to have developed a culture of accepting the status quo and 
not rocking the boat.
    MSHA has had many opportunities to correct what is wrong; yet it 
still has not arrested its well-documented problems. We need an outside 
group of experts to analyze what happened at the Crandall Canyon mine 
in Utah, not only on August 6, 2007 and during the subsequent rescue 
efforts, but also the events that set the stage for the August 6 
disaster. We also would welcome the recommendations such independent 
experts could make about how the Agency should change to better keep 
all miners safer.
    The status quo simply isn't working to protect miners. Miners at 
Crandall Canyon and their families deserve better. In the same bi-
partisan fashion that Congress demonstrated on the heels of the three 
coal mining disasters last year, we urge you to appoint an independent 
committee of experts to investigate what went wrong for the Crandall 
Canyon workers.
            Respectfully,
                                                  Cecil E. Roberts.

    Senator Harkin. Thank you very much, Mr. Roberts.
    Now we'll turn to Mr. Watzman, vice president for safety, 
health and human resources, National Mining Association.
STATEMENT OF BRUCE WATZMAN, VICE PRESIDENT, SAFETY, 
            HEALTH AND HUMAN RESOURCES, NATIONAL MINING 
            ASSOCIATION, WASHINGTON, DC
    Mr. Watzman. Thank you, Mr. Chairman, members of the 
subcommittee. NMA appreciates the opportunity to appear before 
you to discuss efforts to improve mine safety, progress made 
since passage of the MINER Act of 2006, and the challenges that 
remain to realize our goal to return every miner home safely 
after every shift.
    The Crandall Canyon Mine accident has affected everyone in 
the mining community, and we mourn our fallen colleagues. The 
mining industry is determined to return to the path that it was 
on for much of the past three decades, when it achieved steady 
reductions in fatalities and serious injuries.
    As you know, following last year's tragic events in West 
Virginia and Kentucky, the coal industry worked with Congress 
and others to pass the most sweeping mine reform legislation in 
more than three decades. The requirements, as implemented 
through emergency response plans, recognize that good safety 
practices continually evolve, based on experience and 
technologic development, and that every underground coal mine 
presents a unique environment, and what may work in one mine 
may well not work in another.
    Since passage of the MINER Act, the industry has moved 
aggressively to identify technology that satisfies the law's 
requirements as quickly as possible. Our written submittal 
details the progress that has been made. While more work needs 
to be done, the industry has made significant investments and 
progress. I would ask that a chart that we prepared on Mine 
Safety Improvement, Progress Facts Since February 2006, be 
included in the hearing record.
    The recent accident at Crandall Canyon spotlighted our 
continuing challenge to develop reliable two-way devices that 
could help locate and communicate with miners trapped 
underground. At a time when most Americans are well connected 
with each other through cell phones, many wonder why miners 
cannot communicate from underground to the surface. 
Intuitively, we understand why. Sending a signal through rock 
deep underground is far more challenging than signaling through 
the air.
    Apart from the most fundamental technologic barriers to in-
mine and through-the-earth signal propagation, a post-disaster 
mine environment presents survivability considerations. 
Explosions, fire, and roof falls produce destructive forces 
that can damage or destroy system components and render the 
systems inoperable. Despite these daunting challenges, the 
industry is not sitting idly by until a reliable system reaches 
acceptable functionality under all circumstances.
    You'll recall that last year you were shown a device, a $20 
tracking device, we were told, that would enable every miner to 
receive a one-way message from the surface in the event of an 
emergency. Experts, both inside and outside our industry, 
cautioned that this device had limitations. That messaging 
device was in use in Utah. Fortunately, the system survived the 
bump event and a miner received the message to evacuate the 
mine. At this point, no one knows if others received the 
message or if the system's capabilities were destroyed in the 
initial event.
    Today, I've brought, to show you, two devices that are in 
use in mines today. The first is a tracking system that was 
developed by Alliance Coal, a member of the National Mining 
Association. This is one of several systems that uses radio 
frequency identification tags, RFID tags, that are worn on the 
miner's hat, and omnidirectional readers to track miners' 
movement throughout the mine. This is an improvement over 
earlier systems, and is considered state-of-the-art. The system 
currently requires a connective, through-the-mine fiberoptic 
capable, that is vulnerable to damage and could potentially 
render the system useless.
    Another is a leaky feeder communication system, a cable 
that is run through the mine and allows the signal to leak from 
the cable so that miners can connect to it via a handheld 
radio. This, too, unfortunately, is susceptible to damage by 
destructive forces that will affect its functionality.
    We view the development and introduction of new technology 
as a three-prong approach. First, the installation of redundant 
communication with manual tracking systems, as was required by 
the MINER Act last year. Second, the installation by 2009 of 
more elaborate systems with electronic tracking. Finally, the 
development of voice communications systems with parasitic 
capabilities. The systems I've shown you today move us to the 
second phase. Our efforts under the NIOSH-sponsored Mine 
Emergency Communication Partnership, that we discussed at the 
earlier--the hearing held earlier this year, is providing the 
forum and the resources to reach these goals, and we thank you 
for your continued support of the efforts.

                           PREPARED STATEMENT

    To conclude, the mining industry is eager to learn from our 
experience with implementing the MINER Act and with all who 
share our determination to safeguard our miners. Fatalities are 
tragic, but failing to learn from them, and failing to act on 
what we learn, would be inexcusable. We must not let that 
happen.
    Thank you, Mr. Chairman. I'd be happy to answer any 
questions you might have.
    [The statement follows:]
                  Prepared Statement of Bruce Watzman
    Good morning. My name is Bruce Watzman, and I am the vice president 
of safety, health and human resources for the National Mining 
Association (NMA).
    NMA appreciates the opportunity to appear before you to discuss 
efforts to improve mine safety, progress made since passage of the Mine 
Improvement and New Emergency Response (MINER) Act of 2006 and the 
challenges that remain to realize our goal to return every miner home 
safely after every shift.
    The Crandall Canyon mine accident has affected our nation's entire 
mining community and we mourn our fallen heroes. The mining industry is 
determined to return to the path it was on for much of the past three 
decades, when it achieved steady reductions in fatalities and serious 
injuries. That is why we supported strong new mine safety legislation 
last year, established an independent commission to provide 
recommendations for new safety risk-based systems, and continue to 
partner with the National Institute for Occupational Safety and Health 
to develop and test new safety and communication technology.
                               miner act
    Following last year's tragic events in West Virginia and Kentucky, 
the coal industry worked with Congress to pass the most sweeping mine 
safety reforms in more than three decades. The requirements, as 
implemented through Emergency Response Plans, recognize the need for a 
forward-looking risk assessment, that good safety practices continually 
evolve based upon experience and technological development, and that 
every underground coal mine presents a unique environment and what may 
work in one may not be effective or desirable in another.
    Since passage of the MINER Act the industry has moved aggressively 
to identify technology that satisfies the law's requirements as quickly 
as possible. While more work needs to be done, the industry has made 
significant investments and progress. Briefly:
  --100,000 additional self-contained self-rescuers (SCSRs) have been 
        placed into service, with an equal number on back order.
  --All underground coal mines have submitted emergency response plans 
        including plans to supply breathable air and other supplies to 
        sustain miners trapped underground. Units to meet these 
        requirements are being ordered and installed without the normal 
        testing that a device such as these would normally receive.
  --55,000 underground coal miners have received new training and will 
        continue to receive quarterly training.
  --Underground coal mines have implemented procedures to track miners 
        underground.
  --Existing communications systems have been hardened and redundant 
        systems installed.
  --More than thirty-five new mine rescue teams have or will be added 
        around the country.
    This progress is only the beginning of our continued commitment for 
reaching our desired goal to protect our Nation's miners.
             mine safety technology and training commission
    In January 2006, NMA established the Mine Safety Technology and 
Training Commission, an independent body, to immediately undertake a 
study of new technologies, procedures and training techniques that can 
further enhance safety in the nation's underground coal mines. The 
commission drew upon the knowledge and experience of mine safety and 
health professionals from academia, government, industry and the United 
Mine Workers of America to develop a pro-active blueprint for achieving 
zero fatalities and zero serious injuries in U.S. underground coal 
mines. The product of the commission's deliberations is a peer-reviewed 
report released in December 2006.
    The commission produced many recommendations that are both near-
term and far-reaching in scope. Many of the recommendations endorse 
actions taken by Congress in passing the MINER Act. The commission's 
recommendations include the areas of communications technology, 
emergency preparedness, response and rescue procedures, training, and 
escape and protection strategies. The central theme of the commission's 
recommendations is a call for a new paradigm for ensuring mine safety--
one that focuses on a systematic and comprehensive risk assessment-
based approach toward prevention that serves as the foundation from 
which all safety efforts will flow. This new paradigm will require us 
to look at mining differently and to train miners differently.
    The industry is currently implementing a number of the commission's 
near-term recommendations and is developing a blueprint for action on 
the more far-reaching items. For example, we are discussing with NIOSH 
the development of risk-based management tools and templates to assist 
the industry in its implementation of the central recommendation of the 
commission. The use of risk-analysis risk-management is familiar to 
many companies. Our goal is to create operational tools that will help 
every company identify and address significant hazards before they 
create situations that threaten life or property.
    We share the commission's view that ``a comprehensive, risk 
assessment-based approach toward prevention should significantly 
increase the odds of survival for miners in emergency situations, [and] 
also provide a guideline for pursuing zero accidents from all 
sources.''
                mine emergency communication partnership
    The recent accident at Crandall Canyon spotlighted our continuing 
challenge to develop reliable two-way communication devices that could 
help locate and communicate with miners trapped underground. At a time 
when most Americans are well-connected with each other through cell 
phones, many wonder why miners cannot communicate from underground to 
the surface. Intuitively, we understand why: Sending a signal through 
rock deep underground is far more challenging than signaling through 
the air.
    Apart from the most fundamental technical barriers to in-mine or 
through-the-earth signal propagation, a post-disaster mine environment 
presents survivability considerations. Explosions, fire and roof falls 
produce destructive forces that can damage or destroy system components 
and render the system inoperable. At present, there is simply no 
available single system that can withstand all potential scenarios 
while maintaining mine-wide communications.
    Despite these daunting technological challenges, the industry is 
not sitting idly by until a reliable system reaches acceptable 
functionality under all circumstances. You may recall that last year 
this subcommittee was shown a piece of equipment that was touted as a 
``$20-device'' that each miner could carry and would enable him or her 
to receive a one-way message from the surface in the event of an 
emergency. Yet experts both inside and outside our industry cautioned 
that this device had limitations. That messaging device was in use in 
Utah. Fortunately, where the system survived the bump event a miner 
received the message to evacuate the mine. At this point no one knows 
if the others received the message, or if the system's capabilities 
were destroyed in the initial event.
    Today we have brought a recently approved tracking system that was 
developed by Alliance Coal, a member of NMA. This is one of several 
systems that use radio frequency identification (RFID) tags and bi-
directional readers to track miner's movement throughout the mine, pre-
event. This is an improvement over earlier systems and is considered 
state-of-the-art. Yet, it, too, is susceptible to damage by destructive 
forces that will affect its functionality. The system currently 
requires a connective through-the-mine fiber optic cable that is 
vulnerable to damage and could potentially render the system useless.
    Our commitment to improvement while searching for the best 
technology is evidenced by the mining industry's efforts in the Mine 
Emergency Communication Partnership. Following the Sago accident, the 
NMA joined with the National Institute for Occupational Safety and 
Health, other State and Federal agencies, equipment manufacturers, 
system integrators in a collaborative undertaking to facilitate the 
development, evaluation, and deployment of communication and tracking 
system technology. A number of different systems have been tested in 
our members' mines. Some have not proven to be mine-worthy, meaning 
they could not hold up to the rigors of use in an underground mine 
environment. Others worked in certain situations, but failed in 
different conditions. We have learned that mining conditions, for 
example, the depth of cover, mine entry height or the types of rocks 
above the coal seam, affect dependability and operability.
    In sum, there is no silver bullet technology yet available. True 
``through-the-earth'' wireless technology does not yet exist. Until we 
overcome the technical barriers that preclude transmission of signals 
through the earth, the systems will require some form of underground 
backbone and infrastructure, which are susceptible to damage. While the 
perfect solution may still be beyond reach, we will not be deterred in 
the quest to find and deploy it.
    To conclude, the mining industry is eager to learn from our 
experience with implementing the MINER Act and with all who share our 
determination to safeguard our miners. Fatalities are tragic. But 
failing to learn from them--and failing to act on what we learn--would 
be inexcusable. We must not let that happen.
    Thank you. I'm happy to answer any questions you may have.

    Senator Harkin. Thank you, Mr. Watzman. Thank all of you 
for being here. We'll try to move as rapidly as possible here.
    Mr. Roberts, in your testimony, you pointed out--and I'll 
ask Mr. McAteer to comment on this also--you pointed out that 
the previous owner, Andalex, on this mine, had basically 
decided not to engage in the type of mining that Mr. Murray's 
company was engaged in, because of concerns for worker safety. 
You quote in your testimony that Andalex Resources filed a 
document with the Utah Division of Oil, Gas, and Mining, 
which--it stated, and I quote, ``Although maximum recovery is a 
design criteria, other considerations must be looked at, in the 
final analysis, in the extraction of coal. These factors 
consider the insurance of protection of personnel and the 
environment. Solid coal barriers will be left to protect the 
main entries from mined-out panels, and to guarantee stability 
of the main entries for the life of the mine,'' end quote.
    Then you go on to say, ``Despite this assessment, Murray 
Energy submitted the plan to MSHA for approval to mine all of 
the remaining coal reserves.'' Now, would you also enlighten 
for us--we keep hearing that this was retreat mining, but you 
point out really what they were mining were the pillars.
    Mr. Roberts. Yes----
    Senator Harkin. Can you elaborate on that? Tell us about 
that.
    Mr. Roberts. Yes, sir. Thank you very much, Mr. Chairman.
    The key here is, as you drive the mine from the very 
entrance to its furthest reaches of the mine, and you branch 
off, you leave what would look like city blocks as you go, only 
on a very much smaller scale. Those city blocks are pillars 
that hold the roof up. You also put roof bolts into the city 
room bolts into the roof, depending on what type strategy you 
have, to help support the roof and keep the miners from being 
injured by roof falls. Well, as you look at the map, you can 
tell they've longwalled out most of the coal that's in this 
mine. Then they started the process of removing the pillars. 
Someone described this--I think, our safety director, Dennis 
O'Dell did--as like going in your basement and deciding to 
remove the supports that's holding your house up. Well, you 
might get away with that for a while, but then the house will 
fall. Now, in pillar work, that's what is supposed to happen; 
the roof is supposed to collapse as you pull out the pillars. 
The problem here--that I believe is obvious--that you cannot 
have this kind of exposure for over 4,000 feet to the north and 
5,000 feet to the south and--that's just not in the area where 
they were working--as you go out of the mine and look to the 
north and the south, they've removed all of that coal, too. So, 
you only had a very limited amount of coal pillars remaining. 
So, what they were doing--and the mountain is sitting on top of 
all of this exposed area, some 2,000 feet, right? So, now, they 
are pulling out these pillars to basically remove the coal and 
sell it----
    Senator Harkin. Yeah.
    Mr. Roberts [continuing]. Which is what coal companies 
are--do. That's the business they're in. But you've got an 
extremely dangerous type of mining, to start with, and you're 
removing their supports that's holding the mountain up.
    Senator Harkin. Now, taking off on that, Mr. McAteer, you 
said that the plans should not have been submitted, nor 
approved. Now, this type of mining is done in other parts of 
the United States, right? Now, I'm told, however, that a lot of 
this is done in the East--West Virginia, Pennsylvania, places 
like that--where you don't have a couple of thousand--3,000 
feet of mountain above it; they're more shallow than that, so 
they don't have that stress. Could you enlighten us on that 
aspect of it?
    Mr. McAteer. Mr. Chairman, it is correct that this type of 
mining is done in other parts of the country. What Mr. Roberts 
suggested, and what is factual, is that retreat mining, 
generally speaking, is the most dangerous type of mining, 
because, in effect, you're taking the pillars and you're 
removing them.
    Senator Harkin. Right.
    Mr. McAteer. So, you take the most dangerous type of 
mining, and then you put it in an area that is prone to these 
bumps and outbursts, and those--that prone-ness comes from the 
fact that you've got so much cover above it, you've got such a 
heavy weight of rock--sandstone rock--and you've got all of 
this pushing down, that causes these two factors to come 
together. So, now you've created an ultradangerous 
circumstance, when you're trying to use this retreat, or 
pulling pillars, in this location.
    It is that reason that I suggested that it should not have 
been submitted and should not have been approved.
    Senator Harkin. You also say that these pressure buildups 
were not monitored.
    Mr. McAteer. That's correct. I think that's the most 
profound inadequacy in our system, is that we know that there 
are pressure buildups that occur. We can see them. They can 
hear them. Well, seismologists have gone a step further and 
essentially developed schemes to monitor, through nodes or 
through a device, these buildups. Other countries have systems 
in place, and we have used systems in place, to, one, suggest 
that we don't continue mining in an area where pressure is 
built up, or, two, that we use localized explosions to decrease 
the amount of pressure that is being built up in that area. 
Those devices have been used both in this country as well as 
overseas.
    Senator Harkin. So, my staff just handed me that 
instrument, I guess.
    Mr. McAteer. They did, sir.
    Senator Harkin. They put this up on the surface.
    Mr. McAteer. That can be used on the surface or 
underground.
    Senator Harkin. It can tell you what the stresses are.
    Mr. McAteer. In effect, what it's doing is, it's listening 
to the earth make sounds. Miners, since ancient times, have 
listened to the rock above them, and been able to, kind of, 
read what is happening. This does this mechanically, and it 
allows you to gauge and grade the buildups, so that in those 
locations where you have a buildup of pressure, you can diffuse 
that pressure through a couple of steps.
    Senator Harkin. Were these being used at the Crandall Mine?
    Mr. McAteer. Not to my knowledge.
    Mr. Roberts. I'm unaware.
    Senator Harkin. No one knows.
    Mr. McAteer. I'm pretty certain they were not.
    Senator Harkin. Pretty sure they were not. But they could 
have been used.
    Mr. McAteer. They could have been used. It is my contention 
that, when you put this kind of mining together with this kind 
of geologic conditions, that you, in effect, have to use a 
higher standard of protection, and that you, in effect, should 
be using the seismic detection to determine the level of 
buildup of pressures and to determine what steps to take to 
diffuse them. It is done consistently overseas, in South Africa 
and in Poland.
    Senator Harkin. I see Mr. Stickler is still here. Mr. 
Stickler, I don't know if you heard my question about whether 
these were used. Do you know whether or not these type of 
devices were used at the Crandall Mine?
    Mr. Stickler. They were not.
    Senator Harkin. They were not. But you say they're being 
used in other parts of the world.
    Mr. McAteer. They have been used in other parts of the 
world for a number of years. They have been used in this 
country. In the Consolidation Coal Company Mine in Virginia, 
they were used several years ago, because it experiences bumps 
because of its depth. MSHA has tested this device. NIOSH has 
tested this device in a couple of areas. It is not required by 
the statute, and it, in fact, can slow the mining process down.
    Senator Harkin. Last, let me just ask you, as I've taken 
too much time; we've got to recognize others, but could, or 
should, MSHA, prior to approving this plan, have demanded that 
these type of devices be used to measure the stresses?
    Mr. McAteer. I think they should have. I think they should 
have in those mines where you have buildups of pressure, you 
ought to have a way to detect that pressure so you can defeat 
it.
    Senator Harkin. Thank you, Mr. McAteer. Thank you all very 
much.
    Senator Specter.
    Senator Specter. There's not a great deal of time, so I'd 
like to ask the three of you a question for a yes-or-no answer. 
Based on the evidence at hand, that one company sells the mine 
because it's not safe to operate, and you have this bump, which 
occurred a few months earlier, was it a safe plan to authorize 
the mining 900 feet away?
    Mr. McAteer, yes or no?
    Mr. McAteer. No, it was not.
    Senator Specter. Mr. Roberts?
    Mr. Roberts. No.
    Senator Specter. Mr. Watzman?
    Mr. Watzman. Senator, I don't think I'm equipped to answer 
that question, at this point, not having all of the facts.
    Senator Specter. Second question. Where you have the bumps, 
which we have heard--we know of the one in March, and then we 
have the incident on August 6, then we have a bump on August 6, 
burying the equipment used to clear the entry, rescue teams 
being pulled out of the mine; then, on August 11, a second 
bump; rescuers were removed from the mine; August 15, three 
significant bumps; and then, on August 16, the bump which 
causes the death of three men--now, in the light of the 
history, especially the bumps on August 6, 11, and 15, here 
again, yes or no, was this a safe rescue plan?
    Mr. McAteer, was this an appropriate rescue plan?
    Mr. McAteer. Senator, as much as I'd like to answer yes or 
no, I have difficulty with it. When you're trying to rescue the 
miners, you weigh it as best you can. I think they weighed it 
as best they can and went forward. Would I do differently? I 
don't know.
    Senator Specter. Mr. Roberts?
    Mr. Roberts. Let me say this. It may surprise you, Senator. 
Given what they had to deal with, I don't think they could have 
done this any safer than they were doing it. In retrospect, you 
can look back and say, ``Well, we shouldn't try to save these 
people, because it was too risky,'' but I've been in this 
position. I've been in the position on both sides of this, not 
to make this too long of an answer, but I was just reminded, 
before I came in here, from one of the family members, from Jim 
Walter Resources, who said, ``I remember when you told us you 
weren't going to let anybody else go in that mine,'' and said, 
``I''--said, ``You made the right decision then, but I didn't 
agree with it.'' So, these kinds of decisions are the hardest 
decisions to try to be as fair about this as possible, as a 
human being can make.
    Senator Specter. Mr. Watzman, what's your answer to that 
question?
    Mr. Watzman. Senator, I'm not going to second-guess the 
decision. The decision was made, based upon the facts that were 
available to the experts onsite. Human nature is that we try to 
rescue and reach our fallen brothers. That is what they 
attempted to do. In retrospect, it's easy for us to second-
guess. But, based on the facts, they believed that they had--
were undertaking safe activities.
    Senator Specter. Let me turn now to the issue of the fines. 
In your prepared testimony, Mr. Roberts, you say that, when 
Assistant Secretary of Labor of MSHA, David Lauriski, initiated 
a new, quote, ``compliance assistance plan,'' he sanctioned a 
different way of pursuing the agency's mission. The new program 
``chilled enforcement efforts at the mine level, and allowed 
operators to essentially negotiate workplace health and safety 
matters.'' That's your testimony. What would you recommend as 
the appropriate course of conduct for MSHA with respect to 
penalties? Should the penalties go so far as to entail jail 
sentences?
    Mr. Roberts. Let me speak to that, if I might. I think it 
speaks to what I said previously, the culture that exists, and 
was there prior, actually, to Mr. Stickler arriving on the 
scene, and it's going to be a difficult proposition to change. 
I think we've seen that throughout these disasters.
    What needs to happen is, the mission of MSHA clearly has to 
be the enforcement of the law. They are the police officers who 
act in behalf of the coalminers in the United States of 
America. Coal companies have a lot of people who tell 'em how 
to mine coal and how to get it out the most productive way. 
What coalminers in this country need are people going in these 
mines--and let me say this about that. These fine men and women 
who work for MSHA and go in these coal mines right beside these 
coalminers every day, they're to be commended. But I must 
submit to you, there's some confusion out there as to what 
their mission is with respect to the top levels of MSHA. I 
submit to you that there ought to be severe penalties, whatever 
those might be--and I have suggested, previously here, that the 
closing down and shutting down of these coal mines when they're 
dangerous is the most effective means to protect the 
coalminers.
    Senator Specter. Thank you. Thank you very much, gentlemen. 
I'm going to have to excuse myself, at this point, but I want 
you to know that, as far as I'm concerned, we're going to 
pursue this, and we're going to have Mr. Murray here, and we're 
going to get to the bottom of it.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Specter.
    Chairman Byrd.
    Senator Byrd. Mr. McAteer--having been in Mr. Stickler's 
shoes, Mr. McAteer, can you comment on the Bronzite Mine, in 
Mingo County, West Virginia, and why MSHA would not have 
conducted the regular quarterly inspection this year?
    Mr. McAteer. Senator Byrd, I learned of that matter this 
morning. I am at a loss to understand why the regular 
inspections did not occur.
    Senator Byrd. Can you respond to Mr. Stickler's comments 
and explain the difference between the quarterly inspection, a 
spot inspection, and a so-called enhanced spot inspection?
    Mr. McAteer. Senator Byrd, the quarterly inspections are 
the mandated inspections under the statute which require that 
the mine be inspected in its entirety. Spot inspections were to 
be conducted, or are to be conducted, in an effort to pinpoint 
and to determine if there are particular types of problems, and 
they can occur, if it's, for example, an electrical problem or 
a roof-control problem, and they really go to the issue of 
trying to address a particular problem that might come to the 
information of the inspector, by the company, by the miner, by 
the some individual, telling the inspector. So, they're to look 
at individualized things.
    Enhanced spot inspections are new to me, in the sense that 
they're not part of the statutory provision. They were, as I 
understand it, from Mr. Stickler's comments, a spot inspection 
that's writ large, that is to say, it might go beyond looking 
at one particular condition.
    But the statute mandates, from the 1969 act that you worked 
so hard to pass, that the mines be inspected four times a year 
in their entirety. I am at a loss to understand why this mine 
had not been inspected.
    Senator Byrd. Mr. Chairman, thank you.
    Senator Hatch. Well, thank you, Mr. Chairman. This is so 
nice of you to allow us to--let me just say that I've 
appreciated the testimony of all three of you; Mr. Roberts, 
particularly your testimony.
    All I can say is that it--I may be wrong on this, but my 
understanding is that almost half of the bumps or bounces that 
have occurred throughout the country have occurred in Utah. So, 
it's something we're not unfamiliar with, something that has 
happened, and yet, we've had some of the very, very effective, 
both union and nonunion mines in Utah. You know, it's always 
easier, after the fact, to come in and find fault. On the other 
hand, we appreciate your testimony, because we've got protect 
these miners as best we possibly can.
    Maybe I could just ask Mr. Watzman this. This recent mining 
act, how have the major mining companies implemented that act 
since we passed it?
    Mr. Watzman. Senator, I think all of the companies have 
worked aggressively to implement it. And, as I noted earlier, I 
will submit, for the record, a chart that reflects only the 
member companies of the National Mining Association. We 
conducted a survey of them to see what they have done since 
February 2006.
    Senator Hatch. Do you feel you're in compliance with the 
act----
    Mr. Watzman. Yes.
    Senator Hatch [continuing]. Throughout the country?
    Mr. Watzman. Even predating the act. You know, 125,000 new 
self-contained self-rescuers have been introduced into the 
mines. But we still have a backorder of 100,000 of them. 
Communication technology is being introduced into the mines. 
But today there's only a leaky feeder system approved by MSHA. 
The approval process takes some time to get systems to the 
approval stage.
    So, the technology has not advanced quick enough for any of 
us--none of us are satisfied with that--to allow further 
enhancements and further compliance with the act. But, in those 
areas where companies have been able to, mine rescue teams, 
SCSRs, breathable-air provisions for 96 hours of breathable 
air, all of those are being met by the industry, to the degree 
that there is technology available that allows us to meet it.
    Senator Hatch. Okay. Mr. Roberts, do you agree with that?
    Mr. Roberts. I think that the MINER Act from last year--in 
my testimony, I point out where there's been some problems with 
implementing the full act itself.
    Senator Hatch. Right.
    Mr. Roberts. I think Mr. Watzman is correct, there's a 
backorder on the oxygen. There was an--August of last year, 
2006--mandate to get the emergency evacuation plans in place. 
That was not met. It was extended. I think there were both a 
good reason and a bad reason for that. I think most of the 
companies got a plan in, and MSHA rejected many of those plans 
and forced them to go back and re-evaluate those. We still----
    Senator Hatch. Was that good or bad, that MSHA----
    Mr. Roberts. I think it's good that----
    Senator Hatch. Okay.
    Mr. Roberts [continuing]. They were forced to go up--go 
back and come forward with a plan that was--that protected the 
miners.
    Senator Hatch. So, you felt MSHA actually did its job, in 
that instance.
    Mr. Roberts. I think that we have indicated, and publicly 
from time to time, where we think that MSHA's done its job, and 
we've been critical when we think they haven't. The 96 hours of 
oxygen, we publicly stated that that was the correct thing to 
do. The position that MSHA has taken on the seals, we publicly 
said that was the correct thing to do. When they haven't done 
what we think they should do, we've been critical, and we think 
that's the role we should play.
    Senator Hatch. Well, that's the role you should play.
    Well, thank you, Mr. Chairman.
    Senator Harkin. Senator Bennett.
    Senator Bennett. Mr. McAteer, you intrigue me about the 
device that can listen to the mountain. As Senator Hatch has 
indicated, we have a lot of bumps, we have a lot of talking 
mountains, if you will, in Utah. Do you have any idea how many 
people in Utah may be using this?
    Mr. McAteer. Senator, I do not. As we get deeper in our 
mines in this country, this phenomenon of bumps and bursts will 
increase.
    Senator Bennett. Yeah.
    Mr. McAteer. Geologically, that's just a fact.
    Senator Bennett. Yeah.
    Mr. McAteer. I mentioned South Africa--their mines, 2 
miles, 3 miles down, they could not operate without the use of 
seismic detection equipment.
    Senator Bennett. How long has this equipment been 
available?
    Mr. McAteer. Oh, at least 10 to 15 years.
    Senator Bennett. When you were the head of MSHA, did you 
feel any desire to mandate it anywhere or----
    Mr. McAteer. We did not Senator. We had the good fortune of 
not having the Crandall Canyon kind of accident, which demands 
that we look at it. Second, as we increase the coal production 
and increase the demand for coal in this country, we will be 
going into these greater depths, and we'll be going into these 
more difficult circumstances, as we've found here.
    Senator Bennett. So, you would think, at some future point, 
it should be mandated?
    Mr. McAteer. It's my opinion that it ought to be mandated, 
in those mines, particularly, to begin with; and not 
necessarily mandated, it can be used without the mandate. But I 
think it can be a useful tool to any operator who wants to 
understand the pressure in the mountain, and so that you can 
diffuse this pressure. But I do believe that as we go into 
mines that have this kind of problem, the bump problem that you 
spoke of, then we ought to mandate that, yes, sir.
    Senator Bennett. So, you would give MSHA the power, at some 
future point, to say, ``This mine should have it, this mine, 
not necessarily?''
    Mr. McAteer. In the area of gas liberation, there are 
grades--if your mine liberates over x million cubic feet of gas 
per day, 24-hour period, you meet a higher standard, in effect.
    Senator Bennett. Yeah.
    Mr. McAteer. It is our proposal here that such a graded 
standard--because you do have mines that have that kind of 
problem--if you have a mine with 200 feet of cover, and you 
don't have the kind of propensity to have bumps, then I 
wouldn't think you didn't--necessarily need it. But where you 
have these factors that lead to bumps, you know they're going 
to be there, you have a history of bumping, then I think you 
should have that.
    Senator Bennett. Yeah. But do you think--as I say, looking 
forward, you didn't feel it necessary to do, while you were 
there. You're looking forward, you think it would be necessary, 
at some point in the future. Do you think MSHA has the 
authority now to say, ``In mine A we would mandate it, and not 
mine B?'' Or do you think Congress should act and say, ``It 
should be mandated under these conditions?'' Or do you think 
Congress should be--should act and say, ``MSHA should have a 
discretionary authority?''
    Mr. McAteer. MSHA has the authority to promulgate 
regulations, based upon its general jurisdictional powers. So, 
yes----
    Senator Bennett. So, you're not--you're not saying Congress 
needs to act on this----
    Mr. McAteer. I don't believe Congress needs to act. I 
believe MSHA could take it on, yes, sir.
    Senator Bennett. Well, I have understood, since getting 
into this, that mining is only going to get more and more 
dangerous, because--to shift the analogy--we've picked all the 
low-hanging fruit.
    Mr. McAteer. That's right.
    Senator Bennett. We have mined the mines that are the 
easiest to mine, the mines that are, by definition, therefore, 
the safest to mine. As we continue to go after the energy that 
our economy needs, until we resolve the problem in some other 
way, mining is going to get more dangerous, and the use of 
these devices, however much you may not have felt it necessary 
when you were there, you now think it is necessary, and, maybe 
looking ahead to the future, it will become even more 
necessary. Is that a fair assumption?
    Mr. McAteer. That's exactly my belief. The process, it 
doesn't necessarily go into individual mines. In other 
countries, one of the procedures is to do a--in effect, a 
regional seismic read, so that----
    Senator Bennett. I see.
    Mr. McAteer [continuing]. If you hear of bumps, then I can 
say to you, mine operator A, ``You need to take actions here.'' 
That can be done in a different kind of way.
    Senator Bennett. Well, Utah is a region----
    Mr. McAteer. Yes, sir.
    Senator Bennett [continuing]. Where we have these kinds of 
things. Thank you.
    Mr. McAteer. You certainly do.
    Senator Hatch. Mr. Chairman, if I could just ask one----
    Senator Harkin. Senator Hatch----
    Senator Hatch [continuing]. Short question of Mr. Watzman?
    Senator Harkin [continuing]. And then Senator Byrd wanted--
--
    Senator Hatch. Over the last year, since the passage of the 
act, how would you characterize MSHA's enforcement activity? 
Has it been more, less, whatever?
    Mr. Watzman. I think, Senator, our members would say that 
their enforcement has been vigorous.
    Senator Hatch. What does that mean?
    Mr. Watzman. Their inspection----
    Senator Hatch. Double the----
    Mr. Watzman [continuing]. Their presence at the mine sites 
is more robust. There are more citations being issued. There is 
more inspector presence at the mines than there was prior to 
the MINER Act. But that is a trend that has been continuing 
over the last several years. It didn't occur just following the 
tragic events of Sago and Darby and Alma. That was something 
that had started before that, and we're seeing a continuation 
of that now.
    Senator Hatch. Compared to before the act was passed, could 
you give a percentage? Is it 25 percent more strict, double, 
whatever?
    Mr. Watzman. I think, Senator--and I may be off by a little 
bit here, not in terms of the number of inspections, but I 
think that the inspection actions--meaning the citations and 
orders that are being issued--is up, I believe, 10 percent or 
12 percent, if memory serves me correct. So, they're--they have 
a bigger presence at the mines.
    Senator Hatch. Well, thank you.
    Senator Harkin. Thank you, Senator Hatch.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman and Senator Specter, 
for holding these hearings.
    Mr. Secretary, I have just one final question. You're not 
at the table, but if you don't mind: Why were there no 
quarterly inspections this year at the Bronzite Mine, as 
required by the Mine Act?
    Mr. Stickler. What was your question, Senator?
    Senator Byrd. I'll be happy to repeat it. Why were there no 
quarterly inspections this year at the Bronzite Mine, as 
required by the Mine Act?
    Mr. Stickler. Until I investigate that, I cannot give you 
an answer.
    Senator Byrd. Would you say that again, please?
    Mr. Stickler. Until I've had an opportunity to investigate, 
I cannot give you that answer. I don't know the answer, at this 
time.
    Senator Byrd. All right. Now, when you have an opportunity 
to investigate, will you please report to this committee your 
response?
    Mr. Stickler. I will.
    Senator Byrd. I thank you.
    Senator Harkin. Appreciate that. Thank you.
    Senator Byrd. Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Chairman Byrd.
    There's just one other issue that I'm going to just bring 
up here before we all close this down. I'm going to ask Mr. 
Stickler or if any of you have any knowledge of this.
    Arianna Huffington, in an op-ed about this incident, and 
about the whole safety aspect, in general, claims--now, this is 
what she's claiming, I have no knowledge of this, but I intend 
to look into this, Mr. Stickler and others--claims that Mr. 
Murray had enough political muscle to get a Mine Safety and 
Health Administration district manager, who had cracked down on 
safety issues at one of Murray's mines, reassigned. Do you know 
about this at all, Mr. Stickler?
    Mr. Stickler. I can assure you that nothing similar to that 
has happened since I've been in this job.
    Senator Harkin. Any of you know about--Mr. Roberts?
    Mr. Roberts. That is absolutely true.
    Senator Harkin. Pardon?
    Mr. Roberts. That is absolutely true, but it didn't happen 
on Mr. Stickler's watch. That's been--that's not the first time 
that's been published.
    Senator Harkin. As chairman, I intend to have my staff look 
into this and to get as much information as possible. If you 
have any more information on this, Mr. Roberts, I'd appreciate 
it.
    Mr. Roberts. We'll provide it to you, or the entire 
committee, or whoever.
    Senator Harkin. Well, just get it to my staff, so that we 
can look into it when we have Mr. Murray here.
    Do any of you have any other statements or any other 
comments or observations you wish to make before we adjourn the 
hearing?
    If not, again, Mr. Stickler, thank you very much for your 
patience in being here. Thank all of you for your patience. 
Thank all of the miners, who traveled a great distance to be 
here. I'm sure I can say, on behalf of the sons of two old 
coalminers----
    Senator Byrd. Yes, man.
    Senator Harkin [continuing]. That we appreciate all you do 
for the energy of this----
    Senator Byrd. Thank you. Thank----
    Senator Harkin [continuing]. Of this country.
    Senator Byrd [continuing]. You.
    Senator Harkin. Thank you all you coalminers.
    Senator Byrd. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Daniel K. Inouye
                approval of pillar extraction requests:
    Question. Mr. Stickler, I understand that the mining accident that 
occurred in Crandall Canyon is much different from recent mining 
accidents that were the result of mine explosions. The Crandall Canyon 
accident involved mining at extreme depths using the process of retreat 
mining. In the testimony provided by the United Mine Workers of 
America, because of extensive longwall mining performed on both sides 
of the main entries of the mine, the only remaining coal would have 
been in the pillars of the mine. In fact, the UMWA claims that ``there 
can be no doubt that the mountain over the mine was exerting extreme 
pressure on the remaining coal, which was supporting the mine roof.'' 
Despite the obvious dangers of pillar extraction at these extreme 
depths, the Mine Safety and Health Administration (MSHA) approved the 
request from the Murray Energy Company to mine all the remaining coal 
reserves including the barrier pillars.
    Mr. Stickler, under what criteria would the Mine Safety and Health 
Administration have approved this request?
    Answer. In September 2006, the Crandall Canyon mine provided MSHA 
with two Agapito Associates geotechnical reports, dated July 20, 2006 
and August 9, 2006 that analyzed whether the North and South barriers 
of Main West could be safely retreat mined. Agapito Associates used 
both the ARMPS (Analysis of Retreat Mining Pillar Stability) and 
LAMODEL (Laminated Model) computer models to conduct its analyses. 
ARMPS is a computer model that bases its output (pillar stability) on 
empirical data received from historical successes and failures of past 
mining configurations. LAMODEL is a true boundary element, computer 
model where mine design output (stress and convergence) is generated 
from input based on the physical characteristics of the mine seam and 
surrounding strata. LAMODEL is software that uses boundary-elements for 
calculating the stresses and displacements in coal mines or other thin, 
tabular seams or veins. It can be used to investigate and optimize 
pillar sizes and layout in relation to pillar stress, multi-seam 
stress, or bump potential (energy release).
    After an MSHA onsite mine visit and company revisions to the 
retreat mining plan, MSHA subsequently approved the retreat mining plan 
amendment for the North Barrier on February 2, 2007. The plan amendment 
to develop the South Barrier was approved on March 8, 2007. Agapito 
Associates visited the North Barrier section on March 16, 2007. Based 
on its observations, Agapito Associates then reran the LAMODEL computer 
model for retreat mining in the South Barrier. Agapito's subsequent 
recommendations were to increase the pillar length and to slab the 
barrier pillar on retreat, which Agapito contended would move the 
stresses to the gob areas and promote safe caving.
    On April 18, 2007, Agapito Associates sent a letter to Crandall 
Canyon with their recommendations. Crandall Canyon incorporated the 
Agapito recommendations in the plan amendment to retreat mine the South 
Barrier. The South Barrier retreat mining plan amendment left five 
pillars around the Main West sump to protect the South Barrier bleeder 
entry.
    Based on onsite observations of development in the South Barrier on 
May 22, 2007, MSHA recommended that the bleeder entry for the South 
Barrier Pillar retreat mining be adequately supported and protected. 
During the onsite visit, MSHA recommended that the company leave an 
additional three pillars (for a total of eight) to establish a clean 
cave line to prevent a location on the pillar line that could burst.
    The mine operator made the recommended changes in a revised drawing 
dated May 23, 2007, and after an additional review, the South Barrier 
retreat mining plan amendment was approved on June 15, 2007.
    Question. Should the Mine Safety and Health Administration approve 
future pillar extraction requests for other deep mining operations?
    Answer. MSHA will approve future pillar extraction requests for 
other deep mining operations when mine design and safety procedures are 
adequate to protect miners. Since the Crandall Canyon incident, MSHA 
has taken the following actions as described below:
    Evaluations are being made of all underground coal mines in the 
United States to identify Crandall Canyon ``type'' mines that may have 
bump potential. A list of ``bump prone'' deep mines will be compiled. 
Each of these mines will be visited by MSHA's Technical Support roof 
control experts. As a result of the site visit to the mine, 
recommendations will be made to ensure that the mine is adequately 
supported. All recommendations will be presented in memorandum form and 
given to the Coal Mine Safety and Health District where they can be 
shared with the mine operator.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                      msha as primary communicator
    Question. During the news coverage of this disaster it appeared to 
me--and I am sure to many of my colleagues--that mine owner Bob Murray 
was the primary spokesperson at the site. In my mind his confusing and 
conflicting statements and his penchant for railing against government 
regulators were inappropriate at best and, by their own admission 
outraged, the victims' families. This unfortunate situation should have 
never been allowed to occur. I know from my experience chairing the 
Transportation Appropriations Subcommittee that the National 
Transportation Safety Board (NTSB) offers a far more effective model in 
making sure that victims families receive timely information from their 
government first, that it is accurate and that no one else speaks on 
behalf of the government's investigators at an aviation accident site.
    Mr. Stickler, can you tell the subcommittee how you currently 
interpret the following provision in the MINER Act of 2006? ``The 
Secretary shall establish a policy that requires that MSHA shall serve 
as the primary communicator with the operator, miners' families, the 
press and the public.''
    Answer. Section 7 of the Mine Improvement and New Emergency 
Response Act (MINER) Act requires MSHA to be the primary communicator 
with the mine operator, miners' families, press and public during a 
mine disaster. On December 22, 2006, MSHA issued a Program Policy 
Letter (No. P06-V-11) which set forth the policy implementing the 
provisions of section 7 of the MINER Act. Revisions to the Headquarters 
Mine Emergency Response Guidelines Handbook (AH08-III-2) set forth 
specific guidance to be used in applying this policy during a mine 
emergency.
    Often, the mine operator and State agency may have their 
independent communicator on the scene. While MSHA is the primary 
contact for release of official statements regarding rescue and 
recovery efforts, MSHA's spokesperson works closely with other 
organizations to ensure the message is clear and accurate. Neither the 
MINER Act nor MSHA's policy prohibits the mine operator or others from 
communicating with the families or the public.
    Question. Did you communicate to Mr. Murray that you were to be the 
primary communicator at the site? If so, what was Mr. Murray's reaction 
to your role as the primary communicator at the site? If not, why not?
    Answer. Yes. Mr. Murray and I discussed the fact that MSHA is the 
primary communicator. Immediately after MSHA was notified of the 
Crandall Canyon accident, MSHA began acting as the primary communicator 
with the families, policymakers, the public and the media, a 
responsibility MSHA takes very seriously. MSHA also acted as the 
primary communicator with the media. MSHA held regular briefings every 
day for reporters at the sheriff's command center. During these 
briefings, we provided detailed updates regarding the rescue effort and 
answered reporters' questions. MSHA also provided regular updates on 
the agency's website regarding the rescue effort and issued media 
advisories concerning our updates at the mine site. In addition, MSHA 
personnel regularly updated Utah's governor and congressional 
delegation on the status of the rescue operations, both onsite and 
offsite.
    MSHA and the operator were present at each of the family briefings. 
At times, representatives of the State of Utah participated as well. In 
addition to the three family liaisons dispatched by MSHA to provide 
regular updates on the rescue operation, MSHA also provided 
interpreters for the Spanish-speaking families. In each of these 
briefings, MSHA took the lead as the primary communicator. In some 
cases the media did not show MSHA's briefings, but elected to broadcast 
only the mine operator's comments.
    Question. Did MSHA provide Mr. Murray with information on any 
developments at the site before the families were briefed?
    Answer. Yes. Typically there was a pre-meeting held between MSHA 
and the company prior to meeting with the families. Because of the mine 
operator participation with the rescue effort at the mine site, the 
operator already knew of developments in most cases.
    Question. Did MSHA provide Mr. Murray with any communication 
techniques or strategies on how to best update families and the public 
on new developments?
    Answer. MSHA did suggest communication techniques or strategies to 
Mr. Murray and also suggested that Mr. Murray be replaced with someone 
else from the company. As the rescue operation progressed, Mr. Murray 
was replaced by another company spokesman.
    Question. Given the confusing and misleading information that was 
delivered to the families on multiple occasions at this site, does MSHA 
need more legislative authority to properly secure a mine accident 
site?
    Answer. In general, MSHA does not feel that the information the 
agency delivered to the families was confusing or misleading. MSHA kept 
a family liaison representative with family members 24 hours per day. 
The MSHA liaison representative called the command center to get 
updates on the hour. In addition, the MSHA Assistant Secretary briefed 
the families twice a day (morning and evening) to give them a firsthand 
account of what was taking place during the rescue operation and what 
was being planned. MSHA does not have or need any legislative authority 
to secure a mine accident site. This is best handled by local law 
enforcement, county, or State police.
    Question. I was very concerned to recently learn that MSHA denied 
the UMWA's petition to be the miners' representative in the Crandall 
investigation.
    Mr. Stickler, it would seem to me that in any investigation you 
would want to gather as much information as possible from sources with 
first hand knowledge and experience. The Crandall Canyon miners and 
families have a unique perspective on the safety conditions they work 
in, yet their opinions and observations are not being included in this 
investigation.
    Mr. Stickler, do you think that the families of the trapped miners 
should have a strong voice in the upcoming investigation? If yes, can 
you assure me that their concerns will be heard? How do you plan to 
include them?
    Answer. I believe that families must have a strong voice in the 
investigation, and MSHA has worked to keep the families involved. I am 
personally committed to seeing that MSHA does everything it can, 
consistent with the requirements of the law, to address the concerns of 
the families and determine the cause of the accident. As you may know, 
immediately after MSHA was notified of the Crandall Canyon accident, 
MSHA, fulfilling its responsibilities under the MINER Act, dispatched 
three family liaisons to meet with family members and kept them updated 
on the rescue operation. First, early in the investigative process the 
families were invited to share any relevant information that they had 
with the MSHA investigative team. The families were invited to meet 
either formally or informally with the team to provide this 
information.
    Question. The Miner Health and Safety Enhancement Act of 2007 calls 
for the establishment of an independent ombudsman to ensure proper 
attention to miner complaints of unsafe conditions and to protect 
whistleblowers from retaliation. Do you believe that such an office 
would allow miners, particularly those without union representation, 
the opportunity to voice their concerns about their safety?
    What procedures at MSHA have you established to ensure the voices 
of miners are heard and respected through the independent ombudsman?
    Answer. MSHA does not believe an independent ombudsman would do 
more than the procedures already in place. MSHA has a well-publicized, 
national hazardous condition complaint hotline that is staffed around 
the clock with live operators. The hotline allows any miner, miner's 
family, or member of the public to anonymously call or submit a written 
complaint online regarding concerns about hazardous or unsafe 
conditions. This Call Center collects relevant information, logs in the 
complaint and notifies the respective MSHA office emergency contact, 
who then initiates an investigation. The complaint is sanitized so mine 
operators do not know who called in the complaint.
           right to control all activity when disaster occurs
    Question. According to testimony by Mr. Roberts, since 1977, MSHA 
has had the right to control all activity at the mine when disasters 
occur by issuing a section 103(j) order, yet MSHA has chosen to use the 
authority under section 103(k), which permits the operator greater 
latitude in directing a rescue operation. Why did MSHA not use this 
authority, and after misinformation was given to the miners' families 
and the media by Mr. Murray, why was section 103(j) not ordered?
    Answer. MSHA believes that  103(k) is a very strong provision of 
the Mine Act relating to rescue activities in that it requires the mine 
operator to get MSHA's approval of the mine operator's plan for its 
rescue operations. The mine operator is the entity in the best position 
to know the mine, prepare a rescue plan, and engage in the activities 
necessary under the plan. Under  103(k) the mine operator cannot take 
action without consulting with MSHA (and any State representatives when 
feasible) to obtain MSHA's approval of the plan. Further, under  
103(k), MSHA can issue any order to the mine operator that the agency 
deems appropriate to provide for the safety of any person in the mine. 
This section of the Mine Act is a very powerful tool under which MSHA 
approved all actions by the mine operator before those actions were 
implemented. In addition, MSHA moderated Mr. Murray's contacts with the 
families. We do not believe that we, or any federal agency, have the 
power to prevent Mr. Murray from talking to the press.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                           mine act  103(k)
    Question. Please describe the K order issued at the Crandall Mine?
    Answer. Under Mine Act 103(k), when an accident occurs MSHA may 
issue any orders appropriate to ensure the safety of any person in the 
mine. In addition, under  103(k) the mine operator, in consultation 
with any appropriate State representative, must obtain MSHA's approval 
of its rescue or recovery plans. Based on the information received by 
the Call Center and forwarded to MSHA District 9, MSHA initially issued 
the 103(k) order over the phone to the mine operator before MSHA's 
arrival onsite. The  103(k) order required mine management to evacuate 
the mine and effectively secure the site and was reduced to writing 
when MSHA arrived onsite.
    Question. What parts of the mine were covered by the order? What 
parts, if any, were not covered, and why?
    Answer. The original 103(k) order covered the Main West Pillar 
section. No other parts of the mine were included in the order. MSHA 
did not feel that miners' safety was at risk in the area out by the 
Main West Pillar section.
    Question. What modifications to the order, if any, were issued?
    Answer. The order was modified six times in the days following the 
initial mine collapse to allow recovery operations to continue in 
accordance with the approved plans.
    Question. When were those modifications issued?
    Answer. Modifications were issued on: August 6, August 7 (two 
modifications), August 8, August 16, and September 4.
    Question. What were the reasons for the modifications?
    Answer. MSHA modified the order for the following reasons:
  --Modification No. 1 (6:00 a.m. MDT on August 6, 2007) was made to 
        show the correct time of the bounce, allow necessary personnel 
        travel underground to repair damaged ventilation devices, 
        install a belt tailpiece at crosscut 120, and to open up the 
        No. 1 seal to explore old Main West entries.
  --Modification No. 2 (1:50 p.m. on August 7, 2007) was made to permit 
        the use of cameras underground.
  --Modification No. 3 (6:20 p.m. on August 7, 2007) was made to allow 
        personnel to travel underground to make necessary repairs to 
        damaged ventilation devices, clean in and around the feeder 
        breaker, and advance in the No. 1 entry.
  --Modification No. 4 (10:18 a.m. on August 8, 2007) was made to allow 
        the operator to continue recovery operations in accordance with 
        an MSHA-approved site-specific plan.
  --Modification No. 5 (11:35 p.m. on August 16, 2007) was made to 
        prohibit anyone from traveling in by crosscut 107 of Main West.
  --Modification No. 6 (3:55 p.m. on September 4, 2007) was made to 
        allow work in crosscut 90 provided that all entries were 
        continually monitored for O2, CO, and CH4.
    Question. Who made the decision to allow the media and others to 
tour underground during the rescue effort?
    Answer. Typically, the mine operator proposes mine rescue activity 
and plans for MSHA approval. MSHA can deny approval of the proposed 
plan if MSHA believes the plan is unsafe. Mr. Murray proposed that the 
film crew (media group) be permitted into the mine.
    The highest-ranking MSHA official on site is responsible for MSHA 
decisions. In this case I was on site and take responsibility for final 
approval. The Coal Mine Safety and Health Administrator, District 9 
Manager and Assistant District Managers, Field Office Supervisor and 
other MSHA personnel also were on site.
    No one expressed concern to me that it was unsafe for the film crew 
to enter the mine area in which it was permitted. The film crew was 
given the usual visitors' safety training before it entered the mine. 
MSHA officials traveled with the visitors and monitored their safety.
    Question. Why was that decision made?
    Answer. At the time the film crew entered the mine, the family 
members were very distraught due to their belief that the rescue effort 
was moving too slowly and not using the most effective methods or 
equipment. The pictures of the surface and underground rescue were 
valuable in helping the family members understand the rescue process 
and develop confidence that the maximum effort was being made to reach 
their loved ones.
    Question. Was this decision consistent with the K order?
    Answer. The original 103(k) order was modified on at 1:50 p.m., on 
August 7, 2007, to permit the mine operator to use a camera 
underground.
    Question. What communications occurred between the mine operator 
and MSHA relating to the K order?
    Answer. As  103(k) requires, the mine operator submitted rescue 
and recovery plans and modifications to MSHA for approval. 
Communication between the mine operator and MSHA were continuous and 
ongoing throughout the rescue effort.
    Question. What modifications, if any, resulted from these 
communications?
    Answer. After the operator submitted acceptable plans, MSHA 
modified the order to allow the operator to implement the submitted 
plan.
                           bump of march 2007
    Question. Mr. Stickler, it has been reported that a bump occurred 
at the Crandall Canyon Mine in March 2007, and that the bump caused the 
cessation of regular mining activity in one area of the mine. When and 
how did MSHA officials become aware of the bump that occurred in March 
2007?
    Answer. MSHA was not immediately notified of the March 10, 2007 
burst or its magnitude. The burst occurred on a Saturday and was not 
reported to MSHA as a 30 C.F.R. part 50 reportable accident. On March 
12, 2007, the mine operator notified the district office of ventilation 
monitoring concerns and to discuss a need to abandon the section. It 
was during this conversation that MSHA was made aware that the March 
10, 2007 burst had occurred.
    Question. What other bumps and roof control problems was MSHA aware 
of prior to August 6?
    Answer. Since January 2002, MSHA was aware of several injuries at 
the Crandall Canyon mine involving ground control issues. Four injuries 
occurred due to two bursts on the face during longwall mining and one 
injury occurred from a rib sloughing during retreat mining. None of 
these injuries was life-threatening. However, they resulted in serious 
injuries. Inspections conducted by enforcement personnel revealed no 
issues or problems with the roof control plan.
    Question. What enforcement actions, if any, did MSHA take in 
response? Answer. MSHA issued 27 ground control violations to the 
Crandall mine from 2002 to 2007.
    Question. Has a determination been made about whether the March 
2007 bump should have been reported to MSHA? If so, what are the facts 
that led to MSHA's determination? If not, when will a determination be 
made?
    Answer. The Crandall Canyon Accident Investigation Team will 
address this in its accident investigation report. The team has 
obtained all available information and has interviewed personnel with 
firsthand knowledge. The investigative report will determine if the 
operator should have reported the March 2007 burst.
                   approval of the crandall mine plan
    Question. Mr. Stickler, MSHA's accident report on the Sago disaster 
acknowledges that the agency approved a plan for bottom mining (a kind 
of secondary mining) on the same day that the plan was submitted for 
review. How long did MSHA consider the plan at the Crandall Mine?
    Answer. The roof control plan amendment to develop four entries in 
the South Barrier was received on February 23, 2007. The amendment was 
approved on March 8, 2007. The District 9 District Manager signed the 
amendment for the development of the South Barrier Block of Main West. 
Prior to Crandall Canyon's submittal of the amendment, there was 
discussion between MSHA and the company regarding stipulations that 
should be included in the amendment.
    On May 15, 2007, MSHA received a copy of the Agapito Associates, 
Inc. report, dated April 18, 2007. MSHA received the operator's plan to 
retreat mine the south Main West barrier on May 17, 2008. Following an 
onsite evaluation of the ground conditions in the south Main West 
barrier development on May 22, 2007, discussions were conducted with 
the operator regarding the district's concerns with the plan. On June 
15, 2007, MSHA approved the plan to retreat mine the south West Main 
barrier.
    Question. Who was involved in those deliberations?
    Answer. The review of the roof control plan amendments was 
conducted by the District 9 Roof Control Supervisor, with the 
assistance of the roof control specialist. Additionally, a graduate 
mining engineer assisted in reviewing some of the proposed roof control 
plan amendments (although he did not review the final plan amendment 
submittals relating to the South Barrier development and retreat 
mining).
    Question. Who gave the final approval?
    Answer. The District 9 Staff Assistant (who was the acting District 
Manager that day) signed the retreat mining roof control amendment for 
the South Barrier Block of Main West. The Staff Assistant is a 
certified Civil Engineer.
    Question. It has been reported that a private engineering 
consultant was retained by the mine operator, and that those engineers 
deemed recovery of coal pillars to be safe at this mine under certain 
circumstances. MSHA concurred in that assessment. Was the full report 
from the private engineering consultant included in the application for 
plan approval?
    Answer. We believe the full reports from Agapito Associates, Inc. 
were included in the application for plan approval. However, MSHA's 
accident investigation team also has looked into this matter and the 
team's report should indicate whether any portions of the Agapito 
report were omitted.
    Question. Were all of the safety standards in the private 
engineering report required by MSHA as part of the Crandall operating 
plan?
    Answer. MSHA's accident investigation team will address this 
question in its report (to be published shortly).
    Question. Did MSHA technicians consult with the private engineers 
prior to approving the Crandall mining operation?
    Answer. No. MSHA personnel discussed the plan submittal with the 
mine operator.
    Question. What was the substance of those discussions?
    Answer. MSHA had no discussions with the Agapito engineers.
    Question. What negotiations, if any, occurred relating to safety 
standards?
    Answer. There were no negotiations. MSHA informed the operator 
about a number of issues that needed to be addressed. The operator 
addressed those concerns and the plan was ultimately approved.
    Question. Did MSHA technicians consult with the MSHA inspectors at 
the Crandall Mine prior to approving the mining operation?
    Answer. Yes. An MSHA District 9 Roof Control Specialist and Roof 
Control Supervisor were underground in the South Barrier section on May 
22, 2007, to evaluate the operator's submitted plan to retreat mine. 
The Roof Control Specialist worked in the Price field office.
    Question. What was the substance of those discussions?
    Answer. The Roof Control Specialist traveled with the District 9 
Roof Control Supervisor and agreed with the plan approval.
    Question. What negotiations, if any, occurred relating to safety 
standards?
    Answer. There were no negotiations between the roof control 
supervisor and specialist.
    Question. Did the MSHA inspectors at the Crandall Mine consult with 
the private engineers? What was the substance of those discussions? 
What negotiations, if any, occurred relating to safety standards?
    Answer. The MSHA inspectors did not consult with the private 
engineers.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
                           rescue operations
    Question. In our meeting at the site--the day after the initial 
collapse--we were informed that rescue operations would not occur 
inside the mine until the ongoing seismic activity had ceased. 
Following that meeting, the ``bumps'' continued. Nine days later I 
received the news that three rescuers were killed--one of which was an 
MSHA employee--and six injured. What changed that led you to determine 
that it was safe to put rescuers into the mine?
    Answer. After the accident on August 6, 2007, attempts were made to 
reach the trapped miners. These initial attempts involved rescue team 
members exploring the Main West sealed area and the partially filled 
entries in the South Barrier section. Both of these efforts were 
suspended because they required miners to travel into areas where the 
burst occurred and where supplemental ground support had not been 
installed. It was decided that the safest way to reach the miners was 
to clear out the rubble in the number 1 entry of South Barrier section 
and install heavy supplemental ground support. This was the consensus 
of MSHA personnel (which included our engineers from Technical Support, 
District personnel, and headquarters staff) and the mine operator.
    Question. Who makes those decisions and what seismic expertise, if 
any, do these individuals have?
    Answer. Mine rescue decisions evolve from the combined expertise of 
all those involved in the rescue effort. While MSHA ultimately approves 
or disapproves the safety aspects of all plans, our preference is to 
include all input and expertise available and to reach consensus. The 
decision to continue the rescue efforts was a concerted decision. The 
mine operator submitted a plan and it was approved by MSHA. MSHA does 
not believe that seismic expertise exists that can determine when a 
burst will or will not occur. MSHA felt the best support available was 
the system discussed in the answer above. We did feel it would be able 
to protect miners at that time. After August 16, 2007, it was apparent 
that the support was inadequate, and the underground rescue operation 
was ceased.
    Question. Does MSHA have the ability to make rescue operations 
recommendations, or does it simply approve the plans that are made by 
the mining operation?
    Answer. After issuing a 103(k) order under the MINE Act, MSHA can 
approve or reject any rescue plan submitted by the mine operator. MSHA 
also has the authority under 103(j) and 103(k) to issue orders and 
take actions independently.
    Question. Would safety increase if MSHA took a leading operational 
role in rescue operations?
    Answer. MSHA obtains the best safety results through the issuance 
of a 103(k) order to control the safety aspects of the rescue or 
recovery operation. The mine operator's mine specific knowledge of 
personnel, equipment, and infrastructure is critical to leading the 
operational role.
                             msha resources
    Question. Given that this hearing is taking place in an 
appropriations subcommittee, the first question that comes to mind is: 
does the Mine Safety and Health Administration (MSHA), a government 
agency, have the necessary resources to enforce safety and health 
standards and promote safety and health conditions?
    Answer. As of September 5, 2007, Coal Mine Safety and Health 
(CMS&H) had 744 enforcement personnel, of which 488 were authorized 
representatives and 256 were inspector trainees. Each month the number 
of inspector trainees decrease as they progress from the trainee status 
to the authorized representative ranks. During the supplemental mass 
hiring, CMS&H's goal was 757 enforcement personnel, which is an 
adequate number of enforcement resources to enforce safety and health 
standards and promote safety and health conditions.
    Question. The MSHA Price office has jurisdiction over the Crandall 
Canyon Mine. Does the Price office have the necessary resources and 
staff to effectively do its job?
    Answer. Yes, we believe they do. At the beginning of the 
supplemental hiring process in July 2006, the Price Office consisted of 
15 enforcement personnel, which included three specialists and three 
trainees. As of September 5, 2007, that office consisted of 17 
enforcement personnel (which included one specialist and 7 trainees). 
As long as we continue to be funded for this staffing level, we feel 
that this is an adequate number of enforcement resources for the Price 
office to enforce safety and health standards and promote safety and 
health conditions.
                     being notified of an accident
    Question. Clearly one of the key questions we should ask is when 
did MSHA first learn of the initial bump and when did it learn that six 
miners were missing?
    Answer. The mine operator first notified MSHA of the initial August 
6, 2007, burst via the MSHA toll-free hotline at 3:43 a.m. Mountain 
Daylight Time (MDT). The mine operator did not report death, injuries, 
or entrapment of miners. The Call Center operator notified MSHA at 3:51 
a.m. MDT. The MSHA official contacted the mine at 4:03 a.m. MDT. During 
a phone conversation with the mine officials at 4:05 a.m. MDT, MSHA 
learned that 6 miners were missing and no contact had been made. The 
MSHA inspector verbally issued the  103(k) order at 4:41 a.m. MDT.
    Question. How soon after you learned of the collapse was MSHA at 
the mine?
    Answer. MSHA arrived at the mine at 5:45 a.m. MDT, on August 6, 
2007.
    Question. Could you please walk us through the first initial steps 
MSHA takes when confronted with an accident?
    Answer. Title 30 C.F.R. part 50 defines accidents that must be 
immediately reported to MSHA. When reported, MSHA must promptly inform 
the operator if it will conduct an investigation. During this time, 
part 50 prevents alteration of the accident scene. If an investigation 
will be conducted, MSHA may issue a  103(k) order by phone or when 
arriving onsite.
    Depending on the type and scope of the accident, MSHA management 
will assign one or more investigators. Resources may be deployed based 
on the operator's report or after an initial onsite contact. 
Assignments are made considering any necessary specialty and the need 
to provide an independent investigator not responsible for inspections 
at the mine. Assistance is requested from MSHA Technical Support on a 
case-by-case basis. Investigators travel to the accident site, examine 
the area and take measurements, photos, and detailed notes. Physical 
evidence may be collected as necessary for further examination, 
testing, or other purposes. Related records are reviewed--primarily for 
training and examinations. Witnesses are interviewed. Investigations 
are conducted in cooperation with the operator, any labor 
organizations, the State, and sometimes manufacturers. A formal report 
may be produced.
    For mine emergencies, other resources may be requested including 
the MSHA mine emergency unit, MSHA mine rescue teams, gas analysis and 
monitoring instruments, seismic instruments, satellite communication 
equipment, robotic equipment, additional personnel external to the 
district, and other specialists and resources. These resources are 
deployed in consultation with the headquarters office.
    In cases in which miners are missing or a lengthy rescue/recovery 
operation is expected, each district maintains at least one trained 
Family Liaison to furnish information and assist families that could 
arrive at the mine. MSHA deploys additional trained Family Liaisons to 
ensure 24-hour assistance to the families.
    Similarly, MSHA acts as Primary Communicator to furnish timely 
information to the media and to the public. These procedures fulfill 
the objectives of section 7 of the MINER Act and have been formalized 
in an MSHA handbook.
                         deep cover coal mining
    Question. Utah's mountainous regions are the home to many coal 
mines. Much of this mining is conducted under peaks, which creates 
unique geological challenges for the industry. Do we know enough about 
deep coal mining under peaks for it to be safe? Does MSHA have the 
staff with the necessary expertise to manage such mining? If so, could 
you convey to the subcommittee MSHA's qualifications in this area?
    Answer. MSHA (Technical Support) does have the staff with the 
necessary expertise to manage deep cover coal mining. MSHA's Technical 
Support has an engineer on staff with extensive ground control-related 
industry experience at deep cover coal mining operations and another 
engineer has considerable research experience regarding ground control-
related hazards in deep cover coal mines. Since mining in Crandall 
Canyon type conditions is very limited in the United States, Technical 
Support expertise is sufficient to evaluate similar mining conditions 
and roof control plans throughout the country. The two engineers 
discussed above are nationally recognized experts in deep mining and 
computer modeling. However, several engineers in the Technical Support 
Roof Control Division are also well versed and respected authorities in 
this area.

                         CONCLUSION OF HEARING

    Senator Harkin. Thank you all very much for being here. 
That concludes our hearing.
    [Whereupon, at 1:05 p.m., Wednesday, September 5, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
